<html>
<title> - POLICY PRIORITIES AT THE DEPARTMENT OF THE INTERIOR AND THE ADMINISTRATION'S FISCAL YEAR 2019 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
     POLICY PRIORITIES AT THE DEPARTMENT OF THE INTERIOR AND THE 
           ADMINISTRATION'S FISCAL YEAR 2019 BUDGET PROPOSAL

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, March 15, 2018

                               __________

                           Serial No. 115-40

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       




        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                       _________ 

            U.S. GOVERNMENT PUBLISHING OFFICE
                   
29-980 PDF          WASHINGTON : 2018                
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Colleen Hanabusa, HI
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Darren Soto, FL
Paul Cook, CA                        A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Garret Graves, LA                    Wm. Lacy Clay, MO
Jody B. Hice, GA                     Jimmy Gomez, CA
Aumua Amata Coleman Radewagen, AS    Vacancy
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, March 15, 2018.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     6
        Prepared statement of....................................     8

Statement of Witnesses:
    Zinke, Hon. Ryan, Secretary, U.S. Department of the Interior, 
      Washington, DC.............................................     9
        Prepared statement of....................................    11
        Questions submitted for the record.......................    18

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    88

    Submissions for the Record by Rep. Grijalva

        Alliance for Retired Americans, Statement for the Record 
          dated March 15, 2018...................................    80
        American Society on Aging, Statement for the Record......    80
        AMVETS, Letter dated March 15, 2018......................    81
        Green Latinos, Letter dated March 14, 2018...............    81
        National Disability Rights Network, Statement for the 
          Record.................................................    82
        National Wildlife Federation, Letter dated March 12, 2018    83
        Social Security Works, Press Release dated March 15, 2018    83
        Vet Voice Foundation, Tweet dated March 13, 2018.........    84
        Vietnam Veterans of America, Press Release dated March 
          14, 2018...............................................    84

    Submission for the Record by Rep. Huffman

        California Natural Resources Agency, Letter from John 
          Laird to Speaker Ryan, Rep. Pelosi, and Senators 
          McConnell and Schumer, dated March 13, 2018............    85

    Submission for the Record by Rep. McClintock

        Zinke, Secretary Ryan, Letter to Chairman Bishop dated 
          October 31, 2017.......................................    86
                                     



    OVERSIGHT HEARING ON POLICY PRIORITIES AT THE DEPARTMENT OF THE 
   INTERIOR AND THE ADMINISTRATION'S FISCAL YEAR 2019 BUDGET PROPOSAL

                              ----------                              


                        Thursday, March 15, 2018

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Young, Gohmert, Lamborn, 
Wittman, McClintock, Pearce, Thompson, Labrador, Tipton, 
LaMalfa, Westerman, Graves, Hice, Bergman, Cheney, Johnson, 
Gonzalez-Colon, Gianforte, Curtis; Grijalva, Bordallo, Costa, 
Sablan, Tsongas, Huffman, Lowenthal, Beyer, Torres, Gallego, 
Hanabusa, Barragan, Soto, McEachin, Brown, Clay, and Gomez.
    The Chairman. We are happy to welcome all of you here for 
this hearing that deals with the Department of the Interior and 
their Fiscal Year 2019 budget. The Committee on Natural 
Resources will come to order.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chair. This will also allow us to hear 
from witnesses sooner. Therefore, I am going to ask unanimous 
consent that all other Members' opening statements be made part 
of the hearing record if they are submitted to the Subcommittee 
on Federal Lands Clerk by 5:00 p.m. today.
    I appreciate that. I am going to submit most of my opening 
statement--well, the bulk of my opening statement--to the 
record.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. Secretary, we appreciate having you here. 
Thank you, as well to those who are joining you. We appreciate 
that opportunity. We want to welcome you back to the Committee, 
Mr. Secretary.
    I do have some praise I want to give to what you have done 
so far, as you have repositioned the Department into looking at 
what your core statutory functions are, and new evidence that 
the greatest concern is how you actually impact people.
    For too long we have had people coming back here addressing 
us dealing with special interest groups, as opposed to simply 
people. We like the way you looked at some of the burdensome 
regulations that you inherited from the prior administration.
    We will be talking about two elements that I think are 
extremely significant. I think some of your proposals have 
instituted a new degree of federalism never heard before, which 
is very refreshing around this place.
    And also, you have some new initiatives that deal with the 
backlog. I hope you will be talking to that. It is one of the 
things we will be talking about, not just today but in the 
coming few weeks at the same time.
    It is a significant issue.
    With that, I will submit the rest of my statement for the 
record.

    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    Welcome back to the Committee, Mr. Secretary. We are pleased to 
have you here to testify on the Administration's Fiscal Year 2019 
budget and its policy priorities for the Department of the Interior.
    Let me start by offering my praise for your work on many fronts to 
improve land and resource management functions of the Department. Over 
the past year, you have worked proactively to reposition the Department 
as an ally and advocate to the people it serves, and to restore its 
core statutory functions.
    The Administration has also prioritized greater American energy 
abundance and security, and you have positioned the Department as a 
chief contributor in this endeavor. In doing so, you have acted to 
address many overly burdensome regulations initiated under the prior 
administration that resulted in hindered American energy development on 
Federal lands, lost revenues and fewer opportunities for western 
communities.
    Additionally, the Department has used its existing authorities to 
promote the responsible development of our vast onshore and offshore 
energy resources, including the Department's proposed National OCS Oil 
and Gas Leasing Program.
    Whether they know it or not, many of my Democratic colleagues have 
become ardent supporters of federalism because of this plan. Imagine 
that: Political leaders wanting to decide if and how energy resources 
are developed in their states and not be dictated to from Washington. 
Unfortunately, their rush to defend local voices is only a priority 
when it benefits their own interests.
    The Administration and the Department have also demonstrated a 
commitment to greater stewardship of public lands. You clearly realize 
the importance of conserving and maintaining lands and resources 
already under Federal control and have prioritized addressing our 
massive maintenance backlog as part of this effort. You have also taken 
on a broader reorganization of the Department to improve agency 
bureaucracy, elevate local input, and more effectively and efficiently 
serve communities and taxpayers.
    The Administration's Fiscal Year 2019 budget reflects a commitment 
to these priorities and several others. The Administration's nearly 
$800 million budget investment in energy related programs demonstrates 
your commitment to an ``All of the Above'' energy strategy to promote 
both onshore and offshore development.
    The budget request includes innovative solutions to tackle the 
maintenance backlog, including a Public Lands Infrastructure Fund, 
which has garnered bipartisan support. Some have criticized your 
proposal for its reliance on oil and gas revenues as its funding 
mechanism. Ironically, many of these same special interest groups have 
led the charge for permanent reauthorization of the Land and Water 
Conservation Fund, a program that is almost entirely funded by oil and 
gas development on Federal lands.
    Political posturing from a small group of fringe special interests 
shouldn't be allowed to detract a proposal viewed by most Members as a 
thoughtful and creative legislative proposal. I appreciate your 
commitment to this issue and look forward to advancing a solution 
during this Congress.
    As mentioned, the Department has also outlined an ambitious plan 
for reorganization, a concept I wholeheartedly support. The Committee 
looks forward to continuing to work with you on this important 
initiative, and views the related $17.5 million request within your 
budget as a down payment in this endeavor.
    Mr. Secretary, you and your staff conducted significant outreach to 
Congress, governors, local communities and interested stakeholders on 
this proposal. This sort of local engagement is important in all 
decisions your Department makes and we hope this outreach will continue 
as you formalize next steps in the process.
    The President's budget also makes tough choices, balancing fiscal 
realities while prioritizing scarce resources. Overall, it reflects a 
commitment to restore public access to public lands, improve resource 
management and solutions that promote both conservation and economic 
prosperity.
    This Committee is dedicated to advancing shared goals and working 
to provide any additional tools and authorities necessary to achieve 
them. I look forward to your testimony and the engagement of our 
Members.

                                 ______
                                 

    The Chairman. I will now turn to Mr. Grijalva for his 
opening statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, and let me join the 
Chairman in welcoming you, Mr. Secretary, to the Committee. We 
are glad that you are here to discuss the Trump 
administration's spending priorities for the Department, and an 
opportunity for this Committee to exercise its oversight 
responsibilities.
    And right now it seems a good time to exercise those 
oversight responsibilities. Recently, we have seen several 
reports of questionable spending at your Department. These 
reports have raised significant questions about your 
stewardship of taxpayer dollars. I believe the public deserves 
a detailed accounting of these questionable expenses, 
particularly now that you are proposing enormous budget cuts 
across your Department.
    For example, just last week, it was revealed that taxpayers 
are on the hook for more than $138,000 to replace some doors in 
your personal office. This, understandably, reminds the public 
of the $31,000 dining set that was recently ordered by another 
cabinet secretary's office. In your case, your Department has 
said that the office's redecorating expenses are 
``reasonable.'' I hope you will provide some detailed answers 
today explaining why spending $138,000 for office doors is a 
reasonable expense for the public to bear.
    Going down the list of questionable spending, last month, 
taxpayers paid for your travel 1 mile outside Pennsylvania's 
18th Congressional District 2 weeks before a competitive 
special election where you appeared in a photo-op with the 
Republican candidate in that race holding an over-sized 
ceremonial check for abandoned mine cleanup. As you know, these 
grants are routine, and you could have gone to over 1,000 
abandoned mine sites in over 25 states to announce the issuance 
of grants for that cleanup. So, the question for the Committee, 
should you choose to answer that one, is why this particular 
site?
    In October, we saw reports that taxpayers paid for several 
trips where you attended political fundraisers, including 
events at a ski resort in Montana and an upscale Alaskan steak 
house. These trips create the appearance that taxpayers are 
financing partisan political work. Taxpayer-funded trips to 
Santa Barbara and Montana, where you own homes, have similarly 
been called into question.
    In fact, there have been enough questions about your 
taxpayer-funded travels that both the Office of Special Counsel 
and the Interior's Inspector General have opened 
investigations. This questionable spending is even more 
troubling, given the fact that you are simultaneously proposing 
significant funding cuts for important programs serving the 
American people.
    Let me give you some of these enormous cuts in areas such 
as the construction of rural water projects which deliver 
drinking water to rural and tribal communities without potable, 
reliable drinking water; cuts to core climate research and 
science programs at USGS; cuts to renewable energy programs; 
and a 90 percent cut for land acquisition under the popular, 
bipartisan Land and Water Conservation Fund.
    Americans expect our Federal agencies to responsibly manage 
taxpayers' money. The reports of your spending signal to the 
public that maybe we are not meeting that critical standard.
    While the Majority does not seem bothered by reports of 
ethical lapses and conflicts of interest at the Department, my 
Democratic colleagues and I have sent dozens of oversight 
requests seeking information about these matters. 
Unfortunately, you have not seen fit to respond to any of them.
    Last year I, along with other Members, sent two letters 
asking about the decision of the Office of Surface Mining, 
Reclamation, and Enforcement to halt the NAS study on the 
severe health impacts suffered by people who live near 
mountaintop removal coal mines. The rationale provided does not 
withstand scrutiny, and cancellation would result in the waste 
of approximately $400,000 in taxpayer dollars. Yet, there has 
been no response. This is a public health issue and I 
understand it is not a coal industry priority, but it is a 
public health issue to the American people.
    I also requested justification for your review of national 
monuments, but you did not respond, and it was not until the 
Washington Post leaked a copy of the final report that the 
public got a chance to see what it was and get an explanation 
as to why some monuments were included and some were not.
    Last month, I requested information about another secret 
plan that BLM has been working on to steamroll the rights of 
Americans to an open government and an open process. The policy 
changes in the secret report are almost as disturbing as the 
process in which it was generated. The comment period was 
announced via press release, and comments were entered through 
a Google form. Your agency omitted contrary opinions and 
handpicked a selection of anonymous supportive comments. By any 
measure, that is really far from transparent.
    You have an opportunity today to address these and other 
concerns to all my colleagues on the Committee, and I sincerely 
hope that you will.
    Mr. Chairman, I yield back.
    The Chairman. Otherwise, everything OK?
    Mr. Grijalva. Everything is good.
    The Chairman. Good, good.

    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Thank you, Mr. Chairman, and welcome back to the Committee, Mr. 
Secretary. I'm glad you're here to discuss the Trump administration's 
spending priorities for the Department of the Interior, and I thank you 
for being here so we can exercise our oversight responsibilities.
    I'm sorry to say, Mr. Secretary, that right now seems to be a good 
time to exercise our oversight responsibilities. Recently, we've seen 
several reports of questionable spending at your Department. These 
reports have raised significant questions about your stewardship of 
taxpayer dollars, and the public deserves a detailed accounting of 
these questionable expenses, particularly now that you're proposing 
enormous budget cuts across your Department.
    For example, just last week, it was revealed that taxpayers are on 
the hook for more than $138,000 to replace some doors in your personal 
office. This understandably reminds the public of the $31,000 dining 
set that was recently ordered for another cabinet secretary's office. 
In your case, your Department has said your office's redecorating 
expenses are ``reasonable.'' I hope you'll provide some detailed 
answers today explaining why spending so much for your office's doors 
is a reasonable expense for the public to bear.
    Going down the list of questionable spending, last month, taxpayers 
paid for you to travel 1 mile outside Pennsylvania's 18th Congressional 
District 2 weeks before a competitive special election, where you 
appeared in a photo-op with the Republican candidate in that race 
holding an over-sized ceremonial check for abandoned mine cleanup. The 
grants you were announcing are routine and you could have gone to over 
a thousand abandoned mine sites for a photo-op. You will need to 
explain to the Committee how you chose that one.
    In October, we saw reports that taxpayers paid for several trips 
where you attended political fundraisers, including events at a ski 
resort in Montana and an upscale Alaskan steak house. These trips 
create the appearance that taxpayers are financing your partisan 
political work. Taxpayer-funded trips to Santa Barbara and Montana, 
where you own homes, have similarly been called into question.
    In fact, there have been enough questions about your taxpayer-
funded travels that both the Office of Special Counsel and Interior's 
Inspector General have opened investigations. This questionable 
spending is even more troubling given the fact that you're 
simultaneously proposing significant funding cuts for important 
programs serving the American people.
    To take just a few examples, you've proposed enormous cuts: for the 
construction of rural water projects, which deliver drinking water to 
rural and tribal communities without reliable drinking water; to core 
climate research and science programs at USGS; for renewable energy 
programs; and a 90 percent cut for land acquisition under the popular, 
bipartisan Land and Water Conservation Fund.
    Americans expect our Federal agencies to responsibly manage 
taxpayers' money. The reports of your spending signal to the public 
that you are not meeting this critical standard.
    While the Majority has not seemed bothered by reports of ethical 
lapses and conflicts of interest at the Department, my Democratic 
colleagues and I have sent dozens of oversight requests seeking 
information about these matters. Unfortunately, you have not seen fit 
to respond.
    For example: Last year, I sent two letters asking about the 
decision of the Office of Surface Mining Reclamation and Enforcement to 
halt an NAS study on the severe health impacts suffered by people who 
live near mountaintop removal coal mines. The rationale provided does 
not withstand scrutiny, and cancellation would result in the waste of 
approximately $400,000 in taxpayer dollars. Yet, there has been no 
response.
    I also requested a justification for your ``review'' of national 
monuments, but you did not respond and it wasn't until the Washington 
Post leaked a copy of the final report did the public get any 
explanation as to why some monuments were included and some were not.
    Last month, I requested information about another secret plan that 
BLM has been working on to steamroll the rights of Americans to an open 
government. The policy changes in the secret report are almost as 
disturbing as the process in which it was generated--the comment period 
was announced via press release and comments were entered through a 
Google form. Your Agency omitted contrary opinions and handpicked a 
selection of anonymous supportive comments. By any measure, this is far 
from transparent.
    You have an opportunity today to address these and other concerns, 
and I hope you will.
    Thank you, I yield back.

                                 ______
                                 

    The Chairman. We want to welcome the witnesses that are 
here today.
    First of all, the Honorable Ryan--do I have to say 
honorable all the time here--the Honorable Ryan Zinke, who is 
Secretary of the Department of the Interior.
    He is accompanied by Olivia Barton Ferriter--we appreciate 
you--who is the Deputy Assistant Secretary for Budget, Finance, 
Performance, and Acquisition--long title, but is here to answer 
specific questions on details of the budget, as well as Ms. 
Denise Flanagan, who is the Director of the Office of Budget 
within the Department of the Interior.
    [Pause.]
    The Chairman. Apparently there is another statement from 
the Democrat side. We do allow the Vice Chairs. We are going to 
waive that on our side.
    Mr. Huffman, apparently you want to make a statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman, and welcome to 
Secretary Zinke and our witnesses.
    We are here to examine the President's Fiscal Year 2019 
budget request for the Department of the Interior, a budget 
that many of us find deeply disappointing. It is not just the 
huge cuts that would hamstring critically important programs 
like western drought funding, climate research, endangered 
species conservation, and land acquisition through the Land and 
Water Conservation Fund (LWCF).
    This is a budget that places the exploitation of our public 
lands above any other uses. It undermines national parks and 
cuts land and water conservation. It turns back the clock on 
our Federal Government's role to a time before Teddy Roosevelt, 
John Muir, and Gifford Pinchot.
    This is a budget that prioritizes the profit that oil, gas, 
and coal companies can dig, drill, and otherwise wring out of 
our public lands, with no consideration of future generations 
or the long-term impacts to health and the environment. We are 
producing more oil and natural gas today than ever before, and 
now we have so much that we export millions of barrels of crude 
and billions of cubic feet of gas overseas every day, and yet, 
according to the priorities in this President's budget, the 
Interior Department still isn't doing enough favors for oil and 
gas companies.
    Every year, average global temperatures get hotter. The 
Arctic ice cap gets smaller, storms get stronger, and droughts 
get more severe. Yet, according to the priorities in this 
budget, the Interior Department had been previously thinking 
and doing too much to combat global climate change.
    In over 3,600 pages of budget documents from your 
Department, the phrases ``climate change,'' ``climate impact,'' 
``climate science,'' and ``climate resilience'' are used a 
grand total of 31 times combined, with 21 of those times being 
references to programs that are being slashed or eliminated.
    The new DOI strategic plan eliminates all references to 
climate change, but makes sure that the first three words in 
the new departmental vision statement are to ``promote energy 
dominance.'' That is the kind of vision that leads to opening 
both the Atlantic and Pacific coasts to unwanted offshore 
drilling.
    It is the kind of vision that leads to stacking a royalty 
collection advisory committee with oil, gas, and coal 
executives, which, unsurprisingly, led to recommendations to 
give those industries huge discounts and rip off the American 
taxpayers for the use of their lands and waters.
    That is the kind of vision that leads to a cynical proposal 
to pay for maintenance in our national parks through vastly 
expanded drilling and mining. You want to fix that leaky roof 
at the visitor center? Fine, let's drill a few more oil wells.
    We should not have to drill our parks in order to save 
them, especially not when the President is continuing to 
celebrate the enormous budget holes that he and this Republican 
Congress just created with their tax cuts.
    The more you look at this budget, the more offensively 
misplaced priorities you see. The budget proposes drastic cuts 
to programs that have helped the United States to lead the 
international fight against wildlife trafficking, replacing 
these proven efforts with an ill-conceived International 
Wildlife Conservation Council to carry out the wishes of trophy 
hunters and the NRA.
    And now it has gotten worse. Following a lawsuit by the NRA 
and others, unfortunately, Mr. Secretary, your Department has 
reopened the door for more elephant tusks and lion hides to be 
imported into the United States, lifting the ban on these big 
game trophies on a case-by-case basis. President Trump, who 
will never be mistaken for a conservationist, rightly described 
these trophy hunts as a horror show for elephants.
    And while the Department is rolling back protections, 
ironically, China is stepping up its work on international 
wildlife conservation. So, just when our years of pressure and 
leadership are starting to work in the world community, we are 
abdicating our leadership role.
    This decision to allow elephant trophies to be imported 
reflects an administration under the undue influence of the 
NRA. And we have seen reports that taxpayers recently paid for 
you to stay at the Four Seasons Resort in Dallas to attend a 
conference organized by the NRA, where you also reportedly met 
with several campaign donors.
    I am reminded, too, of the decision by political appointees 
in your Department to muzzle the National Park Service's 
concerns about the provisions of the NRA-backed silencer bill.
    The bottom line is we see a budget here that should uphold 
strong environmental protections for air, water, wildlife, and 
natural places, areas where we have been a world leader. But 
instead, this budget would dismantle those things. In so many 
ways right now, this great agency is mired in chaos, cronyism, 
and at least the appearance of corruption. That, and the 
upside-down budget priorities surely have TR rolling in his 
grave.
    With that, I yield back.
    The Chairman. Thank you.

    [The prepared statement of Mr. Huffman follows:]
   Prepared Statement of the Hon. Jared Huffman, a Representative in 
                 Congress from the State of California
    Thank you, Mr. Chairman. And welcome back to the Natural Resources 
Committee, Secretary Zinke.
    We're here to examine the President's Fiscal Year 2019 budget 
request for the Department of the Interior, a budget that is deeply 
disappointing. It's not just the huge cuts that would hamstring 
critically important programs, like western drought funding, climate 
research, endangered species conservation, and land acquisition through 
the Land and Water Conservation Fund.
    This is a budget that places the exploitation of our public lands 
above any other uses. It undermines national parks and cuts land and 
water conservation, and it turns back the clock on the Federal 
Government's role to a time before Teddy Roosevelt, John Muir, and 
Gifford Pinchot.
    This is a budget that prioritizes the profit that oil, gas, and 
coal companies can dig, drill, or otherwise wring out of our public 
lands, with no consideration of future generations or the long-term 
impacts to health and the environment. We are producing more oil and 
natural gas than ever before in our Nation's history, and we now have 
so much that we export millions of barrels of crude and billions of 
cubic feet of gas overseas every day, yet according to the priorities 
in this President's budget, the Interior Department still isn't doing 
enough favors for the oil and gas companies.
    Every year, average global temperatures get hotter, the Arctic ice 
cap gets smaller, storms get stronger, and droughts get more severe, 
yet according to the priorities in this President's budget, the 
Interior Department had been previously thinking and doing too much to 
combat climate change.
    In over 3,600 pages of budget documents from your Department, the 
phrases ``climate change,'' ``climate impact,'' ``climate science,'' 
and ``climate resilience'' are used a grand total of 31 times combined, 
with 21 of them being references to programs being slashed or 
eliminated.
    The new DOI strategic plan eliminates all references to climate 
change, but makes sure that the first three words in the new 
Departmental vision statement are to ``promote energy dominance.'' 
That's the kind of vision that leads to opening both the Atlantic and 
Pacific coasts to unwanted offshore drilling.
    That's the kind of vision that leads to stacking a royalty 
collection advisory committee with oil, gas, and coal executives, 
which--unsurprisingly--led to recommendations to give those industries 
huge discounts and rip off the American taxpayers for the use of their 
lands and waters.
    That's the kind of vision that leads to a cynical proposal to pay 
for maintenance in our National Parks through vastly expanded drilling 
and mining. You want to fix the leaky roof in that visitors center? 
Fine, hope you don't mind the seismic testing outside the front gate.
    We should not have to drill our parks in order to save them. 
Especially not when the President is continuing to celebrate the 
enormous budget holes that he and this Republican Congress created with 
their tax cut scam.
    The more you look at this budget, the more offensively misplaced 
priorities you see. This budget proposes drastic cuts to programs that 
have helped the United States lead the international fight against 
wildlife trafficking, replacing those proven efforts with an ill-
conceived ``International Wildlife Conservation Council'' to carry out 
the wishes of trophy hunters and the NRA.
    And now it's gotten worse: following a lawsuit by the NRA and 
others, your Department has re-opened the door for more elephant tusks 
and lion hides to be imported into the United States, lifting the ban 
on these big game trophies on a case-by-case basis. President Trump--
who will never be mistaken for a wildlife conservationist--rightly 
described these trophy hunts as a ``horror show'' for elephants.
    And while the Interior Department is rolling back protections, 
China is stepping up its work on international wildlife conservation.
    The decision to allow for elephant trophies to be imported into our 
country reflects an Administration under the undue influence of the 
NRA. We've seen reports that taxpayers recently paid for you to stay at 
the Four Seasons Resort in Dallas to attend a conference organized by 
the NRA, where you also reportedly met with several campaign donors.
    I am reminded, too, of the decision by political appointees in your 
Department to sideline the National Park Service's concerns about 
provisions of the NRA-backed Silencer Bill that would prohibit the Park 
Service from regulating hunting and fishing within park boundaries.
    This is a sad state of affairs. The Interior Department budget 
should uphold our strong environmental protections for air, water, 
wildlife, and natural places. These are areas where we have been a 
world leader.
    This budget would instead dismantle that conservation legacy bit by 
bit, rewarding extractive industry while ignoring our responsibilities 
to our children and grandchildren.
    I have a lot of questions about this budget's misplaced priorities 
that I hope we'll have time for, but for now I look forward to hearing 
the Secretary's testimony, and I yield back.

                                 ______
                                 

    The Chairman. Mr. Gohmert, we will waive your statement so 
we can get back to questions, we can hear speeches all the 
time. We will waive your speech, going forward with that. 
Whether you want to waive it or not, you just waived it.
    Mr. Zinke, let me turn the time over to you. You understand 
how the system works. You have to turn the microphone on. You 
have 5 minutes for the opening presentation, and then we will 
launch right into questions for you, if that is OK.

STATEMENT OF THE HON. RYAN ZINKE, SECRETARY, U.S. DEPARTMENT OF 
                  THE INTERIOR, WASHINGTON, DC

    Secretary Zinke. Thank you, Mr. Chairman, Ranking Member, 
and Committee members, for the opportunity to offer my support 
for President Trump's Fiscal Year 2019 budget for the 
Department of the Interior. With your permission, I would like 
to submit my entire statement for the record.
    The President has been very clear about his priorities, and 
he has spent the first year in office keeping his promises he 
has made to the American people. And he is keeping his 
promises. The budget is a major step toward keeping another 
promise: rebuilding our infrastructure.
    Our proposal is the largest investment in our public lands 
infrastructure in the history of this Nation. Our public lands 
are recognized as our greatest treasures, but they have 
suffered serious neglect from our Nation's leaders from both 
parties over the past.
    Interior's deferred maintenance budget backlog is $16 
billion; $11.5 billion of that can be found in our beloved 
national parks. This includes everything from roads, bridges, 
tunnels, visitor centers, and restrooms. It is no way to treat 
our national treasures. At the Grand Canyon alone, for example, 
a water pipe has broke 80 times since 2010. It has forced 
emergency rationing and has cost millions of dollars to fix 
over and over.
    The President's budget proposes legislation for new public 
lands infrastructure to address the deferred maintenance 
problem. This legislation is a top priority. It is a 
legislation based on all energy, not oil and gas, as our policy 
is clear. We are American energy first, all types of energy, 
and not just oil and gas.
    The fund will provide up to $18 billion over 10 years for 
maintenance improvements in our national parks, wildlife 
refuges, and Bureau of Education, in that I am responsible for 
the education of 48,000 American Indian Natives, and they 
deserve a world-class education, too. This budget also includes 
$1.3 billion for construction and repairs.
    Infrastructure is not an expense, it is an investment. Our 
budget does just that, it invests in our Nation's treasures. 
Our public lands should be for the benefit and enjoyment of the 
people, as what is expressed in the Roosevelt Arch at the 
Yellowstone National Park.
    In 2006, we had 330 million visitors through our parks, and 
spent an estimated $18.4 billion in local gateway regions, 
nationwide. The economic support of the recreational industry 
is at $887 billion and employs approximately 7.6 million 
Americans. All Americans should have the opportunity to enjoy 
our national parks, but without a significant investment in 
infrastructure to go along with a record-setting amount of 
visitors we have on a yearly basis, we are simply loving our 
parks to death.
    Along with being a great steward of our public lands, 
again, I am the champion of our Indian Nations, and I take that 
responsibility seriously, in that it provides $634 million to 
address our backlog of 150 Bureau of Indian Education schools 
in 23 states.
    We see a great opportunity also to reorganize the 
Department for the next 100 years, and have the same courage 
Roosevelt did 100 years ago to bring this Nation on a path of 
our public lands. As a retired Navy SEAL, I think you will look 
at the front lines. Our front lines are too short and the 
authority in Washington to make decisions about our public 
lands in the field has oftentimes been wrong.
    This budget includes $18 million to begin shifting 
resources to the front line, where they belong, and establish 
unified regional boundaries in Interior's bureaus. This 
reorganization will also enable us to achieve our mission of 
stewardship.
    Our organization is based on science. It is based on 
watersheds, wildlife corridors, ecosystems to manage our public 
lands and waters according to the best science, best practices, 
longest term, greatest good. That is the American conservation 
ethic.
    This budget also recognizes that American strength relies 
on American energy. Under President Trump we are pursuing and 
reaching American energy dominance. And yes, I am proud to say 
that America produced 10.6 million barrels a day. For the first 
time in 60 years we are an exporter of liquid natural gas. I 
wish there was a battery. But until we get a battery, we are 
going to produce energy here at home. President Trump's tax 
cuts and smart regulation are helping to grow the American 
economy. We are growing the economy and American energy 
dominance is a part of that growth.
    All told, our budget request for Fiscal Year 2019 is $11.7 
billion, with a proposed transfer--the Department of Defense 
for the Palau contract, or compact. It raised it to $11.8 
billion.
    This budget clearly lays out a top priority of this 
Administration of energy, conservation, reorganization, and 
rebuilding our park system, our national wildlife system, and 
our Indian education opportunities.

    With that, I am happy to take your questions.

    [The prepared statement of Secretary Zinke follows:]
      Prepared Statement of Ryan Zinke, Secretary of the Interior
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, I am pleased to appear before you today to discuss the 2019 
President's Budget for the Department of the Interior. The 2019 Budget 
Request for Interior is $11.7 billion. The President's budget also 
proposes to transfer $111.0 million of discretionary funding from the 
Department of Defense to support the 2010 Compact Review Agreement with 
Palau, increasing Interior's total 2019 request to $11.8 billion.

                         2019 Budget Priorities

    Interior's 2019 budget prioritizes American interests with targeted 
investments to advance American energy dominance, enhance public access 
to public lands, and strengthen the economy through infrastructure 
investment, regulatory relief, and fiscal responsibility. The 
Department's 2019 budget reflects the Administration's commitment to 
strike the right balance of development and conservation of America's 
resources to advance important national objectives.
    A major component of the 2019 budget is the Public Lands 
Infrastructure legislative proposal, which will provide up to $18 
billion to address Interior's deferred maintenance backlog in the 
national parks, national wildlife refuges, and Bureau of Indian 
Education-funded schools. The investment in the Interior's 
infrastructure will be funded by Federal revenues derived from rents, 
rights-of-ways for energy purposes, and royalties collected by the 
Department of the Interior. The proposal complements the President's 
national infrastructure investment initiative and recognizes the 
strategic importance of long-term investment in America's treasures.

           GENERATING REVENUE AND UTILIZING NATURAL RESOURCES

                       Growing America's Economy

    Across Interior's diverse mission, the 2019 budget emphasizes the 
Department's crucial role in promoting economic growth for America. 
America's lands hold tremendous job-creating assets. Interior supports 
$254 billion in estimated economic benefit, while direct grants and 
payments to states, tribes, and local communities provide an estimated 
$10 billion in economic benefit. In 2017, the Department collected $9.6 
billion from energy, mineral, grazing, and forestry activities on 
behalf of the American people. Interior also supports the economy by 
eliminating unnecessary and burdensome Federal regulatory requirements. 
For example, in 2017, Interior initiated 21 deregulatory actions all 
with significant associated savings for the taxpayer, once enacted.
    The 2019 budget maintains support for Interior programs that play a 
critical role in encouraging national infrastructure development. The 
2019 budget includes $98.8 million for the Fish and Wildlife Service's 
planning and consultation activities to support development while 
avoiding species conflicts. This request enables FWS to meet legal 
consultation requirements and avoid logjams that could delay 
infrastructure projects and associated economic benefits to 
communities, states, tribes, and companies. The request includes $118.7 
million for the Bureau of Reclamation's construction of water delivery 
systems for tribes and local communities. In addition, Reclamation 
continues to explore future water storage opportunities. The budget 
also includes $48.3 million for the Bureau of Land Management's 
cadastral program, which maps and surveys the lands and resources 
needed to permit rights-of-way and other infrastructure project 
requirements in a timely fashion.

                       Advancing Energy Dominance

    Interior plays a significant role in the Administration's objective 
to achieve America's energy dominance. The budget proposes $792.0 
million in current and permanent funding for energy related programs 
across the Department. Interior's 2019 budget continues to support an 
``all-of-the-above'' energy development strategy, increasing funding 
for onshore and offshore oil and gas, expanding coal activities, and 
sustaining the current pace of renewable energy development.
    A large portion of Interior's energy development activities occur 
on the Outer Continental Shelf. The 2019 request includes support from 
offsetting collections for a total offshore energy development and 
safety program of $379.2 million. The budget includes a total of $179.3 
million for offshore oil, gas, and renewable energy development 
activities managed by the Bureau of Ocean Energy Management. It 
includes $9.4 million for BOEM to prepare the 2019-2024 National OCS 
Oil and Gas Leasing Program. The request for BOEM also includes $28.1 
million for Renewable Energy activities across the Bureau. The 2019 
budget includes $199.9 million for the Bureau of Safety and 
Environmental Enforcement's programs to streamline the permitting 
process, conduct inspections, evaluate emerging offshore technologies, 
improve safety, conduct training, and maintain up-to-date policies, 
standards, and guidelines.
    Onshore, the budget includes $176.3 million in current and 
permanent funding for the BLM oil and gas management program which 
generated $348.9 million from bonus bids derived from onshore oil and 
gas lease sales in 2017. The 2019 budget includes $137.2 million in 
appropriated funds for BLM oil and gas management and oversight, 
including leasing, permitting, and inspections. This funding will be 
used to expand areas available for leasing, expedite permitting, and 
improve various aspects of program management. The budget includes 
$19.5 million for the BLM coal management program to help reduce 
processing times, simplify the lease application process, and improve 
the timeliness to complete lease sale fair market value determinations. 
The budget includes $16.0 million for BLM to support onshore Renewable 
Energy development.
    An important component of Interior's natural resource programs is 
the collection and disbursement of receipts from development. The 2019 
budget includes $137.5 million for the Office of Natural Resources 
Revenue. In 2017, Interior held the first meeting of the re-established 
Royalty Policy Committee, which includes 20 members representing local, 
tribal, and state governments and other stakeholders. The RPC advises 
the Secretary on the fair market value and revenue collection from 
Federal and Indian mineral and energy leases, including from renewable 
energy sources.

                Increasing Natural Resource Development

    Interior manages a wealth of additional natural resource assets 
that require balanced stewardship and management. Maintaining healthy 
and productive forests requires active management. The 2019 budget 
includes $9.5 million for BLM's Public Domain Forestry program and 
$90.0 million for the Oregon and California grant lands. Both programs 
support jobs and local economies through timber and timber product 
sales. The programs also maintain and improve the productivity and 
resilience of forest and woodland ecosystems through sales and forest 
development projects such as density management and reforestation.
    The BLM actively manages rangeland and grazing activities on public 
lands in the West which remain a vital part of local western economies. 
The 2019 budget includes $82.1 million for the Rangeland Management 
program. The BLM manages nearly 18,000 livestock grazing permits and 
leases on the public lands.
    Another example is the U.S. Geological Survey Mineral Resources 
program which conducts assessments to identify critical minerals and 
estimate potential supplies. A recent Secretarial Order directs all 
Interior bureaus to identify a list of critical minerals, identify 
domestic sources, and streamline permitting to encourage domestic 
production of these critical minerals. The 2019 budget for USGS 
includes $19.1 million to support this Administration priority. With 
this funding, USGS will accelerate nationwide geological, geophysical, 
and topographical surveys of the United States to locate domestic 
critical mineral sources.

       CONSERVING OUR LAND AND WATER AND EXPANDING OUTDOOR ACCESS

    Interior is the steward of America's public lands and cultural 
resources for the benefit of current and future generations. Taking 
care of the resources we have rather than acquiring new Federal lands 
continues to be a top priority in the 2019 budget. To administer 
ongoing projects, the budget for land acquisition programs across the 
Department is $8.1 million.
    The 2019 budget includes $4.6 billion for operating programs in the 
three primary land management bureaus--BLM, FWS, and the National Park 
Service. This funding supports the day-to-day management of the natural 
resources and public amenities of America's national parks, national 
wildlife refuges, and BLM-managed public areas, including its national 
conservation lands. Within this request is funding to support visitor 
services and safety, law enforcement, and maintenance of facilities. 
Early eradication and control of invasive species is an example of a 
core stewardship activity shared Department-wide, which is funded 
through land management operations. Across Interior, the 2019 budget 
includes a total of $101.1 million for invasive species activities to 
address significant issues such as the spread of invasive mussels and 
Asian Carp.
    The Land and Water Conservation Fund matching grants provided to 
states, and through states to local governments, support the 
acquisition and development of public outdoor recreation areas and 
facilities all across the Nation. The 2019 budget continues a funding 
shift that began in 2018 for NPS State Assistance grants from 
discretionary to mandatory funding. Starting in 2009, discretionary 
LWCF appropriations for the State Assistance program were supplemented 
by revenues from certain oil and gas leases in the Gulf of Mexico, as 
authorized by Section 105 of the Gulf of Mexico Energy Security Act. 
Under existing law, this permanent funding for NPS State Assistance 
grants is expected to reach $89.3 million in 2019.
    Ensuring the availability of water is central to the Department's 
resource stewardship mission and is vitally important to communities 
across the West. The 2019 budget includes $1.0 billion for 
Reclamation's water resource programs to ensure millions of customers 
continue to receive the water and power essential for daily life, 
healthy local economies, and land management. The 2019 budget includes 
funding to continue the WaterSMART water conservation grants and funds 
Title XVI water recycling reuse research grants to support local 
innovation efforts to stretch water supplies.
    The 2019 budget maintains an important commitment to Interior's 
neighboring communities, by including $465.0 million in the 
discretionary request for the Payments in Lieu of Taxes program. The 
PILT payments offset the loss in property tax revenue for communities 
with significant Federal lands in their jurisdictions.

           FULFILLING OUR TRUST AND INSULAR RESPONSIBILITIES

    The Department of the Interior upholds the Federal Government's 
unique trust responsibilities by fostering government-to-government 
relationships between the Federal Government and federally recognized 
tribes, American Indians, and Alaska Natives. The United States also 
has important relationships with the affiliated insular areas including 
the territories of American Samoa, Guam, the U.S. Virgin Islands, and 
the Commonwealth of the Northern Mariana Islands. Interior administers 
and oversees Federal assistance to the three Freely Associated States: 
the Federated States of Micronesia, the Republic of the Marshall 
Islands, and the Republic of Palau.
    The 2019 budget addresses Federal responsibilities and tribal needs 
related to education, social services, infrastructure, and stewardship 
of land, water, and other natural resources. The budget prioritizes 
support for programs that serve the broadest service population rather 
than initiatives that are more narrowly focused. The President's budget 
maintains the Administration's strong support for the principle of 
tribal self-determination and efforts to strengthen tribal communities 
across Indian Country. The budget calls for full funding for Contract 
Support Costs and Tribal Grant Support Costs that tribes incur from 
managing Federal Indian programs.
    The Bureau of Indian Affairs also undertakes initiatives to promote 
resilient tribal communities. The 2019 budget includes $2.5 million to 
address the opioid crisis, which has been particularly devastating in 
Indian Country. The funding will support BIA participation in intra- 
and interagency initiatives that support opioid and substance abuse 
prevention efforts. The BIA liaisons will align, leverage, and 
coordinate Federal efforts and resources to assist American Indian and 
Alaska Native communities in achieving their goals to reduce the supply 
of drugs, provide opioid addiction prevention assistance, and otherwise 
combat the opioid crisis, which is an Administration priority.
    The 2019 budget includes $173.0 million across the Department to 
honor Indian land and water settlement commitments. This includes 
$127.3 million in Reclamation and $45.6 million in BIA. The budget 
continues to meet Federal responsibilities outlined in enacted land and 
water rights claim settlements with Indian tribes to ensure they have 
access to land and water to meet domestic, economic, and cultural 
needs.
    In 2019, the Office of Insular Affairs will continue to execute 
activities which bolster healthcare capacity, strengthen island 
economies, and fulfill U.S. compact obligations. The proposed 2019 OIA 
budget is $608.0 million, with $84.1 million in current appropriations. 
The President's budget also proposes $111.0 million in discretionary 
Department of Defense appropriations as a transfer to the Department of 
the Interior to fund the 2010 Compact Review Agreement with Palau.

                  PROTECTING OUR PEOPLE AND THE BORDER

    A key component of Interior's land stewardship and public safety 
goals is management of wildland fire. The 2019 budget provides $388.1 
million for wildfire suppression. The budget responsibly funds 100 
percent of the rolling 10-year average cost for wildfire suppression in 
the Departments of Agriculture and the Interior within discretionary 
budget caps, and proposes a separate annual cap adjustment for wildfire 
suppression operations to ensure adequate resource availability during 
severe fire seasons.
    Over 12.5 million acres under Interior's jurisdiction are within 50 
miles of the United States-Mexico border. More than 40 percent of the 
border, or 820 linear miles, is managed by Interior's land management 
agencies and the U.S. Forest Service. Interior is engaged with the 
Department of Homeland Security to increase security on the southwest 
border, including 74 border miles on tribal lands primarily made up of 
lands located on and managed by the Tohono O'odham Nation in Arizona. 
The budget includes $1.8 million to continue implementation of the 
Department's Southwest Border Radio Demonstration Project, which is an 
example of the coordination which occurs to help protect our border. 
The project was developed in cooperation with BLM, FWS, NPS, and the 
U.S. Forest Service in the southwest border region to address Office of 
Inspector General-identified material deficiencies in the land mobile 
radio program and infrastructure, and ensure continuity of 
communications essential for safety, law enforcement, and resource 
management in the area.
    Interior also plays an important role in preparation for and 
addressing the aftermath of natural hazard events. The 2019 budget 
includes $117.3 million for the USGS Natural Hazards programs to 
maintain important nationwide monitoring networks, including volcano 
and earthquake networks, which provide vital scientific information to 
emergency managers.

 MODERNIZING OUR ORGANIZATION AND INFRASTRUCTURE FOR THE NEXT 100 YEARS

                       Infrastructure Management

    Interior manages an infrastructure asset portfolio with a 
replacement value exceeding $300 billion, ranging from elementary and 
secondary schools serving Indian children in the West, to highways and 
bridges serving the daily commuting needs of the Washington, DC, 
metropolitan area. Many of these assets are deteriorating, with older 
assets becoming more expensive to repair and maintain in good 
condition. Taking care of this significant asset portfolio is a 
persistent challenge.
    Interior's deferred maintenance backlog has grown to over $16 
billion in 2017 of which over $11 billion belongs to NPS. In addition 
to funding proposed in the Administration's Public Lands Infrastructure 
Fund, the 2019 budget for NPS includes $256.5 million in current 
funding for construction and deferred maintenance projects. 
Construction and maintenance funding across the Department totals over 
$1.3 billion in 2019, excluding Reclamation.

                         Management and Reforms

    During the peak summer seasons, the Department of the Interior has 
nearly 70,000 employees in 2,400 locations across the United States, 
Puerto Rico, U.S. Territories, and Freely Associated States. Interior 
is also taking bold steps to better position itself for the next 100 
years. In response to the President's Executive Order on a 
Comprehensive Plan for Reorganizing the Executive Branch, Interior is 
working to reorganize its operating structure to establish unified 
regional boundaries to provide better coordination across the 
Department to improve mission delivery and focus resources in the 
field. The 2019 budget includes a total of $17.5 million for this 
effort. The budget also proposes additional shifts to better align 
functions within the Department and respond to congressional direction 
related to the Office of the Special Trustee for American Indians. The 
Department is continuing to evaluate the advantages and disadvantages 
of BOEM and BSEE being separate organizations with the understanding 
that revenue collection activities need to be separate from safety.
    The Department annually spends nearly $3 billion to procure goods 
and services, over $1 billion on information technology, and over $300 
million to administer acquisition and human resources services. In 
2019, Interior will work to achieve cost savings of $52.7 million 
across the Department, through more aggressive use of shared services 
and use of multi-agency ``Best in Class'' procurement vehicles, such as 
shared contracting with other bureaus and Federal agencies.

                           Bureau Highlights

    Bureau of Land Management--The 2019 budget request for BLM is $1.0 
billion. The budget proposes $930.6 million for the Management of Lands 
and Resources appropriation and $90.0 million for the Oregon and 
California Grant Lands appropriation--BLM's two operating accounts. The 
BLM budget proposes to restructure several budget lines to provide 
greater management flexibility and improve coordination of program 
activities.

    Through BLM's multiple-use mandate, the 2019 budget advances energy 
resource development which generates revenues for Federal and State 
treasuries and local economies. The budget includes $137.2 million in 
Oil and Gas appropriated programs to strengthen overall program 
capacity, improve management, and expedite permitting to facilitate 
increased environmentally responsible energy development. Within the 
total, $9.5 million will establish a competitive leasing program in the 
1002 Area of the Alaska North Slope, as required by the recently 
enacted Tax Cuts and Jobs Act, and bolster BLM's capacity for 
permitting activities in the National Petroleum Reserve-Alaska. The 
budget also includes $19.5 million to strengthen BLM's Coal Management 
program and $16.0 million to meet anticipated market demand in the 
Renewable Energy program.

    To maintain the BLM's land stewardship responsibilities, the budget 
includes $82.1 million for Rangeland Management and $66.7 million for 
the Wild Horse and Burro Management program. The budget also proposes 
$53.2 million for Recreation Resources Management and $26.3 million to 
continue support for the National Conservation Land areas.

    The budget includes $90.0 million for the Oregon and California 
Grant Lands programs. At this level, the BLM will focus resources on 
timber harvests as it pursues the timber sale targets specified in the 
2016 resource management plans.

    Bureau of Ocean Energy Management--The 2019 budget request for BOEM 
is $179.3 million, including $129.5 million in current appropriations 
and $49.8 million in offsetting collections from rental receipts and 
cost recoveries. The budget proposes to offset a decline in offsetting 
collections with an increase in direct appropriations. The 2019 budget 
includes $9.4 million to facilitate the development of a new National 
Outer Continental Shelf Oil and Gas Leasing Program.

    Bureau of Safety and Environmental Enforcement--The 2019 budget 
request for BSEE is $199.9 million, including $132.1 million in current 
appropriations and $67.9 million in offsetting collections from rental 
receipts, cost recoveries, and inspection fees. The budget proposes to 
offset the decline in offsetting collections with an increase in direct 
appropriations. The budget proposes $12.7 million for Oil Spill 
Research.

    Office of Surface Mining Reclamation and Enforcement--The 2019 
budget request for OSMRE is $121.7 million in current appropriations. 
The budget includes $52.4 million for state and tribal regulatory 
grants, a level consistent with anticipated state and tribal program 
obligations.

    Bureau of Reclamation--The 2019 budget includes $1.0 billion for 
Reclamation's water resource programs to ensure millions of customers 
continue to receive water and power essential for daily life, healthy 
local economies, and land management.

    The 2019 budget includes a total of $447.0 million for 
construction, planning, and management of water and energy projects and 
programs. Funding for these activities supports water supply, drought 
preparedness and response, land management including recreation areas, 
and promotes water reliability by addressing the impacts of Reclamation 
projects on fish and wildlife. The budget also provides a total of 
$444.0 million for water and power facility operations, maintenance, 
and rehabilitation activities. Reclamation emphasizes safe, efficient, 
economic, and reliable operation of facilities, ensuring systems and 
safety measures are in place to protect the facilities, Reclamation's 
employees, and the public.

    The 2019 budget continues support to address America's water 
reliability and availability by investing to modernize existing water 
infrastructure. The 2019 budget includes $10.0 million to continue the 
WaterSMART water conservation grants and $3.0 million for Title XVI 
water recycling reuse research grants that support local innovation 
efforts to stretch water supplies. The 2019 budget continues to support 
water technology innovation by incentivizing research through 
Reclamation's Water and Power Technology Prize Competitions. 
Reclamation's prize competitions target difficult scientific and 
technological problems related to infrastructure, water availability, 
and environmental compliance that affects water delivery and hydropower 
generation. The budget also includes $7.6 million for Reclamation to 
proactively stop the spread of invasive mussels in the West, including 
preventing the spread of zebra and quagga mussels into the Columbia 
River Basin.

    U.S. Geological Survey--The 2019 budget request for the USGS is 
$859.7 million. The budget includes $72.9 million for satellite 
operations, which includes $31.9 million to continue development of the 
Landsat 9 ground system component for launch in 2021.

    The request emphasizes science to inform energy and mineral 
development with $84.1 million for the Energy and Minerals Mission 
Area, including $19.1 million to locate domestic critical mineral 
sources. These commodities are those minerals with important uses 
particularly in technology, and no viable substitutes, yet face 
potential disruption in supply. This funding will support the 
Administration's initiative to spur critical mineral resource 
development in the United States.

    The budget for Natural Hazards is $117.3 million to support 
essential hazards monitoring, and provide scientific information needed 
by resource managers and policy makers. The budget maintains support 
for nationwide networks of more than 8,200 streamgages and nearly 3,000 
earthquake sensors. The 2019 budget includes $96.1 million for 
Ecosystems programs, focusing on nationally significant priorities, 
including detecting and responding to invasive species and wildlife 
disease, research supporting the conservation and recovery of species 
at-risk or protected by law, and science supporting biological resource 
management. The budget provides for continued collection of high-
resolution elevation and hydrography data for the Nation, including 
modernizing maps for Alaska and complete national lidar coverage by 
2033.

    Fish and Wildlife Service--The 2019 President's budget requests 
$1.2 billion for FWS programs of which $1.1 billion supports FWS 
operations. The budget prioritizes funding to maintain operations and 
maintenance for the National Wildlife Refuge System at $473.1 million 
and includes $50.0 million for the National Fish Hatchery System.

    Ecological Services programs are funded at $211.8 million and the 
budget prioritizes funding for Planning and Consultation and species 
Recovery activities. The budget is $74.8 million for FWS conservation 
grants including $31.3 million for State and Tribal Wildlife Grants, 
$33.6 million for the North American Wetlands Conservation Fund, $6.0 
million for the Multinational Species Conservation Fund, and $3.9 
million for Neotropical Migratory Bird Conservation. The budget 
proposes $7.0 million for FWS land acquisition activities, which 
includes $12.0 million in new budget authority and a $5.0 million 
proposed cancellation of prior year balances.

    National Park Service--The 2019 budget request for NPS is $2.7 
billion which includes $299.0 million provided in the Budget Policy 
Addendum for 2019.

    The budget proposes $2.4 billion for NPS operations. Within this 
account funding is prioritized for the care and maintenance of existing 
resources, including repair and rehabilitation projects, which 
addresses the deferred maintenance backlog, and cyclic maintenance 
projects, which ensure maintenance is conducted in a timely fashion to 
avoid increasing the deferred maintenance backlog. The budget proposes 
$241.3 million for the Construction account, which includes $157.0 
million for line-item construction activities.

    The request provides $32.2 million for National Recreation and 
Preservation programs to support local community efforts to preserve 
natural and cultural resources. The 2019 budget includes $32.7 million 
for the Historic Preservation Fund core grants-in-aid programs. The 
budget assumes funding for Land and Water Conservation Fund State 
Assistance Grants shift from discretionary to mandatory funding from 
offshore oil and gas receipts, estimated to support an $89.3 million 
program. The budget requests $8.8 million to administer both ongoing 
Federal land acquisition projects and American Battlefield Protection 
grants, and includes a $10.0 million cancellation in available prior 
year balances, for a net total of -$1.2 million for Land Acquisition 
and State Assistance.

    Indian Affairs--The 2019 budget request for Indian Affairs is $2.4 
billion. Funding for Operation of Indian Programs totals $2.0 billion. 
In 2019, priority is given to programs serving the broadest audience 
rather than initiatives or pilots. Within this total is $741.9 million 
for Bureau of Indian Education programs where funding focuses on direct 
school operations and full funding for Tribal Grant Support Costs. The 
main operating account also includes $350.1 million for Public Safety 
and Justice programs including $2.5 million to address the opioid 
crisis which has been particularly devastating in Indian Country. The 
budget includes $258.9 million for Trust Services programs to fulfill 
key fiduciary trust responsibilities.

    The budget fully funds Contract Support Costs at $231.0 million, 
which will cover all anticipated tribal program administration 
requirements at the requested program funding level. The budget 
requests $133.3 million for Construction programs and prioritizes dams, 
irrigation projects, and irrigation systems which deliver water to aid 
economic development as well as protect lives, resources, and property. 
The budget prioritizes funding within education construction for 
improvement and repair of existing facilities. The budget also includes 
$45.6 million to provide payments to ongoing Indian Land and Water 
settlements and $6.7 million for the Indian Guaranteed Loan Program.
Departmental Offices
    Office of the Secretary--The 2019 budget request for Departmental 
Operations is $134.7 million. The budget reflects the proposed transfer 
of $140.5 million associated with the Office of Natural Resources 
Revenue to a new appropriation within Department-wide Programs.

    Office of Insular Affairs--The 2019 budget request for OIA is $84.1 
million of which $81.0 million is for Assistance to Territories and 
$3.1 million is for Compact of Free Association programs. Separately, 
the President's budget proposes to transfer $111.0 million from the 
Department of Defense to support the enacted 2010 Compact Agreement 
with Palau.

    Office of the Solicitor--The 2019 budget proposes $65.7 million for 
the Office of the Solicitor to provide legal counsel, administer the 
Department's ethics program, and help resolve legal issues among 
bureaus and offices as they fulfill their duties.

    Office of Inspector General--The 2019 budget proposes $52.5 million 
for the Office of Inspector General to continue support for audit and 
investigations across the Department. The budget supports the need for 
case management system maintenance, OPM security clearances, continuous 
data monitoring, and information technology systems assistance.

    Office of the Special Trustee for American Indians--The 2018 budget 
requests $107.1 million for OST. The budget proposes several 
organizational changes including to realign OST under the Assistant 
Secretary-Indian Affairs; to shift Land Buy Back Program for Tribal 
Nations to OST; and proposes OST assume coordination of certain 
functions of the Office of Navajo and Hopi Indian Relocation.

Department-wide Programs

    Payments in Lieu of Taxes--The 2019 budget proposes $465.0 million 
in discretionary funding for PILT. This amount includes $68.1 million 
provided in the Budget Policy Addendum for 2019.

    Office of Natural Resources Revenue--The 2019 budget request 
includes $137.5 million for ONRR's receipts management programs as a 
separate appropriation to increase transparency of the program. The 
request includes $3.7 million for anticipated contract cost increases 
to maintain the Minerals Revenue Management Support System.

    Central Hazardous Materials Fund--The 2019 budget requests $2.0 
million for the Central Hazardous Materials Fund to support program 
management and legal staff. The program will fund highest priority 
remediation projects based on the availability of recoveries and focus 
resources on remediation projects with potentially responsible parties.

    Wildland Fire Management--The 2019 budget request for the Wildland 
Fire Management Program is $870.4 million. The request provides $388.1 
million for Suppression Operations to fully fund the 10-year average. 
Separately the Administration proposes an annual cap adjustment for 
wildfire suppression operations during severe fire seasons. The budget 
includes $322.2 million for wildland fire preparedness activities to 
support Interior's firefighting capabilities. To maintain proper 
stewardship of public lands and address wildfire risk, Fuels Management 
activities the budget includes $150.6 million. The budget includes $9.5 
million to support high priority restoration of public lands damaged by 
wildfire.

    Natural Resource Damage Assessment and Restoration--The 2019 
request for NRDAR is $4.6 million. The budget includes funding needed 
for ongoing damage assessments and restoration activities.

    Working Capital Fund--The 2019 budget proposes $56.7 million for 
the appropriated portion of the Department's Working Capital Fund. The 
request includes $46.8 million for the Financial and Business 
Management System and $9.9 million for Department-wide cybersecurity 
needs.

                         Legislative Proposals

    Public Lands Infrastructure Fund--The 2019 budget launches the 
Administration's Public Lands Infrastructure Fund (PLIF) to address 
repairs and improvements in national parks, national wildlife refuges, 
and BIE-funded schools. The PLIF would dedicate 50 percent of the 
Department's incoming, unallocated energy development revenues that 
exceed the 2018 budget baseline estimates, for the National Park 
Service, Fish Wildlife Service and Bureau of Indian Education 
infrastructure needs. These revenues will be deposited into the Fund 
for 10 years and will be capped at a total of $18.0 billion.

    Bureau of Reclamation Title Transfer--The Administration has 
recently submitted to the Congress a proposal to better facilitate 
title transfer of Reclamation facilities to non-Federal entities when 
such transfers are beneficial. This proposal will allow local water 
managers to make their own decisions to improve water management at the 
local level, while allowing Reclamation to focus management efforts on 
projects with a greater Federal nexus.

    Cancel Southern Nevada Public Land Management Act Account 
Balances--The budget proposes legislation to cancel $230.0 million in 
unobligated balances from the Southern Nevada Public Land Management 
Act program over 3 years. This would redirect a portion of program 
balances to the Treasury for broader taxpayer use. The SNPLMA program 
is not proposed for elimination and viable conservation efforts will 
continue to be supported.

    Land and Water Conservation Fund--The LWCF receipts authorization 
expires at the end of Fiscal Year 2018 and the Administration will 
review options for reauthorization.

    Reauthorize the Federal Land Transaction Facilitation Act--The 
budget assumes permanent reauthorization of FLTFA's land sale 
authority, allowing Interior to dispose of lands with low conservation 
value and use the proceeds to acquire lands with higher conservation 
values, consistent with the original FLTFA mandate.

    Recreation Fee Program--The budget proposes to permanently 
reauthorize the Federal Lands Recreation Enhancement Act, set to expire 
in September 2019. As a precaution, appropriations language is also 
submitted proposing a 2-year extension through September 2021. The 
revenues collected by Interior from these recreation fees--nearly 
$318.8 million in 2017--are an important source of funding for land 
management operations, maintenance, and improvements to recreation 
facilities on public lands.

    Termination of EPAct Geothermal Payments to Counties--The budget 
proposes to restore Federal geothermal leasing revenue allocations to 
the historical formula of 50 percent to the states and 50 percent to 
the U.S. Treasury by repealing Section 224(b) of the Energy Policy Act 
of 2005.

    Wildland Fire Suppression Disaster Cap Adjustment--The budget 
responsibly funds 100 percent of the rolling 10-year average cost of 
wildfire suppression in the Departments of Agriculture and the Interior 
within discretionary budget caps, and proposes a separate annual cap 
adjustment for wildfire suppression operations in severe fire seasons, 
similar to how unanticipated funding needs for other natural disasters 
are addressed.

                               Conclusion

    Thank you for the opportunity to testify on the President's 2019 
Budget Request for the Department of the Interior. This budget 
maintains core functions important to the American people and supports 
transformation the Department needs to accomplish more effective 
management over the next 100 years. It reflects tough choices to 
prioritize and focus limited resources where investments have the most 
impact while continuing to deliver access and services that are 
critical to Americans. Achieving success in all of Interior's important 
responsibilities for the American people is the Department's primary 
focus and Interior is committed to take action to better accomplish our 
mission. Thank you again for your continued support of the Department's 
mission. This concludes my written statement and I look forward to your 
questions on this budget.

                                 ______
                                 

 Questions Submitted for the Record to the Hon. Ryan Zinke, Secretary, 
                       Department of the Interior

The Honorable Ryan Zinke did not submit responses to the Committee by 
the appropriate deadline for inclusion in the printed record.

                 Questions Submitted by Rep. Don Young
    Question 1. Please describe in detail any DOI resources or 
personnel that have been or might be directed toward activities in 
support of the National Ocean Policy. In doing so, please provide 
specific references to FY 2019 budget request line items, if any, that 
might be used to support DOI's continued participation in National 
Ocean Policy activities, and describe in detail DOI's completed and 
planned National Ocean Policy-related activities.

    Question 2. Given that this unnecessary and over-reaching Executive 
Order conflicts with the current Administration's priorities for job 
creation, economic growth, and reducing red tape and regulatory 
hurdles, what if any steps is DOI taking to review its participation in 
this unauthorized and unfunded initiative?

    Question 3. BLM finalized the Eastern Interior Resource Management 
Plan under the Obama administration as part of BLM 2.0. This designated 
over 1 million acres of land as an ``Area of Critical Environmental 
Concern'' and over 362,000 acres of the Fortymile region. This Congress 
overturned BLM 2.0 with a CRA, but the Eastern Interior Plan is still 
in effect. What is the Department of the Interior doing to overturn 
this plan so that it is no longer hurting the people who live in the 
eastern interior? What is the proposed timeline for overturning this 
plan?

    Question 4. The Fish and Wildlife Service has claimed there are 
``data gaps'' in wildlife studies in Alaska. I understand the BLM is 
collaborating with FWS to collect additional data, specifically 
involving polar bear counts and caribou migration patterns as they 
relate to the Ambler Road project. BLM has informed FWS that they do 
not have the budget of staffing capacity to conduct the necessary 
studies for Ambler, so FWS is providing the data. I am concerned that 
these ``data gaps'' are simply created by career bureaucrats to slow-
walk development projects they don't like.

    4a. Are the data gaps unique to Alaska or do they exist in the 
Lower 48, and what other projects could they effect?

    4b. Does BLM have the budget and personnel capacity to verify data 
provided by FWS?

    4c. Are additional data necessary for the EIS to move forward with 
permitting in the projects?

    Question 5. Fish and Wildlife is planning to increase the fees for 
use of the Iditarod Trail from $10,000 to $60,000, but the user fee 
increase only applies to Iditarod participants. Why is the increased 
user fee only applied to one user group instead of being spread out 
across all user groups?
                   Questions Submitted by Rep. Pearce
    Question 1. I appreciate the Administration's support for 
addressing wildfire issues. In New Mexico and other western states, 
Conservation Corps help to accomplish remediation through invasive 
species and dead tree removal. How does this budget address remediation 
needed to thin our forests and prevent catastrophic fires? Does the 
budget aim to utilize the low cost work provided by Conservation Corps?
               Questions Submitted by Rep. Glenn Thompson
    Question 1. Secretary Zinke, thank you for the information that you 
provided last year in response to my request for an update on the 
status of the remedial action at the Folcroft Landfill, a property 
which was purchased by the U.S. Department of the Interior in 1980 and 
incorporated into the John Heinz National Wildlife Refuge (JHNWR) under 
legislative authority provided by Congress. Congress provided $19.5 
million in funding for the development of the JHNWR and directed FWS to 
work with EPA to address the contamination at the site. In response to 
my request for detail on whether any of the $19.5 million in funding 
provided by Congress is still available for expenditure, you indicated 
that ``FWS does not immediately have a response for the inquiry 
regarding the funds appropriated from Congress in 1972 (P.L. 92-327), 
1976 (P.L. 94-548), and 1980 (P.L. 96-315), ``for acquisition of the 
Tinicum National Environmental Center, for construction of 
environmental educational center facilities, and for other development 
projects on the Center,'' (P.L. 96-315, July 25,1980) but a search has 
commenced for records from that time period to confirm the expenditures 
for these expressed purposes.''

    Could you please provide an update on the findings of this 
research?
                   Questions Submitted by Rep. Tipton
    Question 1. This Committee recently passed a bill by unanimous 
consent called the 21st Century Conservation Service Corps Act. 
Secretary Zinke you were a supporter of this bill when on this 
Committee. It would engage more Corps and thousands of young people and 
veterans who serve in Corps, like in Colorado, to help address more 
high priority projects like backlog maintenance. I've had the 
opportunity to visit one of the Veterans Corps in Colorado doing this 
work. We appreciate your focus on addressing the backlog. Can you talk 
about the impact of getting thousands more young people and veterans 
working on these projects would have? Have you identified any plans to 
boost engagement of Corps to address the backlog?

    Question 2. Wild horses and burros continue to threaten other 
animals and critically important habitats in the West. How does the 
Department intend to better manage the wild horse and burro populations 
in FY 2019?
                  Questions Submitted by Rep. Grijalva
    Question 1. The Department of the Interior demanded that language 
connecting sea level rise and coastal flooding to climate change be 
removed from a press release announcing a new publication by scientists 
working for the United States Geological Survey (USGS). Do you agree 
that coastal communities deserve expert scientific research to inform 
their mitigation and resiliency efforts? If so, then why establish a 
pattern of censorship with critical public health concerns like coastal 
floods? Do you believe the communities in Houston, south Florida, and 
Louisiana, ravaged by recent hurricanes and damaged by unusually 
aggressive flooding deserve unbiased information from experts within 
your agency at the USGS? Will you commit to directing USGS to providing 
that information to these vulnerable communities without political 
interference?

    Question 2. Just yesterday, the Office of the Inspector General 
published a report showing that DOI's ability to detect and respond to 
cyberthreats is highly inadequate. Undeniably, DOI data systems are a 
desirable target for both foreign and domestic hackers given the vast 
amount of public lands and energy resources managed by the Department. 
To address this issue, the Inspector General's report made 23 
recommendations for improving DOI's ability to detect and respond to 
threats. Although your Department has agreed to all recommendations, 
the report notes that DOI's timeline for implementing these 
recommendations is concerning. Five recommendations will not be 
addressed for more than 5 years. Given the substantial budget cuts 
you've proposed, how do you intend to commit the substantial staff and 
resources needed to implement these recommendations? Where will you 
pull these resources from? The Inspector General also noted that some 
of the recommendations may require the recruitment of additional staff. 
Do you plan to ease hiring restrictions in order to hire personnel with 
the needed expertise?

    Question 3. In 2015, Western Governors, sportsmen, ranchers, mining 
companies, oil and gas companies, elected officials, conservationists, 
and local business owners came together to find a solution to keep the 
West open for business while also keeping the sage grouse and sagebrush 
ecosystem healthy and robust. These sage grouse plans were an 
unprecedented collaborative effort. Despite the plans' widespread 
support, the Bureau of Land Management recently released a scoping 
report outlining changes it plans to make to the sage grouse plans. The 
report claims to summarize public comments related to the changes, but 
last week, BLM admitted that a ``technical error'' caused around 
100,000 public comments to go missing. What are you doing to understand 
how 100,000 comments were not included in the report and how do you 
plan to fix it? How do you expect the public to have faith that their 
comments are being heard? Will you amend the report to include these 
missing comments or reopen the comment period to allow the public to be 
heard?

    Question 4. Your Solicitor issued a legal opinion ending some 
protections for migratory birds under the Migratory Bird Treaty Act--
one of our Nation's first and most successful conservation laws 
celebrating its 100th Anniversary this year--against the threats that 
are most significant and controllable in the modern age. The new 
opinion goes against all settled understanding of the Act by your 
Department, the Justice Department, and by numerous courts and 
congressional actions over 50 years and across administrations as 
articulated by a letter signed by 17 former Interior Department 
officials from each administration back to Nixon's Presidency asking 
you to reverse the opinion. More than 500 local and national 
organizations from every state in the country have also written to 
oppose this reversal. Your interpretation would have prevented the 
Justice Department from capturing fines for bird deaths to be used to 
restore bird habitat from BP for the Deepwater Horizon spill, and Exxon 
for the Exxon Valdez spill. And it ends an essential incentive for 
industries in many sectors such as oil and gas, power lines, 
communications towers, and of course, wind power, to develop and 
implement reasonable best management practices and technologies that 
minimize harm to birds, and that help fulfill the treaty commitment of 
the United States to protect and conserve migratory birds. Mr. 
Secretary, how do you intend to ensure that the migratory bird 
protections industries have implemented in consultation with the Fish 
and Wildlife Service continue to be implemented and that the United 
States continues to live up to treaty obligations ratified by this 
Congress?

    Question 5. Your office has proposed cutting the FWS by $135 
million in FY 2019. FWS funds Landscape Conservation Cooperatives 
(LCCs) which represent an advisory board equipped with local, state, 
and Federal agency representatives. Your office has also canceled the 
meetings of LCCs and effectively ended their input into DOI decision 
making. Why are you cutting critical stakeholders such as local 
businesses and scientists out of the process? Is this an effective way 
to share governance over public land? Should the Department be making 
decisions that impact states and localities without input from these 
LCCs? Can you please explain what will happen to the important work 
that was being conducted under these programs since they are being 
eliminated?

    Question 6. The 1990 amendments to the Coastal Barrier Resources 
Act directed the Department of the Interior to map undeveloped coastal 
barriers along the Pacific Coast and to recommend areas that could be 
included in the CBRA. The FWS took a preliminary look but didn't 
propose additions. Given the benefit to taxpayers from the CBRA, which 
has saved over $1.3 billion in Federal expenditures, could resources be 
made available for FWS to map Pacific coast areas so this taxpayer-
friendly program could be brought to the Pacific Coast?

    Question 7. On December 7, 2017, I released an update to my report 
titled ``Missing the Mark: African Trophy Hunting Fails to Show 
Consistent Conservation Benefits'' in response to your desire to form a 
body, misnamed the International Wildlife Conservation Council at the 
urging of groups like the Safari Club International and the National 
Rifle Association. Thus, it was no surprise to me when the names of the 
Council members were released and include SCI and NRA employees along 
with all but one person who has a tie to trophy hunting. Taxpayers 
should not be spending money for an advisory panel whose purpose is to 
make it easier for billionaires to turn imperiled wildlife into wall 
hangings. The charter for the IWCC lists the annual cost as $250,000. I 
provided a detailed report that outlines why the tasks given to the 
IWCC have already been explored by other bodies or by Fish and Wildlife 
Service wildlife experts. How can DOI justify moving forward with this 
unbalanced Council under the guise of conservation? In the hearing, you 
stated that the Fish and Wildlife Service's position on trophy imports 
has not changed. Does this mean that the FWS will not allow the 
importation of any elephant and lion trophies from Zimbabwe and Zambia? 
Do you intend to go through a formal rulemaking process, including an 
opportunity for public comment, on the enhancement and non-detriment 
findings the Service withdrew? Given the fact that many trophy hunters 
are extremely wealthy, do you think it is appropriate that the American 
taxpayer foots the bill for 92 percent of all permit fees for wildlife 
trophy imports? Does the FWS have enough people and resources to review 
these permits? Was President Trump aware of the decision to allow 
trophies into the United States on a case-by-case basis?

    Question 8. Mr. Secretary, you claim to be a sportsman and a 
conservationist and a defender of the Land and Water Conservation Fund. 
However, across your Department, you propose virtually eliminating 
LWCF, a popular, bipartisan program that promotes hunting and fishing 
access. Your proposed budget will impede the expansion of sporting and 
recreational activities available to the public. How do you claim to 
honor the stewardship legacy of Teddy Roosevelt and justify the 
proposal to eliminate LWCF? You keep saying that your Department is 
committed to promoting access for hunting, fishing, and all kinds of 
outdoor recreation. If that is true, I really do not understand how you 
can justify the elimination of LWCF. Are you not aware that 
acquisitions financed by LWCF promote access to public lands and 
support outdoor recreation opportunities throughout the country?

    Question 9. Secretary Zinke, you proposed radical fee hikes at 17 
of the most visited national parks as a way to address the deferred 
maintenance backlog that is plaguing our national parks. Our parks 
desperately need a dedicated source of funding and significant 
investment from Congress. Visitor fees alone cannot sustain America's 
parks and public lands. And, these increased fees threaten access to 
parks and discourage visitation by the public, especially communities 
that already lack access and do not have the funds to pay higher fees. 
In some cases, these significant fee hikes could end up tripling the 
costs for families. Visiting our parks is a right to be enjoyed by all 
Americans. Please explain why raising visitor fees will not discourage 
low-income families and communities from visiting our national parks?

    Question 10. Your budget proposal includes a significant reduction 
to the National Park Service's visitor services account, including 
eliminating $5 million from Youth Partnership Programs. This is an 
approximately 50 percent reduction from an account that supports 
opportunities for veterans to gain valuable job training skills and 
experience through participation in the 21st Century Conservation 
Corps. How do you justify cuts to that program? Will you commit to 
working with this Committee to ensure that veterans have more 
opportunities to participate in their public lands?

    Question 11. Secretary Zinke, at the end of last month you traveled 
to Pennsylvania to announce the latest round of abandoned mine lands 
funding. The announcement was made about a mile outside of the 18th 
Congressional District, 2\1/2\ weeks before a special election. The 
Republican candidate was there--you tweeted a photo with him. I didn't 
see the Democrat there. The race, at the time, was a toss-up. I have 
seen no evidence that any other Secretary has traveled anywhere since 
2009 to announce these routine grants. You accepted an inherently 
political TV interview with Fox News about it. You could have chosen 
any of the thousands of AML sites but you chose this one. Locals, 
including members of the Republican party, were surprised you chose the 
location you did. You can understand that's a lot of coincidences that 
point to this being a political trip funded with taxpayer money. You've 
said that the state made sense because of the sheer number of AML sites 
there. But how did you choose East Bethlehem among the over 800 AML 
sites from within Pennsylvania?

    Question 12. DOI has used the proposed reorganization of the 
Department to justify significant agency actions. Those actions include 
the reassignment of several members of the Senior Executive Service, 
the rescission of an existing 100-year plan for the National Park 
Service, the ongoing hiring freeze, and the expansion of authority for 
Assistant Secretary for Insular Areas, Doug Domenech. At the same time, 
you're claiming there is no final reorganization plan. If that's true, 
it is irresponsible to start implementing in a piecemeal fashion what 
you have called the greatest reorganization in the history of the 
Department without a plan. At what point in the implementation of the 
reorganization will you do an in-depth financial and managerial 
analysis that provides evidence that your reorganization will be 
effective?

    Question 13. You initially justified your chartered flights on 
private jets, commercial flights to destinations close to your home or 
political events, helicopter flights and the like by saying all your 
flights had been reviewed by the Department's Law and Ethics Division. 
Then the Inspector General issued an unusual letter saying that your 
recordkeeping regarding your travel was insufficient for them to 
determine whether you had broken the law. What have you done to try to 
understand why your ethics team gave the flights the green light but 
the IG has said the recordkeeping is inadequate to make that call?

    Question 14. You are proposing a cut in excess of $100 million to 
the FWS budget in the FY 2019 requested budget for the Department of 
the Interior. The agency request also cuts $28 million from the Office 
of Ecological Services which manages endangered and threatened species 
protection. Can these agencies operate at optimum efficiency and save 
our critical species while receiving inadequate funding? Do you 
anticipate that the agency workforce cuts will hurt agency conservation 
efforts?

    Question 15. The damages to communities and real property such as 
oil and gas infrastructure from Hurricane Harvey were severely 
diminished because of natural infrastructure in the form of wetlands 
and coastal marshes. Given this lifesaving, property saving, cheap, and 
effective way to protect lives and properties, why did the 
Administration not include funding for natural infrastructure in the 
recent hurricane supplemental request to Congress?

    Question 16. Given that we are in the middle of a global extinction 
crisis driven by irresponsible land use and climate change, do you 
believe that this budget will allow you to meet your statutory 
obligations under the ESA to prevent extinction and recover threatened 
and endangered species? The Endangered Species Act is our Nation's most 
effective law for protecting wildlife in danger of extinction. Ninety-
nine percent of species listed under the Act have survived, and many 
are on the path to recovery. The American people care deeply about 
wildlife and are troubled by the concept of extinction. According to a 
June 2015 poll, 90 percent of American voters support the Endangered 
Species Act. My colleagues on the other side of the aisle like to say 
that the ESA is broken and needs reform. But the ESA is starved, not 
broken, and your FY 2019 budget request continues this sad state of 
affairs.

    Question 17. Several years ago, FWS developed a 7-year workplan to 
allow the agency to prioritize over 350 species for ESA listing 
decisions. This workplan is supported by a wide range of stakeholders. 
While the FWS has made progress on listing decisions for a number of 
these species, more than 300 still await decisions, yet the budget 
proposes a 47 percent cut to the FWS listing program for FY 2019. This 
cut will disrupt the time frames in the workplan and cause FWS to 
further delay listing decisions for many species leading to at the 
least longer recovery times or at the worst more extinctions of 
species. Species due for decisions in FY 2019 include the tufted puffin 
and monarch butterfly. Can you explain how the Department plans to make 
progress on recovering species with such an inadequate level of 
funding?

    Question 18. This year marks the centennial birthday anniversary 
for The Migratory Bird Treaty Act. It is credited with saving many 
species of birds from the brink of extinction. While we have overcome 
many of the threats facing bird populations in the earlier part of the 
last century, such as the plume trade, new threats have emerged. Due to 
industrialization, millions of waterfowl, raptors and songbirds have 
died from oil pits and powerlines. In fact, the FWS found that 
electrocutions kill an estimated 5.4 million birds, while oil pits kill 
an estimated 750,000 birds this year. Given what we know about current 
threats, I am deeply alarmed with the agencies recent interpretation of 
the MBTA which eliminates FWS authority to address the incidental take 
of birds, such as the 750,000 birds that die tragic, avoidable deaths 
in oil pits each year. Will this decision result in more birds being 
needlessly killed? The problem will only be compounded by your proposal 
to reduce the North American Wetlands Conservation Fund. NAWCA is a 
landmark investment and one of the most cost-effective conservation 
programs. Federal dollars invested in NAWCA are typically matched by 
more than $3 from non-Federal partners at the local and state level, 
including corporations, private landowners, and non-profits. Since its 
enactment, the program has generated over $4.34 billion in partner 
funds leveraged by $1.48 billion in grant funds to protect nearly 33.4 
million acres across the Nation. Given the program's demonstrable 
success, why does your budget seek to reduce it by $4.5 million?

    Question 19. Invasive mussels are a serious threat to the waters of 
the western United States. They are not only a risk to wildlife and 
human health, but they can also block water pumping stations and impede 
the flow of water through pipes and infrastructure. Arizona's waterways 
are a major source of invasive mussel infestation and pose a large 
threat to other uninfested waters. Yet, Arizona is one of the only 
western states that has not implemented mandatory watercraft inspection 
and decontamination stations. This is primarily due to insufficient 
funding and lack of engagement from Federal agencies. Considering 
prevention and control methods for these invasive mussels have cost an 
estimated $5 billion so far, shouldn't funding be increased to protect 
our waterways and prevent infestation? Many western states rely on 
Federal funding to operate watercraft inspection programs, but current 
review of Federal grant programs is hampering state planning for the 
2018 boating season. When will this Federal review be completed to 
ensure that these Federal funds are accessible to state programs?

    Question 20. Secretary Zinke, when you testified before the 
Committee, you stated that the Interior Department's ``budget [for 
renewable energy programs] is consistent with expected demand in 
[Fiscal Year 2019].'' You told Representative Anthony Brown that you 
would provide the data behind your Agency's decision to reduce the 
Bureau of Ocean Energy Management's renewable energy program by over $3 
million. What energy demand data did the Interior Department use to 
justify its proposal to reduce BOEM's renewable energy program by over 
$3 million? How is this consistent with the story reported by Bloomberg 
on September 29, 2017, which said, ``[BOEM) is betting on heightened 
interest in offshore wind to drive up the price of the Atlantic Ocean 
leases it will auction next year,'' and, ``We've had two unsolicited 
bids for the parcels already.'' [James Bennett, chief of renewable 
energy at BOEM said]. That and the fact that a recent BOEM auctionfor 
an ocean parcel off Long Island, N.Y, netted a $42.5 million winning 
bid ``indicates to us that interest in offshore wind has changed 
dramatically in just 2 years.'' Bennett said.

    Question 21. Secretary Zinke, in August 2017, the Department of the 
Interior informed the National Academies of Sciences, Engineering, and 
Medicine that it should cease all work on a study of the potential 
health risks for people living near surface coal mine sites in Central 
Appalachia. The Interior Department stated it was conducting an agency-
wide review of its grants and cooperative agreements exceeding 
$100,000. Is this study still under review? When the study was halted 
in August 2017, there were approximately $400,000 remaining on the 
contract with the National Academy of Sciences. This money could have 
only been repurposed until September 30, 2017. What happened to the 
roughly $400,000 remaining on the contract? Is the Department of the 
Interior going to ask the National Academy of Sciences to resume their 
study? Is the Department of the Interior going to ask the National 
Academy of Sciences to start a new study of the potential health risks 
of surface coal mine sites in Central Appalachia?

    Question 22. Secretary Zinke, when you testified before the 
Committee, you acknowledged that in December 2017 you requested access 
to a U.S. Geological Survey (USGS) energy resource assessment for the 
North Slope of Alaska before it was officially published. The USGS's 
Fundamental Science Practices states, ``Particularly sensitive results 
. . . such as energy and mineral assessments . . . that typically have 
significant economic implications are not disclosed or shared in 
advance of public release because pre-release in these cases could 
result in unfair advantage or the perception of unfair advantage.'' It 
is clear your actions violated USGS science policy. Do USGS guidelines 
about early release of sensitive data apply to you and to Deputy 
Secretary Bernhardt? If not, please explain why not. Were you aware of 
the significant oil resources that had been discovered along Alaska's 
North Slope since publication of the original USGS assessment in 2010? 
Was the Secretary, Deputy Secretary, or anyone in their offices asked 
for information about the data in or the timing of the National 
Petroleum Reserve Alaska assessment by outside parties before the 
assessment was officially published on December 22, 2017? Did you or 
anyone at the Department of the Interior attempt to share or 
successfully share information about the data in or the timing of the 
December 2017 USGS assessment with anyone outside the Interior 
Department before it was officially published on December 22, 2017? 
Please provide all correspondence within and between the Secretary's 
office, Deputy Secretary's office, and USGS regarding the potential 
early delivery of the National Petroleum Reserve Alaska assessment to 
the Secretary or Deputy Secretary. Please provide all memoranda that 
discuss the potential early delivery of the National Petroleum Reserve 
Alaska assessment to the Secretary or Deputy Secretary. Please provide 
all notes or minutes from meetings in which the potential early 
delivery of National Petroleum Reserve Alaska assessment to the 
Secretary or Deputy Secretary was discussed.
                 Questions Submitted by Rep. Napolitano
    Question 1. On December 6, 2017, you released your final report on 
the findings of the Trump Administration Monument Review. The report 
did not mention or recommend any changes to the size of the San Gabriel 
Mountains National Monument, which is located just above my district. 
Although there was no recommendation, how can local residents, business 
and cities be confident to implement their city and business plans 
without fear that the President or the U.S. Department of the Interior 
will review their nearby designation again?

    1a. Can you confirm today, that there will be no changes to the San 
Gabriel Mountains National Monument?

    Question 2. Did you ever have plans to visit the San Gabriel 
Mountains National Monument before the Trump Administration Monument 
Review comment period ended on July 10, 2017?

    2a. If not, how did you plan to make a decision on the San Gabriel 
Mountains National Monument without meeting with local residents, 
businesses and cities?

    2b. What other information besides public comments made online did 
you take into consideration? Where did that information come from and 
who? How can local residents, businesses and cities be ensured that 
that information was in their best interest?

    Question 3. While the Title XVI program has been successful in 
helping construct water recycling infrastructure, the program remains 
greatly underfunded. Currently, there remains a backlog of $463 million 
for Title XVI water recycling projects that have been authorized by 
Congress but remain unconstructed. Additionally, in the new round of 
WIIN Act Title XVI projects, 44 feasibility studies have been approved 
with a total combined cost of $3.6 billion. Despite the success of this 
program, President Trump has proposed a more than 90 percent funding 
cut for Title XVI water recycling infrastructure projects by funding 
this program at $3 million. How do you think these cuts will impact 
farms, cities, and vulnerable communities?

    Question 4. Secretary Zinke, the 2019 Proposed Budget also includes 
a 64 percent cut to the popular WaterSMART Grants program (2019 = $10 
million; 2018 = $28 million). The WaterSMART Program provides cost-
shared grants that help states respond to drought and work to increase 
water supplies largely through conservation, water-use efficiency, and 
water-reuse projects. My state of California has suffered and will 
continue to suffer through severe droughts so we should increase 
funding to these vital programs so western states can respond more 
effectively to persistent drought conditions. Why would the 
Administration propose severe cuts to yet another successful program 
that helps California and the West respond to drought conditions in 
innovative ways?

    Question 5. The Land and Water Conservation Fund (LWCF) which has 
saved places in nearly every state and every county in the United 
States, will expire on September 30, 2018 without action from Congress. 
One great example is the Pacific Crest Trail which spans 2,659 miles 
through the states of California, Oregon and Washington, and goes 
through the Angeles National Forest just above my district. Over 16 
years, approximately $31 million from the LWCF has been used to acquire 
and permanently protect more than 20,000 acres along the trail. The 
LWCF also provides block grants for state and local parks and 
recreation projects. How can this Committee work with your Department 
to ensure that these vital funds, paid entirely by energy companies 
drilling for oil and gas on the Outer Continental Shelf, are not 
diverted to uses other than conservation?

    Question 6. The suicide rate for American Indians and Alaska 
Natives has been increasing since 2003. The rate in 2015 was more than 
3.5 times higher than those in other racial/ethnic minority groups with 
more than one-third of suicides within American Indians and Alaska 
Native population being youths under the age of 24. What is the current 
availability of on-site behavioral health services for students under 
the Bureau of Indian Education?
                  Questions Submitted by Rep. Bordallo
    Question 1. At a time when more and more citizens of the Freely 
Associated States (FAS) are migrating to Guam and other affected U.S. 
jurisdictions under the Compacts of Free Association, why does the FY 
2019 budget request propose eliminating the Office of Insular Affairs' 
``discretionary'' Compact impact grants to reimburse affected 
jurisdictions?

    Question 2. Mandatory Compact impact funding provided by the Office 
of Insular Affairs--split between Guam and other affected U.S. 
jurisdictions, does not come close to reimbursing GovGuam for the costs 
of serving our FAS citizen residents. Will you commit to taking a hard 
look at Compact impact in your budget request for next year, as well as 
the many low-cost, practical policy changes outlined in my Compact 
Impact Relief Act (H.R. 4761)?

    Question 3. The FY 2019 budget request proposes to cut funding for 
the Office of Insular Affairs' ``Assistance to the Territories'' by 
more than 11 percent and proposes even more severe cuts to other 
programs important to Guam. How do these proposed budget cuts square 
with the Trump administration's stated goal of improving economic 
opportunity, governance, and quality of life in the territories?

    Question 4. What is the Trump administration's position on 
extending full voting rights for the 4.5 million Americans living in 
the territories? Unlike the District of Columbia, the five U.S. 
territories are excluded from the electoral college so we have no say 
in choosing our president. Note that two of the five Members of 
Congress from the territories are Republicans, so this is not a 
partisan issue. I understand that this would require an Act of 
Congress, but what is the Administration's position?

    Question 5. Under current law, the five U.S. territories and 
District of Columbia split--six ways--a single state's share from Land 
and Water Conservation Fund (LWCF) each year. This is simply unfair and 
underfunds pubic park and recreation projects in the territories and 
DC. Will the Interior Department consider supporting my LWCF Parity for 
Territories and DC Act (H.R. 4179), which is supported by all six 
Members from the territories and DC?
                   Questions Submitted by Rep. Sablan
    Question 1. Last year I brought to your attention that under the 
Office of Insular Affairs competitive system for Covenant Funds that 
originally all went to the Northern Marianas, my district now gets less 
than half the money. This deprives Saipan, the only U.S. municipality 
without 24-hour potable water, of needed infrastructure funds. In your 
written answer you said that the competitive evaluation criteria are 
evaluated and revised as necessary every 5 years. Can you explain the 
re-evaluation process to me and what year it will next take place? If 
thisu has occurred recently, what criteria was used and was this issue 
taken into consideration?

    Question 2. Last year we also discussed the long overdue Marianas 
Trench National Monument Management Plan that the Fish and Wildlife 
Service has been working on for 9 years. In your written answer you 
stated FWS continues to work with its partners toward completion of the 
plan and that a number of steps have been taken to address or resolve 
important issues such as 2016 patent under the Territorial Submerged 
Lands Act. Can you tell me what has happened in the past year and when 
the draft Monument Management Plan, which was to be completed in 2011 
under President Bush's proclamation, will be issued?

    Question 3. The Fish and Wildlife Service requests $473--a decrease 
of almost $11 million--for management of National Wildlife Refuges. 
This includes decreases to wildlife and habitat management, visitor 
services, law enforcement and elimination of funding for refuge 
conservation planning. These cuts will surely ensure that American 
hunters, anglers, and other outdoor enthusiasts will have less access 
to sporting opportunities on public lands. Do you believe the proposed 
funding levels for refuges are consistent with your vision of 
increasing access to America's public lands, while also managing and 
expanding the Refuge System to protect and enhance America's wildlife 
resources?

    Question 4. In my reply to your soliciting comments to your assist 
your review of the Marianas Trench National Monument under Executive 
Order 13792, I wrote about the promises made to the people of the 
Northern Marianas that remain unfulfilled. You have submitted 
recommendations to President Trump under that Executive Order. Can you 
clarify if there was a recommendation concerning the Marianas Trench 
National Monument included in your submission to the President? If a 
recommendation was included please include the text and any information 
regarding the review process and timing in terms of presidential 
decision making.
                  Questions Submitted by Rep. Gallego
    Question 1. Regarding the public comment period undertaken by the 
Interior Department in connection with the national monument review, 
did Interior analyze the approximately 2.8 million comments in totality 
to determine character of individual responses (i.e. quantify favorable 
vs. unfavorable or otherwise breakdown categories of response)?

    1a. If so, please provide the categories used and respective 
numbers or percentages relative to total comments received. If not 
included in your internal categories, please include the number or 
percent of comments favorable to maintaining existing monuments.

    1b. If not, how were public comments factored into the decision-
making process without quantifying them?

    Question 2. External sampling analyses reported a 99 percent rate 
of responses favorable to maintaining existing monuments. If the 
Department's analysis differs, how would you explain the divergence?

    Question 3. Following the review, your memorandum to the President 
indicated that ``Comments received were overwhelmingly in favor of 
maintaining existing monuments and demonstrated a well-orchestrated 
national campaign organized by multiple organizations.'' Did the 
Department undertake a quality control process that determined these 
comments resulted from a `campaign'? Were these comments valued or 
considered differently than others?

    3a. If so, please explain how.
                  Questions Submitted by Rep. Barragan
    Question 1. Secretary Zinke, does the National Park Service expect 
to issue a Fiscal Year 2017 Funding Opportunity Announcement for ORLP 
grants in the near future?

    Question 2. Does the National Park Service have sufficient capacity 
and staffing to dedicate the needed attention and administration of the 
ORLP program?

    Question 3. Secretary Zinke, with respect to the Administration's 
infrastructure plan, how can the ORLP program better align to meet the 
shovel-readiness intent of the program? How can the funds be more 
quickly allocated to the areas that need them the most?

    Question 4. Secretary Zinke, recognizing the value of the ORLP 
program, would greater flexibility in criteria thresholds (such as 
lowering the requirement that cities and towns have to have a 
population of 50,000 or more residents) and eligibility expansion (non-
profits, for example) help cities better and more quickly deliver the 
intended outdoor recreation and economic benefits?

                                 ______
                                 

    The Chairman. I appreciate that. OK, we are beginning the 
question process. I am going to ask at the very beginning, 
especially for our guests, that there be no disruptions of the 
testimony that we are going to hear today. It is important that 
the decorum rules of the Committee and the House be allowed to 
be maintained so that the Members, as well as the public, can 
hear the proceedings of this.
    Mr. Gohmert, since I didn't let you talk, I will give you 
the first crack at questions for the Secretary and his guests.
    Mr. Gohmert. Thank you, Mr. Chairman. And it is good to 
have our friend here. And since, obviously, you are responsible 
for all the good and all the ills that have beset the world, I 
would like to say congratulations on growing the ice in 
Antarctica. I don't know what it is you are doing to grow the 
amount of ice in Antarctica, but congratulations. You must be 
responsible; you seem to be for everybody else, or for 
everything else.
    And I couldn't help but think, as you mentioned the $16 
billion shortfall, that it would be nice if the lawyer in the 
Clinton administration that changed the wording ever so 
slightly in our offshore drilling leases to benefit the oil 
companies by $10 billion, one of which she went to work for 
right after that, it would have been nice to have that $10 
billion that the Clinton administration cost us. But, of 
course, the Obama administration rewarded her by bringing her 
back into the Obama administration to help other oil companies.
    But we are behind, and obviously, your budget has not grown 
commensurate to take care of the $16 billion shortfall that has 
particularly grown during the last administration. They seem to 
be much more interested in adding land and growing the 
shortfall of taking care of our parks and our national 
treasures.
    So, Secretary Zinke, what plans do you have? How can we 
make up this terrible shortfall, the terrible damage like the 
water pipe you mentioned? How are we going to make that up, all 
of the damage that has occurred during the last administration? 
Do you have an idea?
    Secretary Zinke. This is the proposition. We all recognize 
that our parks' infrastructure and the current system is 
inadequate. $11.6 billion in our park system didn't happen 
overnight. This happened over a long period of time, with both 
administrations.
    So, how do we fix it? I think it is a fair proposition to 
say this. If you are going to produce wealth on our public 
lands, and we are not talking about drilling in the national 
parks--most of our energy comes from BLM and offshore. If you 
go back to 2008, Interior was the Number-two generator of 
revenue in this country. It was $18 billion a year, just in 
offshore. It was a banner year. In 2016, when we took office, 
it was $2.6 billion. We dropped $15 billion a year, on scale, 
that would have addressed our entire backlog.
    So, this is what the proposition of the bill says. If you 
are going to produce energy, all forms of energy on public 
lands--that is wind, that is solar, that is oil and gas--then 
you should also participate in paying for the maintenance and 
preservation of our public lands. It does not affect any 
current program. It does not affect LWCF. It does not affect 
GOMESA, because the proposition is net dollars of new energy 
going into the Treasury. It does not affect any program. And 
many people on the Gulf with the GOMESA or LWCF program, which 
I support, it does not affect any of those programs. It is just 
net dollars.
    I think, over the course of time, liquid natural gas would 
be a bigger player. I am hoping we have a battery. But we have 
to address the infrastructure in our parks, and our current 
system falls short.
    So, that is what the President has proposed, that is what 
is in the budget. Believe me, it was not an easy process, 
getting OMB--and you remember our good colleague, Mick 
Mulvaney--it wasn't easy to get him on board. But the President 
and OMB are on board. And it is a bipartisan bill over in the 
Senate that addresses the Park Service. The Senate is organized 
somewhat differently, because we are also looking for companion 
bills on Indian education and wildlife refuges.
    That is the proposal of how to do it. We think it is a good 
proposal. And it is in the spirit of Teddy Roosevelt.
    Mr. Gohmert. I appreciate that approach a great deal. I 
would love to see the Land and Water Conservation Fund at least 
be part of that, go toward taking care of our maintenance 
before we acquire more land. But I certainly appreciate your 
approach.
    I am proud to call you a friend, and I appreciate what you 
are doing, and especially congratulations on growing the ice.
    The Chairman. All right. I will let everybody know I am 
going to be a stickler on the 5-minute rule so we can get 
everybody in here.
    The Democrats have been kind enough to give me a list of 
who the Minority wishes me to call on. So, Mr. Huffman, you 
have been requested to give the first set of questions by them.
    Mr. Huffman. Thank you, Mr. Chairman.
    Again, welcome, Mr. Secretary. I would like to ask you, 
Secretary Zinke, about the Administration's very ambitious 
proposal for new offshore drilling. I listened to your 
testimony in the Senate and the colloquy with Senator Cantwell, 
where you stated to her that you understood that the state of 
Washington opposes new offshore drilling, and that that would 
be reflected in the Administration's plan.
    I would like to ask you what your understanding of how the 
state of California feels about offshore drilling along our 
coast.
    Secretary Zinke. Thank you. And if I could just take 30 
seconds to explain elephant trophies, the court mandated that 
we change our----
    Mr. Huffman. If I could, Mr. Chair, I just don't have time 
for anything other than the answer to this question.
    Secretary Zinke. Well, you did bring it up in your opening 
statement. Let me take 30 seconds.
    Mr. Huffman. But that is not my time. It has to be on your 
time, sir.
    Secretary Zinke. The court mandated we change the process, 
not the policy.
    Mr. Huffman. I would like to reclaim my time.
    Secretary Zinke. We haven't imported one elephant, and we 
are 100 percent on board with the President's policy.
    To your point about offshore, the decision that was mine. 
The last administration took 94 percent of offshore off. I did 
a zero-based analysis. I put everything on. It is clear----
    Mr. Huffman. What is your understanding of California's 
feeling on your proposal? You spoke about Washington to Senator 
Cantwell. I want to know what your understanding is of 
California.
    Secretary Zinke. I am going to have California down as 
opposed.
    Mr. Huffman. Thank you.
    Secretary Zinke. I have talked to your governor----
    Mr. Huffman. Thank you. Next question.
    Secretary Zinke. California is opposed. I think you are 
opposed to it.
    Mr. Huffman. You are hearing us loud and clear, Mr. 
Secretary. I just wanted to make sure that that channel was 
working.
    Secretary Zinke. As well as your colleague next to you. 
Massachusetts is opposed, too.
    Mr. Huffman. Excellent. I appreciate that clarification.
    Now I would like to ask you about water. The President's 
budget requests drastic cuts to the Bureau of Reclamation 
programs that invest in stretching our western water supplies, 
like conservation and recycling. They are proposing cutting the 
WaterSMART program by more than 75 percent below Fiscal Year 
2017 levels. Similarly, a 90 percent proposed cut to Title XVI 
water recycling. While these dependable and collaborative 
programs are being gutted, there is one lucky project that is 
getting more money. The Department is proposing $20 million in 
WIIN Act funds to move forward on design and pre-construction 
for the enlargement of Shasta Dam and Reservoir.
    I have heard you speak at length about the importance of 
fiscal discipline and not wasting funds. Are you aware that 
this project that is being proposed--singled out, almost--among 
all of the water programs for this funding violates California 
law?
    Secretary Zinke. A couple things. One is the Bureau of 
Reclamation in the budget. I agree it is challenged. This is 
also the problem with Bureau of Reclamation. The initial deal 
made when Bureau of Reclamation came in is that the government 
would put large investments in, and then the water users would, 
over this course of time, pay for it and the title would be 
transferred.
    Mr. Huffman. But on this specific project are you aware 
that enlarging Shasta Dam violates California law? I have a 
letter from California Natural Resources Secretary John Laird 
explaining that. And, without objection, I would request that 
it be put into the record.
    And my very specific question----we know you want to be 
careful, as a steward of these public dollars. Do you want to 
be throwing $20 million into studying a project that is 
illegal?
    Secretary Zinke. We are looking at that. We haven't made a 
determination, but we are looking at it.
    Clearly, California is short of water, and water storage is 
a part of the solution. Shasta was originally built to be, the 
water level was built to be much higher. The I-5, as I 
understand it, prevents it from going over 18 feet, so there 
are a lot of challenges. But clearly, increasing the reservoir 
for water storage is a big issue. And I have to tell you up 
front on the Central Valley, as some of your colleagues know, 
we still maintain that project in oversight, even though the 
water districts have now paid----
    Mr. Huffman. But I am not asking about that. I do note that 
there is one water district that would benefit from this 
project that is getting this fortunate $20 million funding. It 
happens to be the Westlands Water District. Their former 
attorney and lobbyist is now your Number two at the Department 
of the Interior. Can you assure us that this has nothing to do 
with that?
    Also, over a decade ago that district spent $35 million to 
purchase 3,000 acres of land that would need to be acquired if 
that dam raise goes forward. Can you guarantee that none of 
this funding will go to a sweetheart land----
    The Chairman. Sorry, your time has expired. Thank you.
    Secretary Zinke. Yes.
    [Laughter.]
    The Chairman. You are not supposed to answer when I already 
gaveled down, even though thank you for doing it in one word.
    Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. And it is such a pleasure to hear 
them squeal and squall on the other side after they stuck it to 
us all those years with Sally Jewell. I enjoy every moment of 
it.
    We have a Secretary who understands public lands and where 
the wealth of this Nation comes from. It does not come from BS. 
It comes from the land. And you have to understand you want 
your social programs and et cetera, but you don't want to pay 
for it. The only way you can pay for it is utilization of our 
resources God gave us and we should be able to develop in the 
right way.
    As far as the elephants go, ladies and gentlemen, those 
that try to protect the elephants and condemn the Secretary, 
you ought to study a little bit instead of BSing about what the 
environmentalists say. I happen to know a little bit about 
elephants. You are just taking and rewarding the poachers. That 
is what you are doing. You killed more elephants by the actions 
of Mr. Obama than any other time in history because of the 
poachers. So, if you like elephants, keep it up.
    Mr. Chairman, I just have two questions about Alaska.
    The BLM and their studies of the eastern, I call it the 
interior, came down through proposal that BLM was going to make 
a park out of it. Are you reviewing that? I hope you know what 
I am talking about, it is that eastern section of the interior 
of Alaska they made into restrictive areas?
    Secretary Zinke. There is no plan to scrap the plans. We 
are looking at it. I think what you are referring to are the 
RMPs, and we are looking at those very closely. And I can work 
on it with your staff, line by line.
    Mr. Young. Well, I would just like to say, Mr. Secretary, I 
would like to talk to you about that, because the way it came 
down from the BLM, who happened to become a Park Service under 
the last administration, instead of the BLM, multiple-use 
district, is trying to set it aside. And it does affect how 
people live in those areas. It does affect resource 
development, one of my native corporations. I want us to 
revisit that issue, so let's sit down and talk about it, 
whoever is running that operation.
    I understand that the BLM and Fish and Wildlife are 
supposedly working together on bear counts and the affected 
Ambler Road. Fish and Wildlife said we don't have the staff to 
do that, to make that study. I am just worried, Mr. Secretary, 
that the bureaucracy which is in place now within those two 
agencies is slow-walking you and hoping that you will no longer 
be with us after the next 2 years.
    That is not what I am looking for. I want action, and I 
want to see this done. If I find out anybody is doing that, you 
definitely will hear from me, because I don't like slow-
walking. I like things to get done. There is a responsibility, 
and if they are not doing it, get rid of them.
    Secretary Zinke. I agree. I think we are all frustrated in 
the permit process. And if a project is not appropriate, we 
should just say no. If a project is appropriate, we should say 
yes. It is the timeline that these are being drawn out that 
takes investors off the table, but we need to make sure that 
Interior bureaus work together. And part of the reorganization 
maps on your desk look at how we are presently organized.
    I challenge anyone to figure this out because, real 
quickly, if you have a trout and a salmon in the same stream, 
upstream you have a dam, downstream irrigation, and that stream 
goes by a Forest Service holding. This is the way we are 
presently organized. The salmon are managed by NMFS, the trout 
are managed by Fish and Wildlife. The water flow and 
temperature is Army Corps of Engineers, upstream. Downstream 
irrigation is Bureau of Reclamation. If it goes past a Forest 
Service holding, surface is Department of Ag., sub-surface is 
BLM through me. And if you have a water compact, then it is a 
trifecta of BIA, the state, and the tribe.
    You could have, literally, multiple biological opinions 
produced independently by bureaus that don't have the same 
regions or don't talk. So, next slide.
    [Slide.]
    Secretary Zinke. What we are proposing is the thing called 
science. What we are proposing is, based on watersheds, 
ecology, based on trail systems, wildlife corridors, to redo 
our regions based on science, and unify them so at least the 
Department of the Interior, Fish and Wildlife, Bureau of 
Reclamation, all of the departments have unified regions and 
can talk to each other focused on three things: recreation, 
because that is an $887 billion industry; NEPA, which is 
important to us all; and permitting. If we can go that far, it 
would be helpful.
    The Chairman. I am sorry, I am not looking at it. And, Mr. 
Young, you are the senior member of the House. You are not used 
to slow-walking yet?
    Mr. Young. No, I will never slow-walk. I know some people 
wish I did slow talk.
    [Laughter.]
    The Chairman. I give. All right. Mrs. Torres, you are next.
    Mrs. Torres. Thank you, Mr. Chairman. And Secretary Zinke, 
welcome to our Committee. I want to start talking about your 
budget with you.
    We have had hearing after hearing in this Committee about 
the inequalities faced by Indian Country. Yet, your proposed 
budget slashes key programs that aim to address the 
disparities. If this were to become law, the overall funding 
provided for in Indian Affairs would be lower than any level in 
the last 15 years--15 years.
    Nearly every line item in the budget has reductions. The 
almost-half-a-billion in total cuts is the largest of any 
bureau at the Department of the Interior. We have to do better, 
Secretary Zinke, and I hope that you will work with this 
Committee to start over and fulfill the commitment that we have 
made to these communities.
    Chairman Bishop, thank you for holding a hearing earlier 
this year on our bipartisan Jobs for Tribes Act. As you know, 
the bill would be a major economic boost for Indian Country, 
and would support increased commerce between tribes and 
indigenous people across the Western Hemisphere.
    Mr. Secretary, during our hearing on the bill, the Director 
of Bureau of Indian Affairs told us that, in general, Interior 
supports the legislation, but that we need to make some 
technical tweaks. We are open to that. The Director gave me his 
word that the Interior would provide technical feedback on the 
bill as soon as possible, but that was 2 months ago, sir.
    Secretary Zinke, do you have a timeline for when you can 
get comments back to this Committee?
    Secretary Zinke. I don't have a timeline, but I will make 
it a priority, and when I get back I will have a meeting today 
about it.
    Mrs. Torres. I appreciate you making a commitment to that.
    Offshore drilling in California, I want to go back to that. 
Mr. Secretary, you know the strong opposition that Californians 
have toward more offshore drilling. I would like to emphasize 
that it is not just theoretical for us, we have seen firsthand 
the Santa Barbara blowout and the Refugio oil spill. Our goal 
is to get these platforms removed, not give them a new lease on 
life.
    Florida, who also opposed the Administration's plan, got an 
exemption, so why can't California get an exemption? Other than 
being a blue state and Florida being a red state, why are we so 
different?
    Secretary Zinke. A couple things. Florida did not get an 
exemption. In the case of Florida, three things. One is every 
Member, both sides of the aisle, wrote me a letter. Second is 
the governor asked for an immediate meeting. And third, there 
is a little thing called a Federal moratorium that expires in 
2022, but that Federal moratorium extends well past 100 miles 
off the coast.
    Mrs. Torres. When you say both sides of the aisle wrote you 
a letter, are you saying that the GOP California 
Representatives did not send you a letter?
    Secretary Zinke. Both sides of the aisle, every Member of 
the Florida Delegation, both Republican and Democrat, either 
wrote me a letter or wrote me a statement in strong opposition 
to drilling off the coast of Florida.
    Mrs. Torres. So, are you saying that California Republicans 
failed to send you a letter talking about the importance of 
shutting off oil drilling off of the California coast?
    Secretary Zinke. No, what I am saying is that Florida, I 
could have put Florida off the list in the beginning, because 
the Executive Order from the President didn't specifically look 
at Florida. But had I left Florida off, it would have been 
arbitrary and capricious.
    Mrs. Torres. Thank you. I want to make sure----
    Secretary Zinke. So, again, my commitment to California--
and I will say the same thing I said to your Governor Brown--is 
that at the end of the day this President wants to take in 
consideration local communities, the state, as we go through--
and this happens every 5 years, this plan----
    Mrs. Torres. Just for the record in the last 30 seconds, I 
want to make sure that we understand that if the President 
wants to preserve Mar-a-Lago's ocean view, that he should also 
be looking to preserve his Los Angeles club.
    Regarding the water needs in California, we have vast 
underground aquifers, specifically in Southern California, the 
area that I represent. But we are in great need of funding 
because that water is severely polluted by Federal contractors 
that came in, polluted, and then left.
    My time is up and I yield back.
    The Chairman. Thank you. Let me interpose myself now with a 
few questions, if I could.
    First one, Secretary Zinke, is actually not really a 
question, but more a confusion that I happen to have. If, as I 
have heard, California opposes Federal action on Federal 
waters, and Florida opposes Federal action on Federal waters, 
and any other state opposes Federal action on Federal waters, 
why, when Utah was opposed to Federal action on Federal lands, 
on Bears Ears, did it go through, anyway?
    Or, when everyone in the Utah delegation and the Utah 
governor and every other assembly of elected officials in Utah 
supports your recommendation on Bears Ears, why all of a sudden 
is that now subject to lawsuits by some groups, opposition from 
others, introduction of a legislation?
    Somehow there is a disconnect here that I don't quite 
understand of why it is OK for some people to object to it, and 
not for others, why it is OK that public lands and public 
waters are treated differently, or that one set of public areas 
is not the same kind of set as other public areas.
    I don't think you can answer that, because I don't think 
there is a logical answer. It is just I wish there was some 
logical consistency into what we are doing. And if, indeed, we 
want to allow local governments to have a say in how their 
lands are doing it, then allow that same thing to happen in my 
state, as well.
    Actually, allow it in my state first, and the rest of you 
can go screw yourselves, I don't care.
    [Laughter.]
    The Chairman. Just so my state actually gets it.
    Secretary, let me go to your infrastructure fund, if I 
could, for a second. Last year, we passed a Centennial Fund, 
and the biggest problem we have--I mean it is doing a wonderful 
job, but the biggest problem we have is actually finding a 
continuous stream of revenue to go into that particular fund.
    Can you go once again with your proposal for backlog 
improvement funds, and why you are trying to do that again?
    Secretary Zinke. The buildup in infrastructure of our park 
system, which is about $11.6 billion in backlog, the last great 
effort to build our parks was Mission 66, it was from 1956 to 
1966. And I will agree that there were some good things that 
came out of Centennial, but the problem with the Centennial is 
nothing really substantial to address $11.6 billion. It had 
some nice programs, Find Your Park. It had some development, a 
National Park Foundation, which is good. But there is nothing 
of weight to address $11.7 billion.
    So, looking at it, our bill proposes this. On new energy 
set at last year, net dollars go into Treasury. It is important 
that we say net dollars into Treasury, because many of you 
enjoy LWCF or GOMESA, and we understand, and I didn't want to 
get toe to toe----
    The Chairman. Wait a minute, let me interrupt you for a 
second. You need to find a revenue source that is big enough to 
actually make a difference.
    We can have cake sales all the time, it is not going to 
make a difference, and I appreciate that. But I also have some 
confusion, because some people have labeled this proposal as 
backwards, a sham, inaccurate. Although, at the same time, they 
like LWCF, what you just said--the LWCF money comes from 
offshore revenue. This program comes from offshore revenue. Is 
it possible there is actually good oil and bad oil and we need 
to make a difference between them?
    Secretary Zinke. Mr. Chairman, this proposal comes from all 
energy sources, to oil and gas, wind, solar--everything that is 
energy produced on Federal lands, that is the source of this 
revenue.
    We don't judge energy. The policy of this President is all-
of-the-above, recognizing that we have to power this country in 
energy dominance is a national security--morally it is right, 
environmentally it is right, and economically it is right. It 
is better to produce energy in this country under reasonable 
regulation than watch it be produced overseas with no 
regulation.
    The Chairman. So, you will establish a baseline of what has 
been produced in the past that will fund the programs that are 
already there. And then anything that can be increased from 
that, that becomes what will be going to your backlog program?
    Secretary Zinke. And we believe that is correct because, in 
many places, it has been punitive and not allowing energy 
development to occur, where appropriate, on public lands. We 
are seeing a rise on offshore, we are seeing a rise on BLM land 
and permitting, and we are trying to address the permitting to 
do it.
    The Chairman. I am giving you 20 seconds or less here. Tell 
me how your reorganization effort will help the level of 
service given to people. You actually have 17 seconds.
    Secretary Zinke. Well, given that, the drawing of what we 
are currently organized with, look at the next slide.
    [Slide.]
    Secretary Zinke. This is based on science. And if we focus 
on recreation, NEPA, and permitting, and we force structurally 
for the departments to work together, we will have better 
outcomes sooner.
    The Chairman. And I am out of time. Thank you.
    Ms. Hanabusa, you are next.
    Ms. Hanabusa. Thank you, Mr. Chair.
    Welcome, Secretary Zinke. I want to talk to you about a 
couple of very small projects, in terms of your whole budget, 
but ones that are very significant and important, especially to 
Hawaii.
    I sit before you, the granddaughter of two internees. Both 
of my grandfathers were interned during World War II, one in 
Santa Fe, New Mexico, and one in a place called Honouliuli in 
Hawaii, which people did not know about.
    I didn't find out about the fact that my grandfather was 
interned on Oahu for a lot of the war time until he was 80-
something years old, because they didn't speak about it. And 
that has been the problem that many face, the Japanese 
Americans who served in World War II. As you know, probably the 
most decorated unit to date in the history of the military in 
the 100th and the 442nd, as well as those who were interned, 
just did not speak about it. My grandfather was born in Hawaii 
and is a citizen by birth, though we were a territory then. And 
he did not speak about it.
    This President's budget zeroes out what is I think a really 
nominal amount, compared to your whole budget. It is about $2 
million. But what it does do is eliminates the grant program 
that have at least kept various institutions throughout the 
United States who are trying to keep this history alive. 
Because I believe that it is essential that we, as a Nation, 
recognize our darkest moments, so that we don't have them 
repeat again.
    So, Mr. Secretary, I would like to know. Even with the 
President zeroing it out, are you committed to continue the 
grant programs that are identified, I believe, as the Japanese 
American Confinement Sites Grants Program, which were funded in 
2017? Will we see it funded again in 2018?
    Secretary Zinke. [Speaking native language.]
    Ms. Hanabusa. I think it is still [speaking native 
language], but that is OK.
    Secretary Zinke. To your point, the priorities were set 
that fix the Park Service, fix our stuff first. And this 
program may have been caught up in that. I read about it this 
morning, so I will look into it. I am committed to making sure 
of the importance of this. And I agree with you, it is 
important.
    We still have a grant program, but I think it probably got 
caught up in the priorities of fixing our stuff first--when I 
say ``our'' stuff, Interior facilities, bridges, pipelines, and 
infrastructure--before we extend grants to other programs. That 
is likely what happened, it got caught up in that. I will look 
at it, and I will work with you on it, because I think it is 
important.
    Ms. Hanabusa. Can you tell me that, even if the President 
zeroes it out, would you have the discretion to, if Congress 
approves it, is that what you would need, for Congress to give 
a line item on it for you to over-ride the President?
    Secretary Zinke. The will of Congress, on the budget, is 
always looked at seriously, so if Congress moves, I am sure we 
are going to support Congress. But you have my commitment to 
look at it, because I think it was an oversight in the budget, 
again, because our priorities were on national park operations, 
and this is probably one of the programs that was a result of 
that. I will work with you on it and look at it.
    Ms. Hanabusa. Thank you.
    Secretary Zinke. I understand the importance of it to 
American history.
    Ms. Hanabusa. Let me also point out two programs, also 
really not a lot of money, but has grave impact if you cut it.
    One is what we call NAGPRA, which is, of course, the Native 
American Graves Protection and Repatriation Act. That has also 
been zeroed out, and that is very essential, as you know, when 
we look at artifacts and keeping the history alive of our 
native peoples, including the native Hawaiians.
    Will you also commit to look at that, as well?
    Secretary Zinke. I will. And that is probably, on some of 
these smaller grants, I am sure that is what occurred. And I 
can talk to you on grants, overall, we give about $5.5 billion.
    Ms. Hanabusa. That is right.
    Secretary Zinke. I did not bring in the stack of IGs with 
it, so there have been some problems with the grants. We are 
trying to organize it and track things. This is the copy of the 
IGs, so we are trying to track the execution of them a little 
closer. But I will work with you on it.
    Ms. Hanabusa. Thank you, Mr. Chair. I yield back.
    The Chairman. Thank you.
    Mr. Lamborn, I apologize for stepping in in front of you, 
but----
    Mr. Lamborn. Mr. Chairman, you can do that any time you 
want.
    The Chairman [continuing]. I had this burning within my 
bosom, sorry. You are recognized.
    Mr. Lamborn. Mr. Secretary, it is great to have you here. 
What a difference a year makes. I am excited about what you are 
doing, and I appreciate your efforts.
    Fifteen months ago you were on this side of the dais, 
asking the tough questions. Now we get to ask. But you were 
always an engaged and effective Member representing Montana 
very well, and our loss as a Committee is America's gain.
    And I appreciate the fact that, with increased energy 
revenue, we now have turned $1 billion back to states and 
tribes. We are fostering energy dominance. We are reorganizing. 
I like your ideas on reorganizing the Federal bureaucracy, 
there are some exciting ideas there. You are doing some great 
things.
    Let me ask you about that reorganization. With the Bureau 
of Reclamation, in particular, there has always been an 
identity between Colorado and the Bureau of Reclamation. They 
have worked hand in glove so many times. As these talks 
continue on reorganizing, will you continue to look at Colorado 
as an end place for some of the current Washington-based 
bureaucracy to go and be closer to where the projects are that 
are being done by the Bureau of Reclamation?
    Secretary Zinke. Great question. And let me tell you where 
we are, so everyone knows in the reorganization.
    We asked the USGS to strip the political boundaries, what 
it would look like to organize and manage on the basis of 
science, watersheds, wildlife corridors, ecosystems. They came 
back with 13 different regions. And then I brought every SES 
in--not everyone, but a selected group across the country, and 
these are senior executive service careers--and I asked them to 
take a close look at the maps and adjust them. I took every 
recommendation, because we have certain assets that extend past 
states. And the map you have before you is that map.
    Then I coordinated with the governors. The governors felt 
pretty strongly out West that they wanted to maintain the BLM 
state directors. This organization does not affect it. And the 
governors felt pretty strongly that recreation, NEPA, and 
permitting were the areas that we would focus on.
    Today, 16 percent of Interior is retirement age. In 5 
years, 40 percent of Interior is retirement age, so we are a 
fairly senior group.
    And there are bureaus--Bureau of Reclamation, Bureau of 
Land Management--their primary activity is out West.
    The other challenge we have is in some cities--San 
Francisco, Seattle, Washington, DC, Denver--it is enormously 
expensive for a GS-5, a GS-7 to have a quality life. So, we are 
looking at moving this, say, a recreation group or a NEPA 
group, to smaller cities, where they can enjoy a better quality 
of life. Because we are going to have natural turnover.
    So, when a GS-15 retires maybe in Washington, DC, we can 
reprogram it out in the field, probably where it belongs, at a 
GS-5. And, yes, we are looking at smaller cities in each of 
these areas, not just the West, but in each of these areas, to 
make sure that our people, our young millennials that are 
coming in, can have a quality of life.
    Mr. Lamborn. And I know Scott Tipton would say Grand 
Junction is affordable. I will tell you Colorado Springs is 
affordable, compared to Denver.
    Let me also ask you about another subject before the time 
runs out: illegal marijuana grows. These are happening all over 
the country. I think there is bipartisan interest in getting 
these under control. They wreak environmental havoc wherever 
they take place. Plus cartel activity is frequently involved, 
so I am real concerned about it.
    How widespread is this problem on Federal public lands? And 
what are you doing and can you do to combat this horrible 
problem?
    Secretary Zinke. Well, it is a problem where the growing of 
marijuana outdoors is conducive. It is not really a problem in 
Montana, but it is a big problem in Colorado, a big problem in 
Northern California. And it is an environmental problem as much 
as anything, because the chemicals used are creating havoc in 
our watersheds. So, we are looking at forming task forces.
    We have BLM, we have U.S. Park Police, we have BIA, we have 
a number of different law enforcement entities within the 
Department of the Interior, and we are looking at forming task 
forces to do our part to eradicate the illegal growing on 
Federal land, which has caused an environmental issue among 
other things.
    Mr. Lamborn. Thank you.
    The Chairman. Thank you.
    Mr. McEachin.
    Mr. McEachin. Thank you, Mr. Chairman.
    Mr. Secretary, in previous hearings, you and I and others 
have had conversations about sexual harassment. It is our 
understanding that you plan to release an updated Department-
level anti-harassment policy soon. Will you agree to provide us 
a copy of the draft Department-wide policy?
    Secretary Zinke. Sexual harassment, my policy is simple: 
zero tolerance.
    Mr. McEachin. Yes, sir. But will you agree to provide us a 
copy of the draft Department-wide policy?
    Secretary Zinke. I think we are just about done with that. 
I think we are going to release it next week. I will provide a 
copy to you.
    Mr. McEachin. Thank you. And how will you ensure that all 
bureaus' anti-harassment policies are updated to meet the Equal 
Employment Opportunity Commission standards?
    Secretary Zinke. Well, that is one of the things. Up front, 
our survey has improved on it. I take it seriously. I was 
appalled, at one of my advisory committees, a statement by one 
of the members that resigned was, ``Yes, we knew about sexual 
harassment, but it wasn't our job to say anything.''
    Mr. McEachin. Yes, sir. I understand that. But my question 
is how will you ensure that all the bureaus' anti-harassment 
policies are updated to meet the Equal Employment Opportunity 
Commission standards?
    Are you saying that they will meet those standards?
    Secretary Zinke. The way we are doing it right now is each 
of the bureaus has submitted their draft. Some of the bureaus 
submitted a stronger one than others, and then we are going 
through with our solicitors, all departments, to make sure that 
we have the strongest possible standard within the different 
departments. That is where we are at.
    I am sure EEO is a part of it, as well as making sure that 
the different bureaus that were tasked have some continuity 
between them. Our policy in general is see it, say something. 
And we take it serious. I fired four people, and they told me I 
couldn't fire. I will fire 400 if----
    Mr. McEachin. Mr. Secretary, that wasn't my question. Let 
me move on to my next one.
    One of the actions that DOI took to address sexual 
harassment was to require all bureaus to produce action plans 
for addressing harassment at the bureau level. It is my 
understanding those plans were supposed to have been submitted 
to Deputy Bernhardt within 45 days of the announcement, which, 
by my estimation, was the end of January. Will you provide a 
copy of those plans to me, so that we can assure proper 
oversight?
    This is especially important since my request for a hearing 
on the issue has yet to be honored by the Majority.
    Secretary Zinke. We will supply the reports. Draft reports, 
I don't think there is any requirement to do that, working 
drafts. But we will work with you if you would like to come 
over and make sure----
    Mr. McEachin. Well, Mr. Secretary, it is my understanding 
that they were due to Deputy Secretary Bernhardt within 45 days 
of the announcement of the policy, which would have been the 
end of January. Are they not done yet? Are they still in draft 
form?
    Secretary Zinke. First of all, that was my direction. 
Second of all, we have copies of----
    Mr. McEachin. Are they not done yet, Mr. Secretary?
    Secretary Zinke. They are being reviewed.
    Mr. McEachin. So, they are not done yet. Is that the case?
    Secretary Zinke. Is there a final copy? Final form? No.
    Mr. McEachin. All right. Mr. Secretary, NASA, the military, 
business leaders, local governments, and countless other 
Virginians have vocally opposed offshore drilling in Virginia's 
waters. And that has been done on a bipartisan basis. Why has 
Virginia not received the same consideration as you have 
offered other coastal states, particularly Florida?
    Secretary Zinke. And what consideration would that be, sir?
    Mr. McEachin. Not having offshore drilling off of our 
coast, and taking us off the list.
    Secretary Zinke. Virginia has received the same 
consideration as every other state. All states are still in the 
process, although I did commit with Virginia to make sure there 
is no oil--I committed to no new oil and gas platforms off the 
coast of Florida, primarily because of three reasons. One is 
because every Member contacted me; the governor asked for an 
immediate meeting; and there is a Federal moratorium that would 
prevent me from conducting oil and gas operations off the 
coast. On the coast of Florida, on the basis of that, I 
committed to it.
    Other states I have committed, too. I have talked to every 
governor. I have talked to almost every Member. And we are 
committed to make sure our plan reflects the interests of the 
local communities.
    I can tell you most of the congressional districts on the 
coast are opposed to it, with a few exceptions. The governors 
on the East Coast, other than Maine and Georgia who are on the 
fence, are all opposed. The West Coast universally is opposed 
along the coast, and that is where we sit on the plan.
    The Chairman. OK.
    Mr. Wittman.
    Dr. Wittman. Thank you, Mr. Chairman. Mr. Secretary, thanks 
so much for your leadership and for your service. I want to try 
to hit five points as quickly as I can, and then get your 
comments.
    First of all, for our Chesapeake Bay clean-up efforts, 
critical efforts. It is critical the relationship, the 
partnership we have with the Federal Government, especially the 
Department of the Interior agencies, is key to making sure that 
that cleanup takes place properly. As we go through the 
budgeting process this year, there will be a lot of debate 
about where the dollars go into those Bay clean-up programs. I 
hope to have your leadership and support to highlight the 
importance of those Federal-state relationships, especially 
related to Department of the Interior departments.
    Second, in the Chesapeake Bay, an area on the Rappahannock 
River, arguably the highest-priority conservation site, is a 
place called Fones Cliffs. It has the greatest concentration of 
bald eagles in the Continental United States. Appropriation 
goes back to 2009. We have a willing landowner, willing 
conservation partners. I hope that you will work with me to 
make sure that we finally get this land into the refuge system 
that we have worked on for years and years. So, I appreciate 
hopefully your consideration there.
    Third, H.R. 3979, you talked about giving additional 
dollars this year for infrastructure. H.R. 3979, Keeping 
America's Refuges Operational Act that I put in with 
Representative Hakeem Jeffries, to make sure that we are 
continuing the volunteer and community partnerships that happen 
with our volunteers to maintain refuges, I think that is 
absolutely critical. Hopefully, we will have your support as it 
makes its way through the Senate. It has passed the House, it 
is awaiting passage in the Senate. So, your leadership there 
will go a long way.
    I want to highlight, too, the importance of our regional 
fishery management commissions. I want to thank you so much for 
your leadership and commitment to objective, fact-based 
management decisions there, and what U.S. Fish and Wildlife did 
last year in decisions on Atlantic menhaden. I think those 
things are critical, going forward. I hope that that continued 
effort there, on a commitment to science-based fisheries 
management decisions and the maritime jobs and communities that 
go along with it will continue.
    Last, we were just able to get through and the President 
signed H.R. 984, which is our Virginia Tribal Recognition bill 
that now fully recognizes the six first-contact Virginia 
tribes, the ones that provided the opportunity for Captain John 
Smith to survive. That is a good thing. Recognition long 
overdue. Thank you. In this year's Fiscal Year 2019 budget you 
included $961 million for the initial Federal support for those 
newly recognized Virginia tribes, and I ask for your leadership 
in securing those dollars, as we have the debate through the 
budgeting process.
    Mr. Secretary, the remainder of the time will be for you to 
comment back.
    Secretary Zinke. On the tribes, congratulations on your 
successful navigation with that, and your support of it. I know 
we are supposed to do an event, and the White House is involved 
with it, so we are working to coordinate that. The budget does 
include $960,000 for that. As they are going to be recognized, 
I wish them well with it.
    Other than that, on the list, I am aware of every one of 
the issues. We are working on it. Chesapeake Bay is, obviously, 
a concern, and it has been for a long time.
    Dr. Wittman. Yes.
    Secretary Zinke. We are seeing some improvement in the 
Chesapeake Bay, which is a good thing. We have seen some 
species recover, so I think the path for the Chesapeake Bay is 
looking much better than it was a few years ago. And that is 
why we have regulation, so I am optimistic about it.
    Dr. Wittman. Very good. Thank you so much for your 
leadership there. Again, that Fones Cliffs property, I think, 
is a really key element of what we have been working on there 
for years for that whole area, the Chesapeake Bay, a key 
element, a very unique part of the ecosystem there that is like 
no other place on the face of the earth. So, your continued 
effort there to make sure that all the willingness that I think 
is occurring there, both within your agencies and outside, I 
think the opportunities are there. I hope that you and I, as 
well as the conservation partners, can work to make sure that 
we get that done here in the very near future.
    With that, Mr. Chairman, I will yield back the balance of 
my time.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary Zinke, welcome. I am not sure if your Navy SEAL 
career ever brought you to Guam, but I am taking this time to 
extend an invitation to come and visit our island, since our 
agency is responsible for the U.S. territories.
    Mr. Secretary, I am dismayed that the President's budget, 
for the second time, proposes to eliminate discretionary 
compact impact grants. Federal law mandates--mandates--Guam to 
provide local public services to nearly 17,000 residents who 
are citizens of the Freely Associated States. And our 
population is only 170,000.
    At a time when more and more FAS citizens are migrating to 
Guam and other U.S. jurisdictions under the compacts, why does 
your Department budget propose eliminating this important 
compact impact reimbursement for our island?
    If you could make it quick, because I have such little time 
here.
    Secretary Zinke. As a Navy SEAL, I have been to Guam 
multiple times.
    The budget looked at priorities, and this is why it is a 
proposal, and not a finished product on it. This is the debate 
between the two branches of service. I will work with you on 
it. I understand how important Guam is. We had the meeting, as 
you know, the first 20 minutes was dedicated to what is 
happening out in the Western Pacific. I get it and I will work 
with you on it.
    Ms. Bordallo. Very good. Thank you.
    Guam is facing a fiscal crisis, as are other U.S. 
territories, that mirror the Federal tax code. The governor has 
called our legislature into emergency session seven times. 
Local public services have now been cut back, government 
workers furloughed, and staffing work hours have been reduced.
    The President's budget proposes to cut funding for the 
Office of Insular Affairs assistance to the territories by more 
than 11 percent, and proposes other cuts to Guam. How do these 
cuts square with the Trump administration's stated goal of 
improving economic opportunities, governance, and quality of 
life in the territories?
    Secretary Zinke. Again, as a budget proposal, it is not a 
finished. Insular affairs was consistent with the other 
departments. Trying to get together a responsible budget about 
where we spend our money, at what levels. You have been a 
champion of Guam. When I sat on this side, you have been a 
champion, and you continue to champion your message. And your 
message is being heard.
    Ms. Bordallo. Thank you, Mr. Secretary. And constant 
concern I hear from Guam residents is that we are part of the 
United States, and yet we cannot vote for President. The five 
U.S. territories are excluded from the electoral college, so we 
have no say in choosing our president. Only two of the five 
Members of Congress from the territories are Republicans, so it 
is not a partisan issue.
    What is the Trump administration's position on extending 
full voting rights for the 4.5 million Americans living in the 
territories? I know that this requires an Act of Congress. But 
what is the Administration's position and your position?
    Secretary Zinke. That is way outside the Secretary of the 
Interior's box. I will ask. But you are right, this is a 
constitutional issue, and not an executive action. I can ask 
the President. I know there is a state visit that we are trying 
to organize, because it has been a while for the leaders, 
especially out in the Western Pacific, to have an office call 
and a state visit with the President. We are working on that, 
and that would be one of the things to bring up.
    Ms. Bordallo. Well, if I do introduce legislation, I would 
certainly like your backing.
    My last question is--and I only have a little time--under 
current law, the five U.S. territories and District of Columbia 
split six ways a single state's share from the Land and Water 
Conservation Act. This is simply unfair and under-funds our 
public park and recreation projects in the territories.
    Are you on record as supporting this, splitting this six 
ways?
    Secretary Zinke. I will take a look at it. I know there is 
a congressionally mandated split on that. We will look at it 
closely.
    I can tell you that I agree with you that out West, the 
further you go out, the less people see our country as 
supporting them, and they feel like they have been neglected, 
especially with the rise of China. We talked about that.
    Ms. Bordallo. We have H.R. 4179, which is supported by all 
six Members of the territories. So, I will get with you on 
that, Mr. Secretary.
    Thank you, Mr. Chairman, I yield back.
    The Chairman. Mr. McClintock.
    Mr. McClintock. Thank you.
    Mr. Secretary, welcome back. I thought Mr. Huffman earlier 
brilliantly illustrated the problem that we face in California 
with respect to water: breathtakingly bad public policy that 
has made it impossible for us to meet the water needs of 
Californians. Ironically, California is one of the most water-
rich regions of the country.
    For California's water, the state's policy is essentially 
to place severe restrictions on water usage, ration water, even 
in flood years, as was recently proposed by Jerry Brown's State 
Water Resources Control Board. When the Republicans took the 
Majority in Congress, we set a very different objective for 
water policy, and it could be summed up in one word: abundance.
    I am going to pose a very simple question to you, which 
might seem obvious, but I think it defines the difference 
between the parties on this issue. What do you think is better, 
water shortage or water abundance?
    Secretary Zinke. Well, you are right, the challenges in 
California water are multiple. And it is going to be a 
challenge this year. The reservoirs up north were full. There 
is a lack of storage. I think most people would agree with----
    Mr. McClintock. Well, there is a complete lack of storage. 
We went through 4 years of record drought, where we drained our 
reservoirs almost into mud puddles. Many communities were 
within months of running out of water, completely. If you want 
to know what that looks like, you just have to look at 
Capetown, South Africa. Then we had a year of record rainfall, 
and we had to open up the flood gates of those same reservoirs, 
because we had no place to put the water.
    What is the Administration doing to restore abundance as 
the central objective of both our water and hydroelectric power 
policy?
    Secretary Zinke. This Administration is in support of more 
storage. But on Southern California--California is big, on 
Southern California, those reservoirs never filled, because you 
have a drought, continuing drought, in Southern California 
around Santa Barbara.
    Mr. McClintock. That is because we cannot pump surplus 
water as it heads out to the ocean to those reservoirs. The 
fact is that Northern California, we have no place to put the 
water.
    Secretary Zinke. I agree. This Administration, I certainly 
support more storage. Shasta is an example of that.
    Mr. McClintock. Yes, everybody thinks the Colorado River is 
the big river in the West. The Sacramento system is bigger. The 
problem is we store 70 million acre feet out in the Colorado, 
we only store 10 million on the Sacramento, and the rest we 
lose to the ocean every year.
    Secretary Zinke. True. And back to reorganization, you have 
NMFS versus Fish and Wildlife versus Army Corps of Engineers 
versus Bureau of Reclamation versus the state. You have a 
number of these entities that have differing views that is 
ensuring no progress on any front. And you have seen it.
    Mr. McClintock. And an ideology that is simply adverse to 
new water storage.
    Secretary Zinke. But I think, at the end of the day, almost 
everyone wants the same goal. They want a healthy environment, 
they want clean water, they want sufficient systems, but we 
cannot do it structurally, so we are going to have to change--
--
    Mr. McClintock. Well, let's go to the healthy environment 
and move to Federal lands policy for a moment.
    We imposed laws years ago that have made the management of 
our forests virtually impossible, all in the name of improving 
the forest environment. I think after more than 40 years of 
experience with these laws, we are entitled to ask how those 
forests are doing. You have seen the answer to that; they are 
dying.
    We set three over-arching objectives for Federal lands: to 
restore public access to the public lands; to restore good 
management to the public lands; and to restore the Federal 
Government as a good neighbor to those communities impacted by 
the public lands. Could you briefly tell us what the 
Administration is doing in pursuit of those objectives?
    Secretary Zinke. Well, in the power of the Secretary, I 
signed a Secretarial Order mandating the active management of 
our forests under Interior. I have coordinated that with the 
Department of Ag. and the Forest Service. Overall, this 
Administration wants to reduce the amount of dead and dying 
timber, reduce the fuel load.
    We are going to spend, I don't know what the figures are, 
but probably over $2 billion last year. I think there is 
movement within Congress, though, because of the devastating 
forest fires in California, Oregon, and Washington, in some of 
the groups that have historically resisted cutting dead and 
dying timber.
    I now look at the policy as a threat. Certainly, the loss 
of life in Santa Barbara, Montecito, some of these 
neighborhoods that have influence, watching a needless fire 
continue because we have not been able to do prescribed burns, 
mechanical extraction in our Forest Service holdings out West 
are filled with dead and dying timber. I think it is time to 
act. And this body can be enormously helpful in that effort.
    Mr. McClintock. Thank you.
    The Chairman. Members, I have, like, 90 minutes of 
questions sitting here. I have 40 minutes of time with the 
Chairman. So, I am going to go to the next speaker, and then I 
may ask you if some of you would be willing to either 
voluntarily, or under a UC motion, cut our times down to 3 
minutes so I can get everybody in.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, Ranking 
Member. Kind of a curious order we are going in this morning, 
but I have more questions than I have time.
    Mr. Secretary, thank you for being here. I want to get into 
some specifics, as it relates to California's water issue. I 
find it somewhat saddening that some of our colleagues here on 
the Committee continue to think that growing food is of less 
importance, and using farmers and farm workers as a political 
football, and kicking them in the teeth is somehow appropriate. 
But nonetheless, I will continue to try to solve and fix some 
of the broken water problems we have in California.
    To that end, we had a bipartisan piece of legislation that 
you are familiar with, the WIIN Act, that was passed. It has a 
5-year window, in terms of its implementation, the idea being 
simply to use greater flexibility when we have water moving 
through the system without violating existing environmental 
law, to move more water through the system for the state.
    Under current rainfall in California, can you speak to the 
specifics of how Reclamation intends to implement the 
flexibility provided in this Act?
    Secretary Zinke. Yes. We have put additional funds in the 
WIIN Act. And I have always found it actually somewhat ironic, 
because they always talk about the rich Republican farmers, but 
they are being represented by a poor Democrat legislator. Thank 
you.
    [Laughter.]
    Secretary Zinke. But water is a serious issue.
    Mr. Costa. It is the farmers, the farm workers, and the 
communities that put food on America's dinner table every 
night.
    Secretary Zinke. Absolutely. And, quite frankly, much of 
the debate in this central issue is internal between 
California. I have always found it, as the Federal water 
sometimes referee, I am refereeing water that begins in 
California, ends in California, and is used in California. And 
there is never a scenario where the Federal Government is going 
to win in this.
    Mr. Costa. So, is your notion or the conversation we had 
previously about returning Federal projects within a watershed 
totally within a state to return those to states?
    Secretary Zinke. I have talked to the governor about it, 
and we are willing to discuss it.
    I understand when you have basins and they go multiple 
state, why a Federal Government needs to be the fair referee.
    Mr. Costa. Well, as I told you, that is not a new idea. And 
it has merit, but it also has a lot of controversy, like 
everything else in California involving water.
    Secretary Zinke. I am not sure it is more controversial 
than what I deal with every day.
    Mr. Costa. Interior's budget, does it provide enough 
resources to implement real-time monitoring of fish 
populations, so now that we have been getting water this week, 
that we can pump more water when endangered species are not 
present?
    Secretary Zinke. I think it provides an adequate amount. 
Some of it is, again, the way we are organized between the 
different bureaus.
    Mr. Costa. Right, and we talked about that. Would you 
support legislation to put those purposes of NOAA and NMFS from 
Commerce into the Department of the Interior? And, by the way, 
how well are you working with Commerce, NOAA, and NMFS?
    Secretary Zinke. We work with them well. And I am on the 
record--and I haven't changed since I was a Congressman--I have 
always looked at Interior, the Forest Service, NMFS, we need to 
either work together more closely and make a structural change 
to do that, and I am not----
    Mr. Costa. So, you would consider supporting legislation 
that would make it more logical? We know the political reasons 
on how this evolved some 40 years ago.
    Secretary Zinke. I would. I can tell you the headwinds, a 
lot of it, are over in the Senate.
    Mr. Costa. I know.
    Secretary Zinke. It has nothing to do with what is right. 
It is what----
    Mr. Costa. I have been dealing with this for 36 years, both 
in Sacramento, and now here in Washington.
    Let me segue over. I will submit some questions and you can 
respond to it for the record.
    But finally, a lot of us were concerned with the proposed 
increased fees to cover the way overdue--and you mentioned it--
maintenance efforts for our national parks. And, while I don't 
represent Yosemite or Kings Canyon, they are in my backyard, 
and I feel like it is a part of our area. Those increases, I 
think, are very harmful to people who want to have access to 
the parks.
    I think we ought to find a better way to put the money up 
front to deal with this deferred maintenance for all of our 
national parks, but obviously I am focused on Yosemite and 
Kings Canyon, which I know you visited.
    Secretary Zinke. The proposals that are oftentimes in the 
news were just that, they were a series of proposals. We have 
not made a decision yet. When we get to a draft, no doubt the 
Chairman, the Ranking Member in both houses----
    Mr. Costa. And these belong to all Americans, and we want 
to make sure they are accessible and affordable.
    Secretary Zinke. I agree. I think the best value in America 
still is the year pass, $80----
    Mr. Costa. Perhaps America's greatest idea----
    Secretary Zinke. Greatest idea. I am not sure who pays for 
the parks. Everyone goes in for free.
    Mr. Costa. Thank you, Mr. Secretary.
    The Chairman. Mr. Thompson.
    Mr. Thompson. Thank you, Chairman. I will try to do this 
within 3 minutes.
    Mr. Secretary, good to see you. Great to be with you at the 
scouting Report to the Nation event. And thanks for coming to 
Pennsylvania last month. We really appreciate you being there 
to announce the 2018 AML grants. We made great strides in 
restoring our historical mine lands over the past four decades, 
but there are a lot of scars left, a lot more work to be done. 
The OSM estimates that the unfunded liabilities of the 
abandoned mine lands across the Nation exceeds at least $10 
billion, and that number continues to grow, as more work is 
done.
    I have been to a number of these reclamation sites in 
Pennsylvania, and the work is impressive. It is helpful in 
restoring our lands, our waters, our communities, so, 
obviously, something that we have a lot more work to do.
    Can you discuss how the Office of Surface Mining plans to 
continue working with states and communities to restore 
abandoned mine lands, and especially in the uncertified states 
with the most needs?
    Secretary Zinke. Abandoned mines are an issue across--and 
by the way, both sides were invited to attend the public 
meeting when I went to Pennsylvania, and I think it is 
important for the Secretary to meet with local leaders and 
actually see it. So, there is a lot of work, and Pennsylvania 
received the lion's share of the AML for a reason, that there 
are a lot of reclamation jobs that need to be done.
    We remain committed to the program. We think the program is 
good. Across this country, the way that we used to mine was 
destructive. Modern mining techniques are a lot better, and we 
have a lot more regulation on it. But repairing the past 
mistakes still remains to be a priority in this budget.
    Mr. Thompson. Yes, I have the largest, I don't know if it 
is a privilege or a burden of having the most abandoned mine 
sites in my congressional district than any in the country. But 
we are very proud of the coal that we mined that fueled the 
Industrial Revolution and helped to win World War I and World 
War II. So, we will never apologize for that.
    Just real quickly, is the Department or OSM considering any 
additional AML support for these states?
    Secretary Zinke. We have a plus-$51 million on it, and we 
want to make sure the process of how we execute the funds--we 
think there is savings in that, too. You know, analyzing, when 
we give grants and money for this program, how is it being 
better spent, or how could it be better spent to shorten the 
timeline, we think that will save money, which will allow us 
more flexibility and more programs.
    Mr. Thompson. And actually make a bigger difference. Thank 
you, Mr. Secretary.
    Chairman, I yield back.
    The Chairman. Thank you.
    Mr. Sablan.
    Mr. Sablan. Thank you very much.
    Mr. Secretary, welcome back to the Committee. The covenant, 
the agreement between the United States and the people of the 
Northern Marianas, includes a provision or language that says 
that the United States will help the Northern Marianas so that 
the lives and the communities will be advanced to a state of a 
similar community in the United States.
    Last year, I brought to your attention that under the 
Office of Insular Affairs competitive system for covenant 
funds, funds that were originally intended strictly for the 
Northern Marianas to promote that advancement of standard of 
living, all went to the Marianas. My district now gets less 
than half the money. This deprives Saipan, the only United 
States municipality without 24-hour potable water, of needed 
infrastructure funds.
    In your written answer, you said that the competitive 
evaluation criteria are evaluated and revised as necessary 
every 5 years. Can you explain the evaluation process to me, 
and what year it would next take place, please?
    Secretary Zinke. I recognize that the territories are 
different, they are smaller communities. And there has been 
criticism, and some of it has been in the IGs, that when we 
issue a grant there is not transparency in how they are 
conducted, or the standards are somewhat different.
    But I also understand that I think we are making the 
threshold of standards too stringent and not flexible enough. 
We all want transparency, but the territories themselves many 
times don't operate the same as the Lower 48 or Alaska, and we 
need to be flexible and transparent. We are looking at how to 
do that within the confines of the law.
    Mr. Sablan. I don't want to disrespectfully cut you off, 
but if you won't today, can you explain, even in writing, again 
the re-evaluation process to me, and what year it would next 
take place? Because it has been over 5 years.
    My next question is, last year we discussed the long-
overdue Mariana Trench National Monument Management Plan the 
Fish and Wildlife Service has been working on for 9 years. In 
your written answer, you stated FWS continues to work with its 
partners toward completion of the plan, and that a number of 
steps have been taken to address or resolve important issues 
such as 2016 patent under the Submerged Lands Act.
    Can you tell me what has happened in the past year, and 
when the draft monument management plan, which was to be 
completed in 2011 under President Bush's proclamation, when 
will it be issued?
    Secretary Zinke. A principal issue at the moment is 
science. The recommendation that went forward to the President 
about the monument was to allow commercial fishing, we are 
trying to look at the science behind it. If you are going to 
allow commercial fishing, which is the most regulated industry, 
I think. We forget about how regulated fishing is. But we are 
trying to look at the science, whether or not and what levels 
of that.
    And I will get back to you on where the Fish and Wildlife--
we are also pulling data from the USGS and we are looking at 
the enforcement part of it, too. Because even though we do 
things as this country, we don't have a lot of enforcement and 
enough physical presence out there to make sure that other 
countries are in compliance. So, that has to be taken into 
consideration of any plan, because, as you know, Russia and 
China are out there, not abiding by the rules.
    Mr. Sablan. Exactly, exactly, leading to my next question.
    But first, you mentioned a state visit. The President won 
in the Northern Marianas in the primary and lost in Guam. So, 
just remind him about that.
    Secretary Zinke. And that is our priority, and we are 
working to get a state visit between the three.
    Mr. Sablan. Mr. Secretary, I would like to sit down with 
you again like we did last year, when everyone ran off to vote 
and it was just you and I, to discuss your thoughts about the 
military plans for the Marines for the need for the island of 
Pagan.
    Mr. Chairman, I yield back my time.
    The Chairman. Thank you.
    Mr. Gosar.
    Dr. Gosar. Thank you.
    Secretary, thank you so very much. I am going to cut it 
short to try to let others speak, but there are too many things 
that I can say and applaud you for, putting your elbow and your 
shoulder behind.
    The first thing I really want to compliment you on is to 
continue this reorganization plan. But you heard from my 
colleagues on both sides of the aisle that Arizona would like 
to be exempt from California, that would be our one little 
clue.
    On the critical minerals, I absolutely love where you are 
going with this. Just a side note, you are a geologist, you 
understand that some of these side metals that are very 
critical are associated with copper and with nickel mining. So, 
maybe inclusions of those would be very forthright. It is going 
to be our future, so that we are not dependent upon China for 
that.
    You are very aware of the Grand Canyon beefalo. This is an 
invasive, non-native species. The Park Service has dragged 
their feet over and over again. They are destroying a critical 
ecosystem. We would love to see you--I know you were a co-
sponsor of the bill--this is a win-win situation in allowing 
the Arizona Game and Fish to allow hunting experiences, make 
some money off of it. So, we would love to see you make some 
inroads there.
    Twin Metals and the Superior National Forest. Thanks for 
the M opinion. We appreciate that. Any new information on the 
withdrawals that were actually done by Congress twice? Any new 
updates on that, sir?
    Secretary Zinke. In regards to the M opinion, it was a 
legal analysis that, when they canceled the preferred leases, 
it was not on legal standing, so we withdrew those. And now 
they have to go through a NEPA process, as they should. We are 
just trying to be fair.
    And, up front, there are places to mine and extract, and 
there are places not to. That is why we have a NEPA process in 
our country that should be fair, should be firm, but it also 
should not be arbitrary.
    Dr. Gosar. Last, but not least, your proposed 5-year 
offshore plan was a breath of fresh air. Please put forward a 
final plan that closely resembles what you proposed. Hundreds 
of Members of Congress on both sides applaud you for that.
    I would like to take my last 30 seconds and just say thank 
you for engaging, making it a bottom-up, instead of a top-down. 
I think that makes a world of difference for trying to get the 
West looking like it should. With that, I am just going to say 
thank you.
    Secretary Zinke. Thank you for your comments, Doctor.
    The Chairman. Thank you, I appreciate that.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    Welcome, Mr. Zinke. A couple of things. I think I have 
heard you say you understand well that Massachusetts, as a 
state, on a bipartisan basis we have met your test, a letter 
from every Member of Congress, as well as our Republican 
governor, signing on in opposition to drilling off our 
beautiful shore. So, that is your understanding, is it not?
    Secretary Zinke. It is clear that Massachusetts stands 
firmly opposed to offshore. But you should also know that there 
are really no resources off the coast of Massachusetts. And we 
can go through science, where they are, but yes, I have you 
down for a no.
    Ms. Tsongas. Thank you very much. I also want to revisit 
the issue that Mr. McEachin brought up, which is the issue of 
sexual assault. You referenced it more broadly across the 
Department of the Interior, but there was a survey done within 
the National Park Service, and I think it is important to 
highlight the results of that survey, that 38.7 percent of 
survey participants experienced some form of harassment in the 
last year; 10.4 percent of participants experienced sexual 
harassment in the past year; 74.7 percent of employees who 
experienced harassment did not file a report or complaint about 
the behavior. Of those who chose not to report, 45.9 percent 
thought nothing would be done if they filed a report or 
complaint, and 33 percent did not trust the process.
    Your budget does not include any dedicated funding to this 
issue. In my role on the House Armed Services Committee we have 
seen all the services wrestle with this very seriously, as well 
as the Defense Department, more broadly. It does require 
resources to be effective.
    You said the budget is a work in progress. Can you imagine 
finding funds to dedicate to this, whatever efforts you put in 
place?
    Secretary Zinke. Well, the report looks back. And I don't 
give judgment, it was a previous administration. It is still 
there. The sexual harassment is still there. I think much of it 
is leadership.
    Ms. Tsongas. Leadership, but leadership often requires a 
backup. For example, in the DoD we found nothing really 
happened until a general was put in charge of the sexual 
assault prevention response office. So, somebody with real 
standing within the organization has to take charge, and I hope 
that you will consider this as you move forward.
    There is also another survey that has been done of part-
time employees. When do you expect the results of that to be 
released? Because I understand that it has been completed. 
Initially, we expected to hear it in spring of this year.
    Secretary Zinke. I will look on that. But I can tell you 
what sent shock waves through Interior is when I fired four. 
And I have said it again. I will fire 400, if necessary. Like 
you, I think sexual harassment is a cancer in an organization, 
and everyone deserves the right to come to work free of 
harassment, free of intimidation, and have a work environment 
that promotes integrity, innovation, and a strong work ethic.
    Ms. Tsongas. I agree. But, obviously, given the numbers 
that have been revealed, it is going to take a real culture 
change. And I appreciate your actions, but I do think something 
more comprehensive will be required. And within the National 
Park Service, there is yet to be a permanent director. I 
imagine a permanent director at the head of that service could 
begin to wrestle with the culture change that is needed.
    When does the Administration plan to nominate a director of 
the National Park Service, a permanent director?
    Secretary Zinke. The Office of Government Ethics and the 
FBI, I just had my nominee--the President's nominee, excuse 
me--for the USGS just came out of the Office of Government 
Ethics and FBI after about a year. He is an astronaut. He has a 
Ph.D. in earth sciences. He has a top secret----
    Ms. Tsongas. No, we are talking about the National Park 
Service, though.
    Secretary Zinke. But this gives you an example.
    Ms. Tsongas. Do you have a permanent nominee?
    Secretary Zinke. All has been done. I don't have BLM, I 
don't have Fish and Wildlife Service. I don't have Park 
Service. I still don't have USGS. I can go on, but it is not 
the White House.
    Ms. Tsongas. Speaking quickly of USGS, you have mentioned a 
number of times today about the importance of science in your 
decision making, and the USGS's role in doing that. And yet, 
you are proposing to restructure the climate and land use 
change program and significantly cut the numbers of dollars 
that would make their way into the USGS, I think seriously 
compromising its role in establishing good science around 
climate change and other things. I yield back.
    The Chairman. Thank you. Two things, very quickly.
    First of all, the Secretary has graciously said he will 
stay here longer than we had originally planned. Thank you for 
doing that.
    Secretary Zinke. I am just having so much fun, Mr. 
Chairman.
    The Chairman. Yes, so am I. Your efforts to cut back, you 
don't necessarily need to do that. It is not happening, anyway, 
so you don't necessarily need to do that.
    Second, I appreciate you having Massachusetts written down 
as a no on activities in Federal waters. Have you got Utah 
written down as a yes on activities on Federal lands in my 
state? And I hope the other side would recognize that, as well.
    Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman.
    Secretary Zinke, great to see you, I appreciate you taking 
the time to be here. And I do want to thank you and Deputy 
Secretary Bernhardt for your efforts in regards to the issue 
which was impacting four of our counties with the surplus 
revenues which were paid into the AML funds. And I do want to 
note that I am particularly appreciative of all of your efforts 
to be able to bring this to some level of conclusion for these 
counties. It really is important. Thank you for that.
    I did want to take the opportunity to be able to visit with 
you on the Fiscal Year 2019 budget that was coming out.
    We have a project in Colorado that is in my district, or a 
portion of my district, the Fryingpan-Arkansas project, which 
was started in 1962. Part of that project was also the Arkansas 
Valley conduit, to be able to deliver fresh drinking water into 
southeastern Colorado, as a result of EPA mandates under the 
Clean Water Act.
    Mr. Secretary, our communities in southeastern Colorado are 
literally in a no-win situation, and the concern is that was 
zeroed out in the budget. The EPA has required the Clean Water 
Act to be employed. The resources are not there to be able to 
build it. This has been going on since 1962. And, in fact, if 
we had probably taken the money that was spent on the studies, 
we could have built the project during that period of time.
    But the concern is they have a no-win. Simply with the 
mandate out of the EPA, the resources are not there, zeroing 
this out in the budget. Can you speak to this issue and what we 
might be able to expect in southeast Colorado?
    Secretary Zinke. Well, it is. And I understand the water 
district is looking at different innovations. The challenge we 
have in the Bureau of Reclamation is this: the initial idea was 
for the government to step in, make the investments, and then, 
over the period of time, the water users would pay for it and 
we would transfer title. Not transferring title has resulted 
over time in an enormous amount of infrastructure that we now 
pay for that we shouldn't. And transferring title, when it is 
appropriate, will free up money to invest in new projects that 
the small communities cannot afford. That was what the 
fundamental idea about Bureau of Reclamation was all about.
    So, we find ourselves in systems that have long since paid 
for themselves, when the initial deal was made, but yet we 
maintain enormous amount of overhead, maintenance, and 
political battle on it when we should be transferring. That 
would help the Department of the Interior. We have asked in the 
budget for a title transfer authority to be given. And we will 
make sure it is appropriate and work with Congress to do it, 
but there are some projects, if we transfer it, it will free up 
money to fund exactly what you are talking about, what the 
intent of the Bureau of Reclamation should be doing.
    Mr. Tipton. I appreciate that. And we look forward to 
working with you, an important issue, obviously, for our 
district.
    The next issue--and I still want to be respectful of your 
time and my colleagues' as well--we have introduced 
legislation, myself and Cory Gardner on the Senate side, to 
authorize a study by the Department to be able to move BLM 
headquarters to the West. I appreciate the reorganization plan 
that you are currently putting together and I would like to be 
able to get your ideas on that. I would be remiss if I did not 
note that Colorado would obviously be the prime location for 
you to be able to consider.
    But can you give us an update on some of your thoughts on 
BLM relocation?
    [Slide.]
    Secretary Zinke. Where we are in the organization is the 
map you see. We are that far. And, quite frankly, there are 
bureaus that we think are candidates to move out West, because 
the preponderance of activity is in the West. BLM, certainly, 
Bureau of Reclamation. We haven't decided where we go, but I 
would think what we would do is we would create a matrix on 
quality of life, good schools, hospitals, accommodations, those 
types of things, and target cities within these groups for 
candidates. And perhaps even compete the cities to it.
    We have 2,600 facilities nationwide, and we are in a lot of 
towns that people don't think they are. But my concern is 
making sure that we go to a community that has a high quality 
of life, that is affordable for the GS-5, GS-7, great 
communities that can compete for millennials that will want to 
be there. Colorado, certainly, fits that description.
    Mr. Tipton. Thank you. I concur with that. I yield back the 
balance of my time, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Secretary, just following up on Congresswoman Tsongas' 
scientific integrity questions, should the Department of the 
Interior pursue and publicize peer review, scientific data, 
even if you, yourself, or the President disagree with the data?
    Secretary Zinke. Yes. If you are referring to the petroleum 
reserve, the National Petroleum Reserve, I don't change a 
comma. But I can tell you when I am responsible--just like your 
staff, if your staff releases a document, I think you probably 
look at it first.
    Mr. Grijalva. Yes, but----
    Secretary Zinke. Same thing with mine. It doesn't mean I 
change it, especially when it is scientific integrity in a 
study. I don't change a comma, but I do read it before it goes 
out.
    Mr. Grijalva. In the specific case we are referencing, a 
USGS scientist resigned because he felt he was being demanded 
to see data before it was made public. And the demand violated 
the agency's fundamental science practices, and the feeling was 
to allow energy companies to trade on this information 
unfairly.
    Secretary Zinke. That would be an allegation, sir, that is 
untrue. I would like an apology, Mr. Chairman.
    Mr. Grijalva. But do we ask the scientist who made the 
allegation?
    Secretary Zinke. No, but to allege something that occurred. 
I did not change a comma in a document, and I never would. But 
I can tell you I read it. In the case of the National Petroleum 
Reserve, I want to know why the data was not consistent. Same 
set of data, two reports, only a couple years apart, and yet--
--
    Mr. Grijalva. So, your intention is not to suppress 
scientific findings that you might disagree with, or to release 
sensitive scientific information in violation of your own rules 
in the Department?
    Secretary Zinke. I don't change a comma from any scientific 
report, but I do read it before it goes out, because I want to 
know.
    Mr. Grijalva. It is not about changing. It is about 
disclosure and peer review and getting it out----
    Secretary Zinke. I think you should know why--I should 
know, the boss, why the same data set was different, same 
study, 3 years apart, that grossly under-estimated the 
reserves.
    Mr. Grijalva. OK. Another question dealing with issues of 
transparency and other points that have been brought up through 
this discussion.
    Do you agree the Department should have a permanent 
Inspector General, and that the IG should operate independently 
from your office, and that funding for that IG office should be 
sufficiently increased in the next budget cycle?
    Secretary Zinke. The IG is an independent body that follows 
the law. I think their budget is sufficient to carry out their 
duties.
    Mr. Grijalva. I want to submit for the record, Mr. 
Chairman, in the time I have left, a statement from the Vietnam 
Veterans of America, a statement from American Veterans, 
AMVETS, a letter from the American Society on Aging, a 
statement from the Vet Voice Foundation, a statement from the 
National Disability Rights Network, a statement from Alliance 
for Retired Americans, a statement from Social Security Works, 
all essentially condemning the remarks Secretary Zinke made 
blaming the elderly, veterans, and people with disabilities for 
the push to increase fees in our national parks.
    And I also think it is important for the Committee to know 
that there is a distinction with the Land and Water 
Conservation Fund. The LWCF is a 53-year-old program. These 
proposals that we are talking about today to engage in 
dangerous new drilling off the beaches of Florida, California, 
and other states are separate issues. And Congress authorized 
$900 million a year on paper for LWCF, but that money, of 
course, is subject to appropriations by Congress.
    In contrast, the Administration's proposal, what we have 
heard from the Secretary, and the legislation that is in 
Congress now incentivizes new drilling in places where it has 
been deemed inappropriate in the past. New drilling is the only 
way NPS backlog gets money. Further, this money would be 
mandatory spending, so Congress would have no role in deciding 
how it gets done. This proposal amounts to saying we have to 
risk destroying some parks, or our parks, in order to save 
them.
    It is also ironic that at a time when you are arguing for 
new OCS revenue as a way to fix our parks, there is also 
consideration by the Department to reducing the royalty rate 
for that same drilling. I don't know how that will work.
    I yield back.
    The Chairman. Perhaps you will have a chance to answer that 
question some time.
    Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Secretary Zinke, it is great to have you here this morning. 
Thank you for all you have done this past year.
    Last week, I, along with Senator Crapo, sent you a letter 
regarding grazing management in wilderness areas on BLM land. 
Specifically, the letter asked you to re-examine BLM manual 
6340 that was finalized during the Obama administration and 
fails to reflect congressional intent. The record is clear: 
Congress intended to allow grazing, including increasing the 
number of AUMs, where appropriate, in designed wilderness 
areas.
    Since we just sent you the letter last week, I don't expect 
you to have a complete answer for me today, but will you commit 
to reviewing this particular manual to ensure it is consistent 
with congressional intent?
    Secretary Zinke. Well, as you know, the Wilderness Act of 
1964 was a grand compromise between three parts: the 
preservationists, the hunters and fishermen, and the cattlemen. 
And it is my opinion that we have not lived up to the 
obligation and the intent of that law. And we are looking at 
it.
    Clearly, when you cannot do timber harvest, there is a lot 
of dead and dying timber and undergrowth, which is a fire 
hazard. And many times in wilderness it starts in the 
wilderness, either by lightning or other means, and it extended 
outside. So, having grazing has always been a positive in most 
cases of removing the dead and dying timber and some of the 
growth. We are looking at that policy.
    Grazing also--you have to weigh it with elk and deer, 
because in many wildernesses it is a competition for food, and 
we want to make sure we don't have unintended consequences. But 
we are looking at it hard, and I agree with you it should be 
looked at.
    Mr. Labrador. Thank you. I also want to discuss 68 grazing 
permits up for renewal in Owyhee County, Idaho. These permits 
have come to be known as the Owyhee 68. Originally scheduled 
for renewal in 1997, these permits are still awaiting renewal 
more than 20 years later, due to ongoing litigation.
    Over the years, BLM has repeatedly capitulated to the 
demands of environmental groups, to the detriment of ranchers 
who have worked on the land for generations. While grazing 
permit renewals can be complicated, they should not be this 
complicated. What are you doing at the Department of the 
Interior to ensure that BLM and the other agencies involved in 
the renewal of grazing permits have the resources they need to 
complete the process?
    Secretary Zinke. I think in this case, my understanding, it 
is before the administrative judges at the Interior Board of 
Land Appeals. But I agree with your overall thesis, that it 
could have been willful and intentional, to slow-roll these 
things, and we have seen that across the West. We will work 
with you on it, and we will show you all the data that we have 
on it.
    Coming from Montana, where there are a lot of really good 
people out there, in my experience, our ranchers respect the 
land. And some of the greatest land in this country is in the 
hands of ranchers. They are good people, they work hard, they 
preserve the land. In general, if a lot of our land had 
ranchers on it, we would not have the issues we do.
    Mr. Labrador. All right, thank you. For the sake of the 
Committee I will yield back the rest of my time.
    The Chairman. Thank you.
    Mr. Soto.
    Mr. Soto. Thank you, Mr. Chairman.
    Mr. Secretary, first I want to thank you for publishing the 
sand skink relocation permit in the Federal Register this week. 
This is an area in Winter Haven in our district that has a new 
community center in an economically depressed area, so we 
appreciate that.
    The AP report of this week that the manatee population has 
taken a pretty steep dive because of a cold winter, as you may 
know, it got reduced down to threatened. Do we have your 
commitment to hold the line on at least the threatened status 
for manatees, given the erratic population numbers over the 
past couple of years, due to weather?
    Secretary Zinke. You have my commitment, I will work with 
you on it. It is an issue to us. We are concerned about it. We 
are looking at the same data that you have, and we are trying 
to expedite that. The cold winter has affected a lot of species 
down in the Everglades, and I am committed to work with you on 
it. I think we are on the same page. We just want to make sure 
that it is a healthy population of manatees.
    As you know, one of my priorities when I came to office is 
to go down to Florida, look at the Everglades, and the 
Everglades which you are concerned about, as well as I am, it 
starts with making sure the plumbing is right. The Everglades 
won't be fixed until we get the water flow right. And the water 
flow affects the entire peninsula. We are working hard to come 
up with a plan and expedite it.
    Mr. Soto. Mr. Secretary, I am glad you mentioned the 
Everglades, because that is what I was going to ask about next.
    As you know, we have sped up the Herbert Hoover dike 
construction. But there was recently in our State Legislature a 
new reservoir passed in a bipartisan manner that requires 50 
percent Federal funding, $1.4 billion, all together. It is an 
8-year project, 10,500-acre reservoir and 6,500-acre treatment 
marsh.
    I know Congress, obviously, makes the final decisions on 
these funding issues, but can we count on your support for the 
funding that Congress will need to make sure this new reservoir 
becomes a reality?
    Secretary Zinke. You can. And here is an issue that we need 
to work together on. It is the way that new starts are in 
process with the Army Corps of Engineers. That project should 
be all one. But it is listed--each different component is a new 
start, so it takes Congress to authorize a new start. And what 
happens is, on a project management scale, we cannot begin and 
end the certain components unless we fix the structure of it. 
So, that whole project should be one start, and you can do it 
as a project management and proceed expeditiously.
    If we all work together on this, we can make it more 
efficient and get it done faster with less cost.
    Mr. Soto. So, if we got a new start consolidation for the 
Everglades project out of this Committee, that would be 
something you would support?
    Secretary Zinke. I would. If we put the whole project, 
these projects, as one entity so you didn't have to go to 
Congress to authorize each component of it, it would speed the 
process up exponentially.
    Mr. Soto. And last, with regard to offshore oil drilling, 
is it fair to say, since there has been some confusion, that 
Florida is going through the BOEM process, but that you expect, 
given your past statements, that we will be excluded? Is that 
fair to say?
    Secretary Zinke. My commitment is we will do no new oil and 
gas platforms off the coast of Florida. I can't make it any 
clearer than that. Legally, there is a process that we go 
through. But my commitment is the same as I made to the 
governor.
    And you would have thought that all the Members of Florida 
would have went, ``Yes.'' But there was blowback. Somehow it 
was either a political decision, but it was the right decision 
in Florida, and I will stand by it was the right decision in 
Florida, unless you disagree.
    Mr. Soto. Mr. Secretary, we were very pleased about the 
decision. I can tell you it was just when the BOEM Director 
stated that we were still in the process that then put it into 
a tailspin. That was really where we find ourselves today.
    But yes, we definitely appreciate Florida ultimately being 
out of it. So, no possibility we are going to be ending up in 
it by the end?
    Secretary Zinke. My commitment remains steadfast.
    Mr. Soto. Thanks, and I yield back the remainder of my 
time.
    The Chairman. I will remember that on Bears Ears.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary, how is it going?
    Secretary Zinke. The dam, here it comes.
    Mr. LaMalfa. Are you braced for it?
    Secretary Zinke. I am braced.
    Mr. LaMalfa. All right, good. We will need some new 
answers, too.
    Two years ago, you spoke on the House Floor and you had a 
really good statement about two of the bills that we had passed 
to streamline constructing of hydroelectric projects on two 
dams that affect Montana and Idaho, citing as a serious 
disconnect between DC and rural residents. I will quote you, 
``While unelected bureaucrats sit in their offices in 
comfortable government jobs, residents are stuck in limbo, not 
knowing if good-paying jobs will come through, or if they will 
receive some relief in energy prices.''
    Last year, I sent you a letter asking your agency to 
reverse the misguided previous Obama administration campaign to 
ensure that regulatory conditions forced removal of the Klamath 
dams, three of them in my district, one on the Oregon side, 
which have provided flood control, recreation, access to 
affordable, reliable, renewable electricity that there are so 
many mandates for now these days.
    I also included dozens of letters from my constituents in 
Siskiyou County, who would still like to be heard on this 
issue, and basically have been insulted by your bagman up 
there, Alan Mikkelson, who has been up there six-plus times, 
insulting the people that oppose dam removal, and listening 
only to the ones that want to remove the dams. That is how it 
seems and feels for them up there.
    You would have heard the pleas of these families who see 
the disregard that the predecessor to your job has treated my 
constituents for the crime of being rural residents. You would 
learn the hopes that these parents, that they continue farming 
and ranching and living in a community where they have an 
economic opportunity would continue to go on.
    During this time of this Administration, Congress has 
passed 15-plus congressional review act legislation pieces in 
order to downsize the unfair regulations that have been dumped 
on resources, on agriculture, on many things that have hurt the 
economy in this country under the previous administration. A 
22-to-1 ratio, at least for a while, of rescinding versus new 
regulations have come into place.
    Now, when we are talking about the Klamath dams up here, 
Interior has played a critical role in the decisions relating 
previously to the Klamath removal. Two years ago your 
predecessor included the agency as a signatory to the KHSA, 
with the explicit purpose of dam removal. You can withdraw 
that, sir. Your predecessor submitted a secretarial statement 
of support for dam removal to FERC, the agency that we need to 
get relicensing from for these dams to continue to operate, 
declaring Interior's policy to support removal of dams directed 
under the KHSA. You can withdraw that. I have asked you to do 
so.
    These actions were taken before the agency ever completed 
the process to determine the impacts of dam removal, and done 
in a way to completely avoid the public process. Indeed, secret 
meetings, and my office was excluded, to set up a shell 
corporation so the liability would no longer be on the Federal 
Government or anybody else, except for this shell corporation, 
which will disappear after the dams were removed.
    And that also removes legal remedies opponents have they 
can use under a normal secretarial determination process, 
because there has not even been a completed NEPA to determine 
what the impacts of the dam removal and the 20 million cubic 
yards of sediment going down this river to supposedly help this 
river and help coho salmon and other species recover.
    So, I have several questions I would still like to take a 
shot at with you at a different time here today, the Ides of 
March, 2-year anniversary of your previous statement. Will you 
allow a NEPA process to be completed before a decision is made? 
Will you withdraw the signature that the previous agency member 
sent to FERC so that they will have a true picture of what is 
going on up there on the environmental impacts, the economic 
impacts, and the 79 percent of my constituents in Siskiyou 
County that voted against removal, as well as the 72 percent 
that voted against removal on the Klamath side?
    Mr. Secretary, will you take these things into account and 
do as I have asked you before?
    Secretary Zinke. I certainly am committed to work with you 
on it. Here is the issue. We have looked at it, bow and stern. 
Interior doesn't have a role. And I can't speak to the last 
administration----
    Mr. LaMalfa. Interior has had a role, sir, up to this 
point. Now you will say you have passed it off to FERC. Yes, 
these are private dams. These are not private dams when you 
have $250 million of state money, as well as $200 million of 
ratepayer money, and government action has forced them out of 
business.
    The Chairman. All right.
    Mr. LaMalfa. I will seek to have a further conversation. 
Thank you for listening.
    The Chairman. Yes, I will need you to maybe answer him in 
writing, if possible.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. Before my time starts, 
I have a parliamentary inquiry. Did the documents that Mr. 
Grijalva asked to be entered into the record, were they entered 
into the record? I didn't hear the----
    The Chairman. No one objected.
    Mr. Brown. OK.
    The Chairman. Are you objecting?
    Mr. Brown. No, no.
    The Chairman. OK, then----
    Mr. Brown. I don't want to be redundant.
    The Chairman. If you are objecting, they won't be added.
    Mr. Brown. No, not at all. Thank you, Mr. Chairman.
    Good afternoon, Secretary Zinke. You are a veteran, I am a 
veteran. I don't think you need to be a veteran to respect and 
appreciate the sacrifices that veterans have made. We often 
hear and we say frequently that we owe veterans a debt of 
gratitude that we will never be able to fully repay. I believe 
that that extends beyond the veterans, but also includes family 
members, spouses, children, and even grandchildren of our 
service members, as those to whom we owe a tremendous debt of 
gratitude.
    Veterans often use public lands as a way to find renewed 
purpose and a place of refuge and solitude. I want to ask you 
about your testimony in the Senate, because I know that you are 
a veteran--I thank you for that service--perhaps an opportunity 
to rehabilitate what seemed to be a very troubling statement 
that you made regarding admission fees at our national parks, 
and the need to raise fees due to disabled veterans being able 
to visit them for free, because you said, and I quote, ``When 
you give discounted rates to the elderly, veterans, and the 
disabled, and do it by the carload, not a whole lot of people 
actually pay at our front door.'' And again, I find this 
statement troubling.
    Secretary Zinke. Well, it is true.
    Mr. Brown. So, let me ask you the question, then. Are you 
going to make disabled veterans pay for access to public lands?
    Secretary Zinke. No, no. And I appreciate the question.
    Mr. Brown. Yes, I am trying to give you an opportunity to 
rehabilitate here, because that sounds like you are going to 
pay for deferred maintenance on the backs of veterans and the 
disabled and the elderly.
    Secretary Zinke. No, no. I have no intention of changing 
the policy on such things. But I have worked a lot of kiosks, 
and it is amazing to me how many people come through that don't 
pay because it has been a policy that----
    Mr. Brown. Let me ask you this. How many visitors do we 
have to our national parks every year?
    Secretary Zinke. About 330 million visitors a year.
    Mr. Brown. About how many come in cars?
    Secretary Zinke. Most.
    Mr. Brown. Most? And how many of those visitors are 
veterans?
    Secretary Zinke. We don't track----
    Mr. Brown. OK, how many of them are military members or 
dependents?
    Secretary Zinke. We don't track.
    Mr. Brown. OK. How many of them are disabled or elderly 
Americans?
    Secretary Zinke. We don't track who is in the car, other 
than----
    Mr. Brown. OK. I am very concerned, then, when I hear that 
they come in by the carloads, but we don't keep track of the 
carloads, yet in your testimony to the Senate regarding whether 
or not the fees at the parks are sufficient----
    Secretary Zinke. I think you should go to a----
    Mr. Brown. If I may, you suggested that it was because of 
disabled veterans, elderly, so I am just really concerned, and 
particularly where you don't have a count----
    Secretary Zinke. Well, if you will let me answer, I will 
talk to you.
    Mr. Brown. Well, I asked you some specific questions. Do 
you know the number of veterans? And you said, no.
    Secretary Zinke. We track the number of--when you buy a 
card, a year card, we track that. We don't track--as long as a 
person has a car, we don't record who is in it. But I have 
been, and I will invite you to a kiosk with me and go through.
    Presently, our policy--and I don't intend to change it, 
because I am comfortable with the policy--it is disabled----
    Mr. Brown. OK, then I am fine. I am fine. Thank you for 
answering the question. I am fine. I do appreciate that you 
won't change the policy on the fees for our veterans.
    Let me ask another question, if I may, shifting focus. Your 
budget includes a 15 percent decrease for the Bureau of Ocean 
Energy Management's renewable energy program, which is about a 
1 percent higher decrease than your overall budget, from the 
2017 funding levels. Earlier this week, before the Senate, you 
stated that budget cuts for renewable energy programs are 
driven by expected demand.
    Are you anticipating a 15 percent decrease in national 
demand for offshore renewable energy resources in Fiscal Year 
2019, compared to 2017? And, if so, what criteria are you using 
to determine those projections?
    Secretary Zinke. Our budget analysis, both onshore and 
offshore, is consistent. And we budgeted toward expected 
demand. There are numerous projects that are leased. We have 
several leases off the East Coast. Generally, you are talking 
about a 3-year project completion. California is looking at 
330,000 acres of Federal land. That has to go through a NEPA. 
But our budget is consistent with our expected demand in this 
fiscal year.
    Mr. Brown. Which you expect to decrease?
    Secretary Zinke. Well, it is matched to the demand. And I 
will show you the same data we have.
    Mr. Brown. OK. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    The Chairman. Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman.
    Thank you, Secretary Zinke, for being here today. It is 
always good to see you. And I didn't see the Senate meeting you 
had the other day, but I heard that the Senators were very 
interested in how you got from point A to point B, and seemed 
to be infatuated with that. I wish they would have hearings and 
talk about policy and issues that we have tried to push through 
on the House.
    But on the travel side of it, I was glad to see you show up 
to work the first day on a horse. I thought that made a good 
statement about you and about our national parks and the 
Department of the Interior. So, I give you a thumbs up on that 
one.
    You were talking about forestry a little bit earlier, and I 
want to talk about forestry, but really in the vein of water. 
We know that the states that seem to have the biggest water 
problems also have some of the worst-managed forests, the least 
healthy forests out there. We have heard testimony in this 
Committee that in California the forest is dying at a faster 
rate than it is growing. We certainly saw the catastrophic 
wildfires out there last year.
    I was in Arizona recently. I heard about the big water 
issues, and I saw a lot of poorly managed forests in Arizona. 
And the story goes on in the forests and water issues. But 
scientifically, we know that forests play a very important 
part, not only in water quality, but in water quantity.
    And as you consider water issues, is your team putting an 
emphasis on the interactions of forestry and water? And also, 
are you working with Secretary Perdue and his staff in this 
area?
    Secretary Zinke. We are. And on travel, what people don't 
talk about is the last administration spent over $1 million, 80 
trips, on charter flights. And I do three. And I have 12 time 
zones, about a fifth of the territory of the United States. And 
in every case they are reviewed by ethics. In every case they 
are reviewed by legal. And there was no other alternative, so 
it is amazing that no questions were asked.
    I looked at Sally Jewell's, and I think she was actually 
appropriate. So, when she took a charter flight and went on a 
hike--I didn't go on any hikes, but I can tell you she was 
right, because that is the job of the Department of the 
Interior. I appreciate your comments.
    Forestry, we are consistent with policy. I think we are 
probably leading in my Secretarial Order to look at mechanical 
extraction, prescribed burns, and be more aggressive on our 
holdings. It would be helpful if we had category exclusions to 
take bigger chunks out, to make sure we can restore the health, 
and we have talked about that.
    But the condition of our forests, country-wide, nationwide, 
it now has resulted in death. Last year, just in Santa Barbara 
County, dozens perished because we have too much dead and dying 
timber in the fuel load. And maybe this last forest season--
maybe this country and our political leadership will take pause 
and understand that the present policy we have is causing great 
harm. And I am optimistic, because it happens on both sides of 
the aisle.
    Mr. Westerman. Shifting gears a little bit to 
infrastructure, I know there is the huge maintenance backlog 
that you talked about. In my district, actually, in my hometown 
of Hot Springs National Park, we have used historical leases of 
old bath houses to great effect, and the park has been able to 
take these bath houses off the maintenance backlog and have new 
attractions there. You would get a little bit of income from 
the lease, plus you don't have that maintenance expense any 
more.
    With your emphasis on maintenance backlog, have you 
encouraged other parks to creatively use historic leasing and 
other private and public opportunities to further impact those 
investments?
    And with that I want to personally invite you to Hot 
Springs so I can show you the great job that is happening there 
in the bath houses.
    Secretary Zinke. We are looking at appropriate public-
private partnerships across the board. Our rangers don't flip 
burgers now, they never have. So, lodging, a lot of our 
transportation at Interior, and food is vendored out. Not 
everything should go public-private partnership, but we are 
encouraged there has been some innovation, and we are trying to 
look at it across the board, to give the superintendents more 
flexibility to enter public-private partnerships, looking at 
longer-term contracts to incentivize investment. And there are 
a number of things that I think we can do within the park 
system, especially, to incentivize investment. Again, there are 
appropriate things, there are non-appropriate things.
    Mr. Westerman. Thank you.
    Mr. McClintock [presiding]. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Secretary Zinke, Number one, I want to echo what our 
Congressman from Maryland said in regard to our veterans. And 
any decisions being made, I think should be done in a manner 
after a thorough study.
    But let's move on and talk just briefly about the monument 
review. I know Interior undertook a very good and long public 
comment process where more than 2.8 million Americans shared 
their opinions on the monument review. So, tell me, is it true 
that approximately 99 percent of those comments you received 
were in favor of maintaining our national monuments?
    Secretary Zinke. I would have to check the statistic for 
you. But what I can say is we have 150 monuments. The President 
asked me to look at 27, and the recommendation----
    Mr. Gallego. Secretary, can you just answer that question 
first? My question is what do you understand? Was it 
overwhelmingly supporting of keeping the monument process, or 
not? If you can't give me the exact number, what do you know?
    Secretary Zinke. I can give you the number of Congressmen, 
Senators, State Legislature, and governors in the state of Utah 
that----
    Mr. Gallego. Secretary, I am just simply asking with the 
public process.
    Secretary Zinke. I will have to get the numbers for you.
    Mr. Gallego. So, you don't even know, anecdotally, whether 
it was supportive or not?
    Secretary Zinke. I will have to get the numbers for you.
    Mr. Gallego. OK, so you undertook a review process and, for 
some reason, off the top of your head, you can't remember what 
the public commented on, for, essentially, changing a very, 
very established law.
    Secretary Zinke. I do know specifically of the elected 
officials that represent the state of Utah.
    Mr. Gallego. Secretary, I am not asking you that. I am 
asking a very simple question. You are the Secretary of the 
Interior. You took a public comment period to review the 
national monuments.
    Secretary Zinke. I would hate to mislead you and give you a 
false number. I will be----
    Mr. Gallego. OK, you don't have to give me a false number. 
What is their overall impression, anecdotally? Were more people 
favorable or not favorable? A simple answer.
    Secretary Zinke. I would hate to give you those numbers 
without giving you the specifics, but I will certainly give the 
staff specifics----
    Mr. Gallego. So, your recommendation to the President was 
to reduce the number of existing monuments.
    Let's just skip to this. How many meetings with industry 
and representatives did you take before making your monuments 
recommendation? Roughly, the number.
    Secretary Zinke. The process for monument review was going 
out and visiting every state--which, by the way, I was 
criticized to take a helicopter. I don't know how you look at 2 
million acres on an aerial survey without doing----
    Mr. Gallego. Mr. Secretary, I wasn't the person that was 
actually criticizing you on that hawk, so stick to the question 
here.
    Secretary Zinke. And your question is what, sir?
    Mr. Gallego. How many industry representatives did you take 
meetings with?
    Secretary Zinke. In regards to the monuments?
    Mr. Gallego. Yes, monument review.
    Secretary Zinke. We looked at all sides of the issue. I had 
public meetings in multiple locations at every monument, which 
all sides were represented. We made sure that all sides were 
represented.
    Mr. Gallego. OK. From what I understand, the answer is 180.
    Secretary Zinke. I will let you see the number of people 
that represented the other side, too. I am sure it is 
comparable.
    Mr. Gallego. OK.
    Secretary Zinke. I am not sure where you are getting those 
numbers.
    Mr. Gallego. How many meetings did you hold with the Bears 
Ears Inter-Tribal Coalition?
    Secretary Zinke. Pardon me?
    Mr. Gallego. How many meetings did you hold with the Bears 
Ears Inter-Tribal Coalition?
    Secretary Zinke. I met them in Washington, DC. I met them 
there. I met them over the phone and had individual meetings.
    Mr. Gallego. So, the actual coalition, it sounds like you 
have had one meeting, then, one face----
    Secretary Zinke. That would be incorrect. I had a meeting 
there, I had a meeting with the chairman in the office.
    Mr. Gallego. You had a meeting there, meaning Utah?
    Secretary Zinke. I met with Begaye, so I would say multiple 
meetings with either the coalition itself, or parts of it, to 
include also the Navajo Nation in the state of Utah. The only 
elected official that represents, by Congress, a district of 
the Navajo, that would be Commissioner Benally.
    Mr. Gallego. OK, so what would you say the number is, then, 
if you had to take a guess? Even giving you some sway on the--
--
    Secretary Zinke. Number of, your question is number of 
what?
    Mr. Gallego. Meetings with people that are in the Tribal 
Council or involved with the Tribal Council.
    Secretary Zinke. I had a meeting there with the coalition. 
I had a meeting in Utah with----
    Mr. Gallego. Secretary Zinke, I am asking for just a 
number. I know you have been a Navy SEAL and math might be 
difficult, but give me a rough number here.
    Secretary Zinke. Rough number of--what specifically is your 
question?
    And I take offense about your derogatory comment about the 
U.S. Navy SEALs. Of course, having not served, I understand you 
probably don't know.
    Mr. Gallego. Having not----
    Secretary Zinke. Not in the Navy, and not in the Navy 
SEALs.
    Mr. Gallego. All right, Mr. Secretary Zinke, I apologize. 
But as you know, we have jokes all the time, as a Marine, and 
as a grunt. And, of course, I appreciate your service.
    Secretary Zinke. Semper fi.
    Mr. Gallego. Semper fi, brother.
    You do have a problem that you can't answer my question, in 
terms of numbers. Give me a rough estimate here.
    Secretary Zinke. A rough estimate of how many times that I 
met with the coalition?
    Mr. Gallego. Yes.
    Secretary Zinke. I met with the coalition, as a whole, once 
there. I met with multiple members in my office. And I met with 
multiple members in the field. So, as a group, probably, as an 
entirety group, probably one there. But I met with multiple 
members in my office multiple times, and had phone 
conversations with them.
    Mr. McClintock. Thank you.
    Secretary Zinke. That is well documented.
    Mr. Gallego. Thank you, I yield back.
    Secretary Zinke. Semper fi.
    Mr. Gallego. Semper fi.
    Mr. McClintock. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Mr. Secretary, it is a pleasure to have you back in the 
Committee again, I appreciate you being here. General Bergman 
has offered to give you your seat back any time you want it.
    Secretary Zinke. Always a pleasure to be here.
    Mr. Graves. First, I want to thank you for the change in 
the budget request for this year related to the Gulf of Mexico 
Energy Security Act. You and I had a number of discussions 
about that. As you know, the Obama administration for 2 years 
tried to cut that revenue-sharing program out, and we had some 
challenges last year. But I want to tell you that I do 
appreciate you taking a fresh look at it, you agreed to do that 
last year, and I appreciate the change in the budget request 
this year. And I know that millions of people in south 
Louisiana do, as well. So, first I want to say a very big thank 
you for that.
    Second of all, I appreciate you coming down to south 
Louisiana. A lot of times people, I think, get stuck in their 
bubbles or in their cubicles. And in your case, you have a 
little bit bigger than a cubicle, but people get stuck in 
Washington and, I think, lose the perspective of what is 
actually happening on the ground.
    The investments in the case of Louisiana through offshore 
energy revenue sharing and other programs, I think, are 
yielding significant benefits, not just to south Louisiana, but 
to the Nation, in terms of the ecological productivity, the 
improved resilience, and the fact that you came out, we went in 
an air boat, and you stood on some of the new ground that we 
created in south Louisiana, and I think made a multi-billion-
dollar commitment to us on a video, if I remember right. That 
was impressive, so thank you.
    Mr. Secretary, you and I have discussed in the past this 
disparity that occurs. When you produce energy on Federal 
lands, that state gets 50 percent of the money, or in the case 
of Alaska, in some cases, 90 percent of the money. You have 
revenue-sharing programs related to wind and renewable energy. 
You have the timber revenue-sharing program. It happens all the 
way across the board.
    But when you look in reality for the offshore, and I am 
going to take a pretty wild guess, but revenue-sharing, when 
you look at the total amount of money produced versus the 
revenue we will share in for this year, my guess is it is 
probably around 1 or 2 percent.
    How do I explain to people at home the disparity in revenue 
sharing for onshore production that is 50 percent or even 90 
percent, with an additional 40 percent going into the 
reclamation fund in the case of offshore Louisiana, which 
contributes a significant amount to our Nation's energy 
independence, or energy dominance, when we get such a small 
fraction of a percentage of overall revenue sharing?
    Secretary Zinke. Again, I appreciate your hosting me down 
there, and I want to make sure your coastline remains a working 
coast and not a disappearing coast. I was amazed that a 
football field of material is lost every hour.
    If you are referring to the LWCF or the reorganization, 
that reorganization does not affect current programs. The 
infrastructure bill that is proposed in the budget, the largest 
investment in public lands in the history of this country as 
far as infrastructure goes, the model we have is net dollars 
into Treasury. So, it doesn't affect GOMESA, it doesn't affect 
LWCF.
    If those percentages are adjusted by Congress, then there 
are still net dollars going into Treasury. The proposal would 
be half of that at a level that would go back into an 
infrastructure account to pay for our parks. So, if the LWCF or 
GOMESA is adjusted, it would not affect the net dollars going 
back in.
    Mr. Graves. But, Mr. Secretary, do you understand, LWCF is 
funded from off shore our coast. Louisiana produces 80 to 90 
percent of all the offshore energy production in Federal 
waters. If LWCF monies go out, if you are going to take funds 
for backlog maintenance issues, all of that is coming from off 
shore our coast, and the very area where these funds are 
derived from is not sustainable.
    It is very difficult for us to explain to people at home. 
It is difficult for us to defend--and, quite frankly, I won't 
defend efforts to try to take these monies and put them into 
other states, into other areas, when this very area that is 
really the golden goose for revenue for your Department is 
unsustainable itself. We need to first sustain that area.
    Secretary Zinke. Well, to your point, the infrastructure 
proposal that we have proposed is all energy. Quite frankly, it 
is onshore, offshore, wind, solar, all energy produced on 
Federal land, regardless of type.
    Mr. McClintock. Good, thank you.
    Secretary Zinke. It does not affect any current program.
    Mr. McClintock. Thank you.
    Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman. I would like to 
start by associating myself with the comments of my colleagues 
from California opposing your proposal to open up our coastline 
to additional oil and gas drilling. This would be disastrous 
for the coastal economy and public health. Sixty-nine percent 
of Californians strongly oppose new oil and gas drilling off 
our coast. I wanted to make sure to reiterate the importance of 
this issue and our opposition on the record.
    As somebody who has fought to prevent oil drilling off the 
California coastline, it is also very personal for me, so I 
wanted to make sure to also express my opposition. I hope, Mr. 
Secretary, that you will give fair and due consideration to our 
concerns and the importance of California's coastline and its 
tourism to our economy when you are making decisions.
    Secretary Zinke. And I will relate the same thing when I 
talked to Governor Brown is it was my decision to put 
everything on so America could see its potential. Almost zero-
based budgeting, and then I have talked to every governor, I 
have talked to most Congressmen about it. And then we are going 
to shape the plan to make sure it reflects the interest of the 
communities and the governors and----
    Ms. Barragan. Thank you, Mr. Secretary. I only have about 3 
minutes left, and I want to shift gears a little bit. I 
appreciate that.
    First, I want to thank Ranking Member Grijalva for bringing 
up the issue of the Department of the Interior being a good 
steward of taxpayer dollars. This is also something that I have 
been doing over the course of my career.
    Mr. Secretary, last October I led a letter, which I am 
holding up here, along with my friend, Mr. Beyer, that was 
signed by 24 other Members of Congress, including Ranking 
Member Grijalva and 9 other members of this Committee. It is 
dated October 3, 2017. It asked you to immediately disclose the 
full details of all of the privately chartered flights that you 
had taken.
    Mr. Chairman, I want to start by asking unanimous consent 
to enter the letter into the record.
    Secretary Zinke. You should look at what we provided to----
    Ms. Barragan. I am sorry, Mr. Secretary. If you let me just 
finish.
    Mr. McClintock. Yes, without objection.
    Ms. Barragan. Thank you.
    The letter that was written to you was a result of 
reporting by the Washington Post, Politico, and numerous other 
sources. The reports included a $12,000 charter flight from Las 
Vegas, Nevada to Montana taken last June aboard a plane owned 
by executives of a Wyoming-based oil and gas exploration firm, 
part of an industry whose permitting process you are tasked 
with overseeing.
    These flights can give the appearance that you are mixing 
political gatherings and personal destinations with official 
business.
    As the letter points out, these privately chartered flights 
appear to coincide with events held by political donors and 
speeches before private entities that share a personal 
connection with you. Again, this letter was sent on October 3.
    Neither I nor Mr. Beyer have yet received a response. Mr. 
Secretary, it is just a yes or no question. Can I get a 
commitment from you that you will respond and provide 
information that we requested in the letter?
    Secretary Zinke. Well, I can't speak for your Ranking 
Member, but I hold a note and response from me that is dated 
October 31, 2017. So, I would suggest you ask your Ranking 
Member to give you a copy of the letter we sent.
    And if you would like more detail on it, we also had a 
meeting, which I had with the Ranking----
    Ms. Barragan. Mr. Secretary, you used to be a Member of 
Congress yourself. When you wrote a letter to a cabinet 
secretary, did you not expect the cabinet secretary to respond 
to your letter?
    Secretary Zinke. October 31, 2017.
    Ms. Barragan. Is that letter to me? Is that responding to 
my letter, Mr. Secretary?
    Secretary Zinke. It is to the Ranking Member and to the 
Chairman of this Committee.
    Ms. Barragan. OK. I think you have made my point, Mr. 
Secretary.
    Secretary Zinke. As well as I opened a meeting to----
    Ms. Barragan. I reclaim my time, Mr. Secretary. I am not 
done with my line of questioning. And, I just very nicely am 
trying to get a response to my letter that is directed at me. I 
have a different office than the Ranking Member does.
    And the reason I bring this up is because this is a pattern 
that is impossible to ignore, one that has the optics of the 
steward of our public lands allowing the concerns of political 
donors and the oil and gas industry to receive further greater 
influence than those of the American people--and the excessive 
spending, whether it is on this or a door.
    Can I get a commitment that when I send you a letter, Mr. 
Secretary, you will respond to me in a timely manner, to me, as 
the Member who wrote the letter?
    Secretary Zinke. I would love to give you a commitment. And 
I wish you would give a commitment to me of courtesy, because I 
answered the letter. Not only did I answer the letter, but I 
also had a Minority meeting, which I invited every Member of 
the Minority to sit down and talk, line by line, on any issue 
you had.
    And as far as an oil and gas concern, it is contracted by 
the Department of the Interior, blind of origin. If a company 
owns a contracted King Air, then we don't look at who owns it, 
because we go through a government contracting service, and 
that is exactly what occurred. So, to give an allegation that 
somehow we favor King Air traveling at night after traveling 
all day across from Pahrump, Nevada would be inappropriate.
    Mr. McClintock. The Chair would ask the unanimous consent 
that the Secretary's response also be included in the record.
    Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman.
    Thank you very much, Mr. Secretary. Mr. Secretary, I hope 
that you will put Wyoming down on your list as a yes. We, in 
Wyoming, fully understand and recognize that our fossil fuels 
are, in fact, national treasures, crucial to the functioning of 
our economy. And I look forward to my colleagues from those 
states that have been so insistent on taking time for political 
purposes and on denying the value of fossil fuels to try to run 
their state economies without fossil fuels. I think that would 
be an interesting challenge for them.
    Mr. Secretary, I have just three issues I might want to 
list, and then get you to see what we can do to help us on all 
three of those.
    We, in Wyoming, have been very grateful and pleased with 
the improvements in the permitting process. As you know, the 
technology in some instances has really outstripped the 
regulatory framework. So, when you have a situation, as we do 
in Wyoming, where you have split estates, you have private 
ownership of the surface and Federal ownership of the minerals, 
we are still facing significant challenges, and really need 
some clarification and some relief with respect to what is the 
role of the BLM, in particular, when the land is privately 
owned and the minerals are Federal, especially in situations 
where we have horizontal drilling now that is reaching out 
miles and miles.
    The second issue I wanted to get your assistance and help 
on, Mr. Secretary, has to do with viewsheds. There was a 
memorandum issued at the end of the Obama administration that 
dealt in particular with section 106, tribal consultation, 
again, on private lands, and the National Historic Preservation 
Act. We need some clarification in this regard, as well.
    We need a new instructional memo, we need some clarity for 
BLM field offices with respect to how they can properly conduct 
tribal consultations without the kind of very significant delay 
that we continue to see, and what seems to be uncertainty.
    Then finally, Mr. Secretary, on the area of water, we have 
issues between the Bighorn Lake, which is in Wyoming on the 
Bighorn River. The Bureau of Reclamation seems to be imposing 
some rules and regulations with respect to water levels in the 
lake, water levels in the river that are not balanced. And we 
really need a return to balance, and would very much appreciate 
your support and your help, in terms of making sure we don't 
have a situation where my constituents in places like Lovell, 
who depend very much upon recreation and Bighorn Lake, are 
faced with levels of the lake that are inconsistent with the 
BOR regulations, that they are somehow focused on the needs of 
the river.
    We need some balance there, and I would very much 
appreciate your taking a look at that issue, as well, and 
letting us know what we can do to ensure that those communities 
and the economies there that are so reliant on recreation and 
the lake are not infringed upon.
    Secretary Zinke. I agree. I am committed to work with you 
on it. I was unaware of the Bighorn issue, but we will look at 
it.
    In general, the government is always behind innovation. And 
we are trying to look at a framework of regulation where we 
make sure there is a threshold for safety, reliability, 
stewardship, but to incorporate innovation, best science, and 
best practices. It is clear, with horizontal drilling and some 
of the innovation on wind and solar as well, that our 
regulatory framework is not capable of keeping pace with 
industry innovation. And in many ways, innovation improves 
reliability and safety.
    So, we are working with energy and innovation across the 
board to look at giving some flexibility without diminishing 
our core responsibility of stewardship and environmental 
safety.
    On permitting, which is always a problem, we are catching 
up. There is a state permitting process and a Federal 
permitting process, and we are looking at, within the confines 
of the law, how do we make sure we are not redundant. So, 
giving the front end to the state, having them do what they 
need to do, and then us doing just the tail end, rather than 
the Federal Government repeating the process, line by line.
    The other thing that is not taking place in permitting is--
if you are in the basin and you have 16 wells, for instance, 
same basin, same geology. Starting the permitting process of a 
new well as if it is the only well you ever drilled in the 
basin is a problem because it repeats things that are not 
necessary, and it takes the resources away from us looking at 
basins that are not commonly drilled that need a closer look.
    Mr. McClintock. Thank you.
    Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair.
    And thank you, Mr. Secretary, for coming before the 
hearing. I have a few questions, but I want to go back before I 
do that to understand for myself what had taken place in that 
question and answer between you and Ranking Member Grijalva. I 
am trying to understand that.
    To me, in the USGS North Slope oil assessment, I don't 
think there is any question or any belief that you made any 
changes in that. No one is saying that. We assume that you made 
no changes at all, and that you just had the report.
    I think the underlying question, though, is why did you 
request to see the USGS study before it was released? As I 
understand in the USGS manual, it says, ``Particularly 
sensitive results, however, such as energy and mineral resource 
assessments and mineral commodity reports that typically have 
significant economic implications are not disclosed or shared 
in advance of public release because pre-release in these cases 
could result in unfair advantage or the perception of unfair 
advantage.''
    So, my question is, why did you do that? Not that you did 
anything changing anything, but why did you request to see it, 
when in fact it was the policy not to share with anyone the 
USGS report because of the possible market implications?
    Secretary Zinke. First of all, there is a chain of command, 
and the USGS works for the Department of the Interior. So, I 
have every right to look at and review documents prior to 
release from the Department of the Interior. Same would be for 
your staff. Your staff works for you. I assume you look at 
releases prior to your staff releasing.
    The question is integrity of documents. And in the case of 
scientific documents, I did not change a comma. And to your 
point, I did not----
    Dr. Lowenthal. No one is saying you did.
    Secretary Zinke. But this is what I wanted to know in the 
case of this one. And I think you will be interested to know. 
You had the same data set, two studies within a couple years of 
each other, and the outcomes were different in magnitude.
    So, why was there such a difference in magnitude? Was it 
because BOEM also looked at it, and BOEM has a better modeling 
of resources?
    And when it says recoverable resources, is that modern 
technology using hydraulic fracturing, or was it standard? And 
did it include offshore? Those are the questions. Because it 
makes a difference, as Interior policy, about the National 
Petroleum Reserve. That is why I looked at it.
    Dr. Lowenthal. OK. Let me go on, because I don't have a 
great deal of time. And I understand that.
    But what I don't understand is when you say you are looking 
at the methodology, the first study was released in 2010, and 
then we are talking about what happened in the fall of 2017. 
Now we are in 2018, so it was almost 8 years ago. And there 
have been a number of major oil discoveries made in the region 
covered by this assessment. So, I don't think there is any 
mystery that the resources have jumped. It is not the 
methodology. We know that the resources have jumped.
    The question is, even though you are asking about 
questioning the methodology, I don't think that--and I would 
like to hear your answer--is the critical issue. We all know 
that the resources, the question is were you not aware of the 
discoveries over the past few years, and that was the reason 
for the change?
    Secretary Zinke. The data set was largely unchanged, 
because in the areas we haven't done a lot of seismic and a 
review of it. But that is the question to ask.
    And I am a geologist, and when you have one study that is 
done a few years, and the next study is done, BOEM comes in, 
and the magnitude of resources is significant--then I want to 
know at what level did we look at recoverable assets, because 
it is important. Are we looking at technology 7 years ago, 5 
years ago, today? I think those are fair questions. And also, 
the extent, because you have horizontal drilling now that has a 
reach even a few years ago we couldn't go.
    Again, as Department of the Interior, as the Secretary, I 
have every right to look at documents. Like you, I am concerned 
that if you were to manipulate the documents, I think there is 
an integrity problem, because we all respect the scientific 
integrity of the people. And that is what we want to----
    Dr. Lowenthal. If I might change the topic, just quickly, 
and ask one more question.
    Mr. McClintock. Ten seconds. No, your time is up, Mr. 
Lowenthal.
    Dr. Lowenthal. I yield back.
    Mr. McClintock. I am sorry. The Secretary has been very 
generous and has already given us 45 minutes more than we had 
requested. We understand that he does have a hard stop at 1:00, 
so Members can do the math, as far as the time remaining.
    Mr. Hice.
    Dr. Hice. Thank you, Mr. Chairman. And Secretary Zinke, 
thank you for being here today. We miss you around here, but 
recognize that your leadership was desperately needed at 
Interior, and we are very grateful for what you have already 
accomplished.
    I recently read that the natural gas and oil industry 
supports about 10.3 million jobs nationwide, a staggering 
number. In Georgia, we face some natural factors of navigating 
offshore development due to the migratory patterns of the right 
whale.
    So, to begin with, in your opinion, as good stewards of our 
land and oceans and so forth, do you believe that we can strike 
a balance between protecting our ocean environments and, at the 
same time, developing natural resources that provide not only 
jobs, but financial opportunity and national security?
    Secretary Zinke. I absolutely do. And I think our oil, gas, 
wind, and above American energy policy is correct. It is better 
to produce energy in this country with reasonable regulation 
than watch it get produced overseas with no regulation.
    Second, morally, I don't want your kids to see what I have 
seen in battle, ever. I don't want to be held hostage by 
foreign entities over our energy needs, and I don't want to see 
your kids have to deploy and fight overseas for energy we have 
here.
    Last, economically, every time America pulls up to a gas 
pump, we talk about the tax bill, how wonderful it was. And it 
is. But every time you pull up to a gas pump and you are paying 
$60 rather than $100 for a tank, that is $40 America has in 
their pockets to spend elsewhere that they need, because 
American energy is producing. So, yes, I am pro-energy.
    And Interior has two sides. We have the energy side, 
because we have offshore BLM property. We also have the 
conservation side, which is our parks and our public lands and 
our treasures. Yes, you can do it wisely, because American 
industry has shown you can.
    Dr. Hice. Let me jump to this third question that I had, 
real quickly, regarding preservation of our battlefields.
    We recently were able to protect Kettle Creek, which was a 
very important place for the Revolutionary War, and that 
battle. I believe these are very important to preserve, so I 
would be interested to know if you have any ideas to improve 
the American battlefield protection program. I would like to be 
able to work with you in that regard, and I want to know if you 
have any plans.
    Secretary Zinke. Our infrastructure bill that we have 
submitted and support in the budget addresses $11.7 billion of 
that. That includes our battlefields, to restore the landscape 
as it was when the battle began. Our battlefields are 
challenged. We have a lot of people going through them.
    The preservation and maintenance of the battlefields--we 
don't charge at many of the battlefields, we don't charge in 
Gettysburg and most of them, which is appropriate, because they 
are America's look into a very difficult period in our history. 
But the infrastructure bill that we are proposing looks 
specifically at battlefields, parks, wildlife refuges, and 
making sure that we are stewards of our greatest treasures, to 
include the battlefields.
    Dr. Hice. We have some ideas, and we would love to work 
with you on that and throw some of those ideas your way.
    Last, I just want to know, going back to my constituents, 
how can I ensure them that the Department will not be in the 
same mess we are in now, what assurance can we give them that 
we are not going to repeat this process all over again?
    Secretary Zinke. I would think there are certain issues 
that are not Republican or Democrat, and I would like to think 
that public lands and our parks are red, white, and blue. I 
think we all care for them. And there have been proposals to 
make this a longer term. But I think up front, if we work 
together and we pass an infrastructure bill--again, it is new 
money--we will be in a good position to preserve our parks and 
our public lands into the future. It should be a bipartisan 
effort, and I am hoping it is.
    Dr. Hice. Thank you. I yield back.
    Mr. McClintock. Thank you.
    Mr. Gomez.
    Mr. Gomez. Thank you, Mr. Chair.
    Mr. Zinke, thank you for being here, Secretary, and going a 
lot longer. A few questions, and I am going to try to go quick, 
because I know I have colleagues on the other side that want to 
ask some questions.
    You have said numerous times that the reason behind the 
Department's cuts on renewable energy programs is due to the 
expected demand. Is that correct?
    Secretary Zinke. That is correct. We looked at expected 
demand, both onshore and offshore of what can be put in during 
this thing, and our budget reflects that. And I will give you 
the numbers if you want them, and how we derived them.
    Mr. Gomez. OK, thank you. Next question--in President 
Trump's fiscal 2019 budget request, he proposes an increase in 
the funding for oil, gas, and coal programs. Does the 
President's request also reflect the expected demand for those 
resources?
    Secretary Zinke. Some of the budget has to do with backlog 
of permits, which is in there, and opportunities. But, yes, it 
reflects, and I will give you the background on that. Coal is 
up $9 million with that. I will give you a breakdown of 
everything in that package.
    Mr. Gomez. OK. I appreciate it, because what I am trying to 
understand is what is the logic behind the Administration's 
projections, because the coal budget of the Bureau of Land 
Management has increased by 80 percent. However, according to 
Bloomberg and other sources, the coal production in the United 
States has gone through a downward trend, even under President 
Trump. Can you explain that discrepancy?
    Secretary Zinke. Coal has leasing, permitting, and 
inspections on it. And some of the energy also is on the 
inspection side of our offshore leases, because you have to 
send people out there to inspect. So, you look at across the 
board--and improving safety and reliability.
    Some of the money is looking at how we can improve safety. 
No one wants an oil spill off the coast. So, we have to invest 
in it and make sure that we don't have that. And there are 
certain areas that the last administration, I think, did not 
focus on. We are focused on looking at innovation, best 
science, best practices to improve reliability and safety. And, 
in some cases, it costs a little more, but it is a better 
policy, overall.
    Mr. Gomez. OK. I appreciate that, because as you know, we 
have seen a downward trend on this, 2017 coal production was up 
over 2016. The pace of production in 2018 is 6 percent below 
2017 and 21 percent below 2015. And you are explaining the 80 
percent increase based on safety.
    We also saw offshore lease sales were weak, bringing in the 
third lowest amount in the past 12 years, about one-fifth of 
the average. So, we are going to see a significant increase in 
the oil, gas, and coal budgets, partly reflected in demand, 
partly reflected on safety.
    What I am trying to understand, and I guess I am going to 
answer my own question, when it comes to renewables, demand is 
the critical factor in determining if the budget goes up or 
goes down. But when it comes to oil, gas, and coal, it is other 
factors.
    Secretary Zinke. I would not characterize it that way. But 
I would say the last administration, there is no doubt--and I 
don't give judgment--the last administration wanted a larger 
profile of renewables and put a budget in place to kick-start 
it. And it is clear the last administration did that.
    We looked at expectation of demand, and we had the largest 
lease sale of offshore oil and gas in the history of this 
country in the western and eastern Gulf, so just to run the 
leases and inspections is going to take more.
    Mr. Gomez. I appreciate that elaboration. The reason why I 
am curious, and the reason why I am asking is that the Bureau 
of Ocean Energy Management also said that a cut to the budgets 
of renewable energies would make stakeholder meetings less 
effective, delay lease sales, harm increasing staff, and that 
there would be an impact on the demand of renewables.
    I think that looking at demand is a great way to look at 
it. I support a balanced portfolio, but it needs to be honestly 
balanced, and right now it definitely seems like one energy 
source is being promoted and given more funding than the other 
energy sources.
    I yield back my time. I am out of time, anyway. Thank you 
so much.
    Mr. McClintock. Mr. Johnson.
    Mr. Johnson. Mr. Secretary, thanks so much for your service 
to the country in so many capacities. We appreciate you being 
here today. Time is short. Let me get right to it.
    As a Louisianan, I am very grateful that the budget doesn't 
call for an outright elimination of GOMESA. But it does 
threaten the security of this critical funding for Louisiana by 
way of the public infrastructure fund proposal.
    I am disheartened, all of us in the Gulf states are. Yet 
again, Members who represent regions most directly impacted by 
this proposal were not included in the pertinent discussions. 
It is a red, white, and blue issue. All of us want folks from 
around the globe to be able to enjoy our parks and wilderness 
areas. But refusing to stop the loss of land in my state means 
loss of property, and ultimately, loss of life.
    And none of us should pretend that this shifting of 
revenues and resources can be justified. I mean you gave a SEAL 
analogy in the beginning, in your opening statement. To use 
that analogy, the Gulf Coast is our front line. We are talking 
about hurricane preparedness, flood risk mitigation, coastal 
restoration. All that is urgent. You acknowledged a few moments 
ago that a football field of land is being lost every single 
hour.
    So, in your testimony, in the subject budget documents you 
provided this Committee, you highlighted the significant 
contribution that oil and natural gas revenues generate. 
Onshore production, on the other hand, places in comparison, so 
I just want us to be clear and honest today. I know you will 
be. The revenue for your fund is going to be coming from 
offshore to fund Interior. And we should not pretend that wind 
and solar are going to be picking up the check for the 
Department's deferred maintenance; it is just not going to 
happen.
    So, here is the question. You say the infrastructure fund 
proposal will not affect GOMESA funding at all. I think you 
have said or implied that today. The problem is that the issues 
are with the baseline projections. We have not been given any 
specific numbers that were used to establish the baseline in 
the bills, even as late as this afternoon. How do you respond 
to that concern?
    Secretary Zinke. The baseline, of course, will require 
Congress. If you go back to 2008, Interior made about $18 
billion just in offshore--and thank you for that. When we took 
office, that number was about 2.6. When you add onshore 
production, that was the baseline. And the proposal had what is 
called new energy.
    But to your point, you were exactly correct. It does not 
affect GOMESA. It is net dollars going into Treasury. So, 
GOMESA, LWCF, and there are other states' shares and all that. 
It is just net dollars that go into Treasury. So, if Congress 
changes the portfolios, the different types of programs from 
oil and gas, it would be whatever is left over, net into 
Treasury, half of that goes back to address our backlog in 
maintenance. We think, given projections, that we can catch up 
in as much as 8 years, with favorable conditions.
    But it is also all energy. It is different than LWCF or 
GOMESA, because we look at a trend. And we will see on the 
March leasing sale what the level of interest is. Because, as 
you know, drilling for oil off the coast has greater risk. The 
market tends to move toward less risk, higher returns. The 
shale plays in Texas, in New Mexico, in the Bakkan still remain 
strong, as well as innovation in renewables. The East Coast is 
going gangbusters on renewables, and we are all of the above. I 
support renewables, too.
    Mr. Johnson. I get that, I get that. I am running out of 
time.
    Senator Alexander was quoted on March 11 in a National 
Journal article saying that both the National Park Restoration 
Act and the National Park Service Legacy Act of 2017 should be 
considered in committee. Both pieces of that legislation would 
threaten GOMESA funding, as well. Do you agree with the Senator 
that those bills ought to be considered?
    Secretary Zinke. Like everything in Congress, everything 
should be on the table. I think what is in the President's 
budget, given that I was a Congressman, GOMESA is important to 
a lot of my friends and Members, and that is why our proposal 
left those programs in Congress intact. So, it is just net 
dollars going to Treasury.
    Obviously, I support the work of the President, and I 
support having a dialogue, and putting together a bill that 
addresses the maintenance and repair.
    Mr. Johnson. Has the Department considered alternative 
funding sources to pay off the deferred maintenance backlog? 
For example, the sale of federally held lands to some of the 
states?
    Secretary Zinke. We have not. Park entrance fees, 
primarily, I think, should go to the parks where entrance fees 
are at, and the superintendent should have more flexibility to 
address those issues in those parks. But park fees itself will 
never address $11.7 billion in backlog.
    Mr. McClintock. Thank you.
    Secretary Zinke. And clearly, Congress has had some 
challenges to do it.
    Mr. McClintock. Thank you.
    Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman.
    And thanks, Mr. Secretary. I am still deeply concerned by 
the shooting death by the Park Police of 25-year-old Bijan 
Ghaisar last November in Virginia. And we only know about it 
because the Fairfax County Police also responded, and they had 
their car cameras.
    I want to applaud the Park Police for the pilot program to 
begin deploying body cameras, and thank you for agreeing to 
brief our Committee on how the Department is updating its 
policing policies.
    But I am concerned that there is no current set-aside for 
law enforcement to adopt body cameras or car dash cameras, and 
no tech set-asides. We know if it is not in the budget, it 
won't happen, so I am asking for your commitment to this 
Committee that the Department will prioritize funding beyond 
the pilot project for these cameras for our Park Police.
    Secretary Zinke. We are looking at it. Of course, I, too, 
share your concerns. I love law enforcement, I love the U.S. 
Park Police. I am with them every day, they are wonderful 
people. There has to be some certainty among our citizens that 
a force has integrity, does the right thing all the time 
because, as you know, law enforcement is raised to a higher 
standard.
    We are looking at it. We have not made a decision. And I 
want to see it on the basis of facts, but we are looking at 
different options along the way to increase transparency of our 
actions of the U.S. Park Police, BLM, and U.S. Fish and 
Wildlife. We have a lot of people with a badge out there.
    Mr. Beyer. Yes, Mr. Secretary, wildlife trafficking is the 
fourth biggest organized criminal activity in the world, and it 
is linked to organized crime syndicates, terrorists, and 
insurgent groups.
    The Fish and Wildlife Service law enforcement is critical 
for combating illegal wildlife trade, yet the Administration's 
budget proposes a drastic reduction of funding for it, which 
decreased the number of special agents that work to stop 
domestic and international wildlife crimes, which brings me to 
the recent announcements that the Fish and Wildlife Service 
will now allow elephant and lion trophies to be imported from 
certain African countries on a case-by-case basis.
    How do you reconcile this policy with President Trump's 
previous comments calling trophy hunting ``a horror show,'' and 
saying he did not ``want elephants killed and stuffed and have 
the tusks brought back into this country.''
    And I am particularly curious about your assurance that you 
are 100 percent in step with the President's position, and the 
White House stating that the President's thinking has not 
changed.
    Secretary Zinke. How I explain it is this, the court. There 
was a lawsuit by NRA and a number of people, so the court 
looked at it. The court mandated that we change our process. 
But our policy has not changed. We are 100 percent aligned with 
the President's policy. We have imported zero elephants, and 
our policy has not changed. But our process reflects the court 
ruling.
    Mr. Beyer. Great, thank you. The proposed elimination of 
the cooperative endangered species fund is surprising, 
considering that you praised one of these grants during the 
Obama administration, when you were part of us, for a 
conservation easement to assist the Whitefish Lake Watershed 
project in Montana. You said, ``This grant is proof of what is 
possible when our delegation works together.''
    Do you stand by what you said in 2016, and why eliminate 
this program that seemed to work pretty well in Montana?
    Secretary Zinke. And, up front, the LWCF, as you know, is 
reduced in our budget, primarily for land acquisitions. But I 
am focusing the grants right now on wildlife corridors and 
public access. Those we are reconfiguring, because I signed a 
Secretarial Order to identify and conserve wildlife corridors, 
starting with big game and going through. Because, as 
populations go up, our public lands get challenged, and we have 
to make sure we connect things that are critical for, in the 
future, watersheds, wildlife corridors.
    We are looking at our grants to make sure of public access 
and conservation easements, and our grants are going to focus a 
little while, as far as conservation, on protecting the 
critical pieces of land management, watersheds in the 
Chesapeake, things going into it, and wildlife corridors.
    Mr. Beyer. I want to sort of thank you personally for your 
attention to the wildlife corridors. There are many, many folks 
in the environmental movement who believe that preserving and 
creating these corridors may be the most important thing we 
have done in a generation. So, Mr. Secretary, thank you.
    I yield back.
    Mr. McClintock. Thank you.
    Mr. Gianforte.
    Mr. Gianforte. Secretary Zinke, thank you for being here, 
and thank you for your leadership. I very much appreciate that.
    As a fellow Montanan, we watched with heartache this past 
summer as much of Montana burned, over 1.2 million acres, and I 
just wanted to start with a thank you. When the Lodgepole Fire 
burned, over 27,000 acres, I really appreciated your timely 
response to get the C.M. Russell Wildlife Refuge open for 
grazing. Our ranchers in Garfield County and the nearly 65,000 
hungry cattle also thank you. So, I appreciate that.
    Secretary Zinke. I think that was the fastest that BLM 
moved perhaps in the history of the bureau.
    Mr. Gianforte. It shows that government can work. And, 
again, your leadership was critical. It would not have happened 
without your support. So, thank you.
    I want to stay on wildfires. I know you visited a number of 
fires, as I did. We were together at the Lolo Fire this past 
summer. I am curious. As you have talked to incident commanders 
and first responders on these various wildfires, what lessons 
have you taken away that will allow us to better fight fire in 
the future?
    Secretary Zinke. The lesson is, the first element of making 
sure that fires don't happen is prevention. And there is too 
much dead and dying timber, and the fuel load of our forests is 
too high. Everyone agrees that temperatures are higher, the 
season is longer. But what isn't helping is the amount of fuel 
load. And we need to go to an active management policy, which I 
have given a Secretarial Order to address that.
    It would be helpful if Congress would give the secretaries, 
both Sonny Perdue and myself, a category exclusion, so we can 
look at addressing the millions of acres we are behind on 
getting the fuel load out, so we don't have the same problems 
year after year.
    And you and I have been in the same Bitterroot Valley 
probably for three seasons together. And every time we hear the 
same thing: What have you done between now and the last fire? 
And the answer is we are thinking about removing some dead and 
dying trees. We almost have a timber sale. We almost have it, 
and then the next season we are back there again watching the 
people have to evacuate.
    Mr. Gianforte. And you are well aware we are tied up in 
endless litigation over these projects. We can't get them 
approved.
    Secretary Zinke. Endless.
    Mr. Gianforte. I have co-sponsored the Resilient Federal 
Forest Act, along with Congressman Westerman. That has passed 
out of the House. Have you reviewed that bill? And would that 
help us start to manage our forests better?
    Secretary Zinke. When I was in the House I signed onto it, 
too, because I think it is a great bill. It is not perfect, but 
I can tell you it gets an A because, as you know, nothing is 
perfect in Congress, nothing is perfect. I wake up every day, I 
have 70,000 employees, 12 time zones, a fifth of the territory 
of the United States. Something bad is going to happen every 
day. But a lot more good happens than bad. I support your bill 
and I think it is absolutely needed.
    And a lot of it comes in in the execution of the bill. All 
of us can agree that we need healthier forests. I am hoping all 
of us agree one of the many ways to get there is to remove the 
dead and dying timber and go to an active forest management 
policy. And there are other countries, quite frankly, we can 
learn from.
    Mr. Gianforte. Well, we will continue to advance this 
Resilient Federal Forest Act. What additional action should 
Congress be taking to give your agency better control to do 
better land management?
    Secretary Zinke. I think category exclusion would be 
helpful. I think probably reviewing the National Historic 
Preservation Act.
    There was an incident about doors that I had in the office. 
I was reading the article, too. How could doors be $139,000? 
So, I asked the question. We got it down to $75,000 by 
manipulating, but a lot of the issue is on historic buildings 
you have to follow such stringent rules, even though some of 
them don't make common sense, that it just costs the taxpayers, 
and we are bound by those rules. I don't have any choice.
    I think a little more flexibility, where common sense can 
be put in, and sometimes our rules have good intent, but when 
you are bound by a law that does not make sense, this is where 
working together can be helpful.
    Mr. Gianforte. Mr. Secretary, thank you for your 
leadership, and I yield back.
    The Chairman [presiding]. Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Secretary. I certainly 
appreciate you waiting for the new guy to have just a minute 
with you.
    Secretary Zinke. I, too, sat where you did, right here.
    Mr. Curtis. Thank you. And let me just say personally, for 
anybody that is concerned about your use of tax dollars, I have 
seen you sit on the back of an airplane with me in the lowest 
economy seat, and somehow you folded up those legs of yours and 
got them in that seat. So, I hope the taxpayers appreciate 
that.
    Secretary Zinke. I fly coach. I always have.
    Mr. Curtis. Good, good. Also, a deep appreciation from my 
district and from the state of Utah for your attention to our 
needs there, for the difficult decisions that you have made, 
and much appreciation from my state. Let me just mention a 
couple of things briefly to you, and then I will be done.
    I was the mayor of my city of Provo, Utah, for the last 8 
years. The very first year as mayor, the Central Utah Water 
Project came through my city. They put a 60-inch pipeline from 
one end of the city to the other end of the city. None of that 
water was delivered to our city, it went further north. But we 
tolerated and embraced that project, because we know how 
critical it is to our valley and to the state of Utah.
    Now, another arm of that project is going in that will help 
Provo. There was a $2.4 million gap--not huge--between what was 
appropriated and what was in your budget, and I just wanted to 
see if you would take a look at that and see if there is a 
possibility of closing that gap so we could finish this 
critical project for our valley.
    Secretary Zinke. Well, we funded $8 million, I know it was 
about $2 million short. I think what Congress can help me with 
is transfer authority, because I am holding books on a lot of 
projects that should be transferred over to the water 
districts, themselves. Because again, the original intent on a 
lot of these projects was these small communities could not 
afford them. We wanted to make sure the land was productive, so 
the Federal Government would come in, invest in it, and, over 
the period of time, the water users would pay it off and then 
title would be transferred at an appropriate time.
    We forget about the title transfer at an appropriate time. 
And thus, when you look at it now, years later, decades later, 
we are holding on to a lot of assets that we are paying for 
that we should transfer over to the water districts, and then 
focus on building new projects and being a good neighbor once 
again.
    Mr. Curtis. We would love to explore that when we have more 
time, to see how I could be helpful with that. Thank you for 
your attention there.
    The second and last thing is--I am fortunate to have the 
district with the iconic Arches National Park unit. It is an 
amazing asset. The state of Utah every once in a while wonders 
if we did the right thing by advertising these parks. We are 
loving them to death. The lines are long to get in. And the 
current park supervisor has worked very hard to try to come up 
with a plan, and currently is looking at a reservation system 
in the park.
    It won't surprise you to know that that is causing some 
consternation in Moab, and simply an ask to help us all make 
sure that we are exhausting every possibility, in that we are 
trying to accommodate as many visitors as that park can 
appropriately handle. I learned just today that she was doing 
an economic development study, and that is really critical for 
that area to know what the impact would be of a reservation 
system. And then just the hope that we can continue to exhaust 
every possibility before we move to that reservation system to 
make sure that is the right thing there.
    Secretary Zinke. Well, we certainly are looking at options. 
One of the options, actually, is going to a transporter on 
maybe the top 10 parks. And a transporter is probably having 
Tesla or one of the zero-emissions, because people love those, 
design--in Glacier Park, like a red bus carrier, where we begin 
to limit the number of cars, and then tie it in to an app. Part 
of the problem with Zion has been if you have a bus system out 
there, they drop 70 people off at a trail head. So, your 
visitor experience is a clump of 70 people. We are actually 
looking at an app system, where you can tell whether a trail is 
red, yellow, or green, to make sure the park experience that we 
all love is maintained.
    So, we think that that model may work, and we are 
evaluating what it means. But there is no doubt there are going 
to be more visitors through our parks than we had this year, 
that we are loving our parks to death. We have to address the 
backlog, maintenance, and repair. And there is a capacity that 
is probably there, and we are over capacity in some parks. But 
it is about people management, and making sure the visitor 
experience is sacred.
    Mr. Curtis. I think it would be fantastic if I could go 
back and tell the good people of Moab that we are looking at 
those types of options, and at least considering technology to 
make that visitor experience valuable.
    There is about a $25 million backlog in Arches. And 
although fees cannot overcome all of your deficit, that is one 
situation where you may have the ability to come closer to that 
deficit, if we could increase the number of people in that 
park.
    Secretary Zinke. Knowing Moab, I can bet they are going to 
like zero emissions.
    Mr. Curtis. You are right, yes. Thank you very much for 
your time.
    The Chairman. Don't ever say that again.
    [Laughter.]
    The Chairman. Steve, I gave you--sorry, Representative 
Curtis, can you change your first name, so you match the mayor?
    Mr. Curtis. You are going to owe me more time, Mr. 
Chairman.
    The Chairman. Yes, you have an extra 30 seconds because you 
are from Utah.
    Mr. Curtis. Thank you.
    The Chairman. All right. Secretary Zinke, I appreciate you 
going above and beyond the call of duty here. I hope it is 
either from your background as a SEAL, which goes above and 
beyond the call of duty, or simply your background of having 
sat here and been cut off when the speaker leaves before you 
have a chance to ask any questions. But the fact that you spent 
this much time means something really significant.
    So, I do want to thank you for putting out that much time, 
because you have stayed longer than you actually said you could 
stay. And that doesn't necessarily happen with a whole lot of 
other people who have come to testify in front of us.
    You know the drill here, Committee Rule 3(o) says that any 
Member who has additional questions has 3 days to send them and 
submit them to us by the close of business on that third 
business day. And you get to look at those and have 10 days to 
answer them as part of the record. I appreciate you doing that.
    Secretary, I also want you to know that some things are 
said hopefully in jest, and heaven knows I do that all the 
time, too. But in no way does this Committee want to condone or 
recommend that we disrespect any of the service or the service 
of Navy SEALs, and I apologize for anything that may have been 
misconstrued on what the meaning of this Committee said. We 
have a great deal of respect for your former colleagues and I 
just want that very clear on the record.
    So, I apologize from the Committee for anything that may 
have been offensive that was said in this particular Committee.
    With that----
    Secretary Zinke. Apology accepted. I am always willing to 
work with this great committee.
    The Chairman. Well, look, there are only four of us that 
cared. Do you want to give a benediction of anything?
    [Laughter.]
    Secretary Zinke. I will see you next year.
    The Chairman. All right. That is close enough.
    Secretary Zinke. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Secretary. Thank you for 
your staff that was here with you, as well.
    This Committee stands adjourned.

    [Whereupon, at 1:18 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Rep. Grijalva Submissions

                     ALLIANCE FOR RETIRED AMERICANS

                        Statement for the Record

    The Alliance for Retired Americans appreciates the opportunity to 
submit comments to the Committee on Natural Resources on the hearing 
titled, ``Interior Department FY2019 Budget.''

    Founded in 2001, the Alliance is a grassroots organization 
representing more than 4.3 million retirees and seniors nationwide. 
Headquartered in Washington, D.C., the Alliance and its 36 state 
chapters work to advance public policy that strengthens the health and 
economic security of older Americans by teaching seniors how to make a 
difference through activism.

    Secretary Zinke and the Trump Administration are blaming seniors, 
veterans, people with disabilities and even school children for higher 
entry fees at our national parks. This is happening at the same time 
that the Trump Administration's own budget proposal cuts the National 
Park Service funding by $493 million next year. The Administration also 
slashed funding for the park service last year.

    In addition, the Administration and congressional leaders just 
passed an enormous tax cut for corporations the wealthiest Americans. 
Now they want middle- and low-income Americans to pay more to visit our 
national treasures.

    Our national parks are for the entire American public to enjoy. It 
is disgraceful to blame veterans and seniors who have already 
sacrificed and given so much to this country, and those individuals who 
are least able to afford it, for the Administration's misplaced 
priorities.

    On behalf of its more than 4.3 million members, the Alliance for 
Retired Americans appreciates the opportunity to submit this testimony 
on this critically important issue.

                                 ______
                                 

   ASA Leadership Responds to Interior Secretary Blaming Elderly for 
                      National Park Fee Increases

The American Society on Aging's (ASA) Board Chair Bob Blancato, Chair-
Elect Karyne Jones, and CEO Bob Stein today condemned remarks offered 
by Interior Secretary Ryan Zinke during testimony to the Senate Energy 
and National Resources Committee on Tuesday.

As reported in The Hill, Zinke said, ``When you give discounted or free 
passes to elderly, fourth graders, veterans, disabled, and you do it by 
the carload, there's not a whole lot of people who actually pay at our 
front door. So, we're looking at ways to make sure we have more revenue 
in the front door of our parks themselves.''

ASA leaders responded by saying, ``On behalf of the older and disabled 
Americans and veterans in our membership, we take offense at the 
comments of the Interior Secretary about all of these groups not 
continuing to enjoy free access to national parks. It is especially 
disingenuous coming from a Cabinet Secretary who, according to 
published reports, spent almost $140,000 in taxpayer funds to fix doors 
leading into his office. This proposal to impose these new fees should 
be shown the door.''

ASA will continue to support policies that provide preferential access 
to public resources for older Americans, youth, the disabled and the 
veteran community.

                                 ______
                                 
                                        AMVETS,    
                                   National Headquarters,  
                                           Lanham, Maryland

                                                     March 15, 2018

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    In light of comments made by Secretary of the Interior Ryan Zinke 
earlier this week at a Senate Committee on Energy and Natural Resources 
hearing regarding access to National Parks, AMVETS wanted to reach out 
to you prior to today's hearing.

    AMVETS works hard to advocate for those who serve this country, and 
we are proud of our Americanism program which aims to inspire 
patriotism in the youth of America. The future of our military depends 
on ``Americanism,'' and the number of people who qualify to join the 
military under current standards is quickly decreasing as the United 
States faces the longest period of armed conflict in its history.

    Secretary Zinke, as a veteran, should know this. Revoking 
discounted entry to our National Parks for veterans, the disabled, and 
the elderly can only be categorized as a blatant insult to those who 
stood up and served in the military, those with daily challenges of 
living with a disability, and our elderly who live in a country that 
sadly seems to be losing reverence for those that came before them. 
Blaming this group of Americans as Zinke floats hiking entry fees for 
others is also a needless insult and burden.

    Surely the Secretary can consider more palatable cost-saving 
measures other than nickel and diming our veterans, the disabled, and 
the elderly while perpetuating disrespect of those who deserve more 
from the leaders of this country.

            Sincerely,

                                        Joseph R. Chenelly,
                                                Executive Director.

                                 ______
                                 

                                            GreenLatinos,  
                                             Washington, DC

                                                     March 14, 2018

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of GreenLatinos--a national network of Latino 
Environmental and conservation advocates--we submit this letter for the 
record during the Committee's upcoming hearing on the Department of the 
Interior's (DOI) policy priorities and Fiscal Year 2019 budget.

    As an organization that represents one of the fasting growing 
minority populations in America on matters of environmental and 
conservation policy we remain deeply concerned with the drastic cuts 
that Secretary Zinke and the Trump Administration have proposed for the 
agency. An overall reduction in the agency's budget by 14 percent from 
2017 enacted levels will have visceral adverse impacts to parks 
visitation, cultural heritage programs, land acquisition, and rural 
water and drought mitigation efforts--which disproportionately impact 
minority and low-income communities, particularly in the southwest 
region of the country.

    Many of the proposed cuts will greatly impact GreenLatinos member-
driven core policy priorities (which include: environmental justice, 
civil rights, and public engagement; Indigenous rights and sovereignty; 
climate and clean air; toxics and pesticides; and clean water) and we 
wish to share a few of those concerns with your committee.

    On the environmental justice, civil rights, and public engagement 
priorities--it is deeply concerning to us that the agency has regressed 
on its commitment to inclusion, transparency, and the enforcement of 
policies and practices that impact the civil rights of both the public 
and the employees within the agency. For example, there has been little 
action to correct the agency's deficiencies that have been indicated 
from employee surveys indicating a pattern and practice of sexual 
harassment within the department. Further, a recent report from this 
Committee's minority staff have highlighted concerning gaps in the 
agency's anti-harassment policies to protect workers at all levels. 
Secretary Zinke's watering down of the agency's commitment to efforts 
that ensure the nation's cultural resources and programs reflect the 
rich and diverse tapestry of America, as evidenced by the proposed 
strategic plan language that eliminates those efforts as an agency goa, 
are both troubling and disappointing.

    Our commitment to climate and clean air priorities also remains 
under threat with some of the agency's proposed cuts. For example, 
proposal includes a cut of nearly $13 million to the Bureau of Land 
Management's (BLM) Renewable Energy program while prioritizing 
expansion of oil, gas, and coal. Additionally, The Bureau of Ocean 
Energy Management (BOEM) proposes a 15% cut its renewable energy 
program, which will have tremendous consequences on the development of 
deployment of offshore wind energy--an important component of a clean, 
renewable energy future. Clean Water continues to remain a chief 
priority for GreenLatinos. It is troubling to our organization and its 
members that the agency, through the Bureau of Reclamation (BOR) has 
proposed significant cuts to the WaterSMART program (a 92% cut to Title 
XVI water recycling project and a 65% cut for WaterSMART efficiency 
grants), a critical program to ameliorate the impact of drought through 
conservation, water-use efficiency, and water reuse projects. Equally 
concerning to our members is the $50 million dollar decrease in funding 
for rural water projects--projects specifically aimed at addressing 
water scarcity in the most vulnerable communities.

    We urge the committee to explore these concerns with Secretary 
Zinke and advocate strongly for a course correction in these important 
areas from DOI. These policy and funding decisions will have deep and 
lasting impacts for many vulnerable communities, including Latino and 
low-income families. We feel strongly that fostering transparency and 
public input, protecting civil rights and promoting environmental 
justice, maintaining a commitment to address climate change and protect 
clean air, ensuring clean water--particularly for vulnerable 
communities, and respecting the sovereignty and rights of indigenous 
communities are all critical aims that should be pursued with 
tremendous rigor.

                                 ______
                                 

                   NATIONAL DISABILITY RIGHTS NETWORK

        Protection & Advocacy for Individuals with Disabilities

To blame a fee hike on admission to the most visited national parks on 
veterans, people with disabilities and the elderly is uninformed, 
hurtful, and frankly unconscionable. Collectively our national parks 
can be seen ``as cumulative expressions of a single national 
heritage.'' When speaking of that national expression of a single 
heritage, NDRN encourages Secretary Zinke to be more considerate of the 
lived experiences of all Americans.

                                 ______
                                 
                      National Wildlife Federation,
                                             Washington, DC

                                                     March 12, 2018

Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Ranking Member Grijalva:

    On behalf of the National Wildlife Federation's (NWF) more than 6 
million members and supporters and 50 state and territorial affiliates, 
we submit this letter for the record to express our deep concerns with 
the Department of the Interior (DOI)'s funding levels proposed in its 
fiscal year 2019 budget proposal. Significant cuts to key agency 
programs will greatly harm ongoing habitat and wildlife protection 
efforts. The agency proposes a $128 million decrease to the U.S. Fish 
and Wildlife Service (FWS)--a bureau charged with a mission to 
conserve, protect, and enhance fish, wildlife, plants, and their 
habitats. This reduction will strain the management of over 500 
national wildlife refuges and conservation units visited by over 50 
million people annually, and put in greater jeopardy more than 1,600 
plant and animal species listed as threatened or endangered. 
Conservation programs and efforts within other DOI bureaus are also at 
risk. For example, the agency's proposed $263 million cut to the Bureau 
of Reclamation (BOR) could impact ongoing fish and wildlife restoration 
activities in the Central Valley Project area of California. The Bureau 
of Land Management's (BLM) Wildlife Management program is cut by $102 
million.

    While all of these reductions and the overall proposed funding 
level for the agency--representing a 14% cut--are troubling, equally 
concerning is the department's approach to public input, stakeholder 
engagement, and transparency. Secretary Zinke's agency reorganization 
plan, for example, has yet to be publicly released despite reports of 
its ongoing implementation. The public must have an opportunity to 
input into the agency's reorganization plan, and Congress must have the 
opportunity to exercise its important oversight responsibilities with 
respect to the details and impacts of this plan. We also note the 
recent admission by the agency that it did not properly record many 
thousands of public comments--including from the National Wildlife 
Federation--in support of plans to protect and conserve the sage steppe 
landscapes relied upon by the Greater Sage-grouse, plans agreed to by 
eleven Western governors.

    We encourage the House Committee on Natural Resources to explore 
these issues with Secretary Zinke and to ensure that DOI departmental 
decisions are made in the best interest of wildlife and habitat 
protection, using the best available science in a manner that is 
transparent and open to public input and legislative oversight.

    Thank you for your consideration of these issues.

            Sincerely,

                                        Laura Daniel Davis,
                             Vice President, Conservation Strategy.

                                 ______
                                 

PRESS RELEASE
Social Security WORKS

FOR IMMEDIATE RELEASE            March 15, 2018

Contact: Linda Benesch, 240-342-4301, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80c9e2e5eee5f3e3e8c0f3efe3e9e1ecf3e5e3f5f2e9f4f9f7eff2ebf3aeeff2e7">[email&#160;protected]</a>

 Social Security Works Statement for House Natural Resources Committee 
                         Hearing on FY19 Budget

(Washington, DC)--The following is a statement from Alex Lawson, 
President of Social Security Works, in reaction to Interior Secretary 
Ryan Zinke's proposal to raise fees for visiting national parks:

``The only thing more reprehensible than Ryan Zinke's plan to jack up 
fees for visiting national parks is his blaming the price hike on 
seniors, Americans with disabilities, and veterans. The average Social 
Security retirement benefit is $1,369 a month and the average Social 
Security disability benefit is $1,172 a month. If Zinke goes through 
with his plan it will make it impossible for millions of Americans to 
visit our country's greatest natural treasures.

Zinke is a disgrace to the legacy of President Theodore Roosevelt, and 
everyone who has worked hard for over 100 years to make our nation's 
national parks accessible to everyone.''

                                 ______
                                 

VET VOICE FOUNDATION
Twitter
@VetVoiceFound

Disgusting! @SecretaryZinke blames his decision to look into hiking 
entrance fees to our public lands and national parks on veterans, the 
disabled, and elderly. Shame on you, Secretary Zinke. #VetsVSZinke

[GRAPHIC] [TIFF OMITTED] T8980.004


.eps9:11 PM--13 Mar 2018

                                 ______
                                 

PRESS RELEASE
Vietnam Veterans of America

IMMEDIATE RELEASE March 14, 2018 No. 18-2

Contact: Mokie Porter 301-996-0901; 301-585-4000, Ext. 146

Secretary Zinke: Don't Blame Veterans and the Disabled for Raising Park 
                             Entrance Fees

(Washington, DC)--In reaction to Interior Secretary Ryan Zinke's plan 
to raise the entrance fees for national parks, saying the National Park 
Service must charge more because too many people, including veterans 
and the disabled, get in for free, VVA National President John Rowan 
issued the following statement:

``Secretary Zinke's rationale to steeply increase the entrance fees for 
others, because disabled veterans and active-duty military get in for 
free, is a small-minded and mean-spirited jab that pits some citizens 
against others. I believe that we, as a nation, are more inclusive and 
compassionate than this.

``By discounting fees, we honor our veterans and our seniors and bring 
a bit of inexpensive enjoyment to our disabled citizens. Does Mr. Zinke 
really think that citizens who pay $25 or $30 per carload to enjoy some 
of our most popular national parks are going to pay twice as much? Does 
he really believe that they will buy his ill-conceived argument that 
because veterans get in for free, the rates must be doubled for 
everyone else?

``Secretary Zinke's flawed plan needs to be discarded and forgotten.''

                                 ______
                                 

Rep. Huffman Submission

               California Natural Resources Agency,
                                     Sacramento, California

                                                     March 13, 2018

Hon. Paul Ryan, Speaker of the House,
Hon. Nancy Pelosi, Democratic Leader,
House of Representatives,
Washington, DC 20515.

Hon. Mitch McConnell, Senate Majority Leader,
Hon. Charles Schumer, Senate Minority Leader,
U.S. Senate,
Washington, DC 20510.

Re: Shasta Dam and Reservoir Enlargement Project

    Dear Honorable Representatives Ryan, Pelosi, McConnell and Schumer:

    The letter is to express opposition to the Department of the 
Interior's proposal to fund design and pre-construction activities 
associated with the proposed Shasta Dam and Reservoir Enlargement 
Project.
    As you may be aware, the Shasta Dam enlargement project would 
violate California law due to the adverse impacts that project may have 
on the McCloud River and its fishery. California Public Resources Code 
section 5093.542 generally prohibits state agencies and departments 
from assisting in any way ``in the planning or construction of any dam, 
reservoir, diversion, or other water impoundment facility that could 
have an adverse effect on the free-flowing condition of the McCloud 
River, or on its wild trout fishery.''
    California shares the Department of Interior's commitment to 
investing in new water storage. In 2014, California voters 
overwhelmingly approved a $7.5 billion water bond (Proposition 1) that 
provides $2.7 billion to invest in new water storage. The California 
Water Commission is reviewing 11 proposed projects as part of a 
competitive process and expects to make initial funding determinations 
and award early funding this summer. The Shasta Dam enlargement project 
would inundate several miles of the protected McCloud River in 
violation of state law and therefore is not eligible for Proposition 1 
funding.
    Leveraging state, local and federal dollars is the most effective 
way to ensure that important water storage projects are funded and 
built. As such, I ask that you not pursue the Shasta Dam enlargement 
project, which disregards California law, and instead work with the 
State of California to fund water storage projects consistent with our 
California Water Action Plan and Proposition 1.

            Sincerely,

                                                John Laird,
                        Secretary for California Natural Resources.

                                 ______
                                 

Rep. McClintock Submission

          United States Department of the Interior,
                                 Office of the Secretary,  
                                             Washington, DC

                                                   October 31, 2017

Hon. Rob Bishop, Chairman,
Committee on Natural Resources,
Washington, DC 20515.

    Dear Mr. Chairman:

    This letter provides additional information and clarification 
relating to your October 3, 2017, request for information on Department 
of the Interior Secretarial travel use of non-commercial flights.
    Enclosed with this letter is a copy of a disk titled 
``00005042_001'' that contains an electronic set of the documents 
transmitted to your Committee by the Department on October 5, 2017. 
This electronic set of documents contains several updates to the paper 
copy originally provided to your Committee. First, the disk contains 
four additional documents identifying travel policies in the 
Department, the U.S. Fish and Wildlife Service, and the Bureau of 
Reclamation. Second, we have identified and included 6 additional 
documents relating to Secretarial travel during the years 2011-2015.
    With the addition of this new material and other corrections to the 
organization of the original document set, the summary of pertinent 
information included in our original letter has also been updated to 
reflect this new information, as follows:
[GRAPHIC] [TIFF OMITTED] T8980.001

    .epsIn addition, for the Committee's convenience, the Department is 
providing below descriptions and justifications for Secretary Zinke's 
2017 non-commercial travel on behalf of the Department of Interior.
[GRAPHIC] [TIFF OMITTED] T8980.002

.eps[GRAPHIC] [TIFF OMITTED] T8980.003

    .epsThe above information does not include flights on Air Force One 
and other inter-agency mission aircraft.
    Finally, as noted in the Joint Statement of Melinda Loftin 
(Department of the Interior Designated Agency Official and Director of 
Departmental Ethics Office) and Edward Keable (Deputy Solicitor-General 
Law), released on September 29, 2017, the Scheduling Office meets 
regularly with the Department Ethics Office and Division of General Law 
to ensure that all travel is thoroughly reviewed and approved in 
advance and that it is fully compliant with all applicable laws, rules, 
and regulations. Consistent with this process, these trips were 
reviewed and approved in advance by both the Department Ethics Office 
and the Division of General Law and were determined to be compliant 
with all applicable laws, rules, and regulations.
    If you or your staff needs any additional assistance regarding this 
production, please contact Micah Chambers, Office of Congressional and 
Legislative Affairs, at (202) 208-5348 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c9cdc7c5ccfbc7ccc5c9c6c1d6d7e4cdcbd78ac0cbcd8ac3cbd28a">[email&#160;protected]</a>

            Sincerely,

                                    Christopher P. Salotti,
                   Office of Congressional and Legislative Affairs,
                                        Department of the Interior.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Barragan Submission

    --Letter from Rep. Barragan and other Members of Congress 
            to Secretary Zinke dated October 3, 2017

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
